No. 20-440
IN THE

Supreme Court of the United States
___________

MINERVA SURGICAL, INC.,
v.

Petitioner,

HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Respondents.
___________

On Writ of Certiorari to the United States
Court of Appeals for the Federal Circuit
___________

SUPPLEMENTAL APPENDIX
___________

ROBERT N. HOCHMAN*
CAROLINE A. WONG
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

MATTHEW M. WOLF*
MARC A. COHN
JENNIFER A. SKLENAR
R. STANTON JONES
WILLIAM C. PERDUE
SEAN A. MIRSKI
ARNOLD & PORTER
KAYE SCHOLER LLP
JILLIAN SHERIDAN
601
Massachusetts Ave., N.W.
STONECIPHER
Washington, D.C. 20001
SIDLEY AUSTIN LLP
(202) 942-5000
1501 K Street, N.W.
Washington, D.C. 20005 matthew.wolf@arnoldporter.com
(202) 736-8000
Counsel for Petitioner
Counsel for Respondents
*Counsels of Record
[Additional counsel listed on inside cover.]
PETITION FOR CERTIORARI FILED SEPT. 30, 2020
CERTIORARI GRANTED JAN. 8, 2021

VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
EDWARD G. POPLAWSKI
OLIVIA M. KIM
WILSON SONSINI GOODRICH
& ROSATI, P.C.
633 West Fifth Street
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner

TABLE OF CONTENTS

Page

Volume One
Relevant Docket Entries, Hologic, Inc. v. Minerva
Surgical, Inc., No. 1:15-cv-01031-JFB-SRF
(D. Del.) .........................................................

1

Docket Entries, Hologic, Inc. v. Minerva Surgical,
Inc., No. 19-2081 (Fed. Cir.) .........................

25

Declaration of Dr. Edward Evantash in Support
of Hologic, Inc.’s Motion for a Preliminary
Injunction, Hologic, Inc. v. Minerva Surgical,
Inc., No. 1:15-cv-01031-SLR (D. Del. Dec.
16, 2015), ECF No. 29 ...................................

43

Defendant Minerva Surgical, Inc.’s Answer to
Hologic, Inc.’s and Cytyc Surgical Products,
LLC’s Second Amended Complaint for
Infringement and Counterclaims, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031SLR (D. Del. Mar. 11, 2016), ECF No. 85 ....

51

Excerpts from Declaration of Dr. Evgueni
Skalnyi M.D. in Support of Defendant
Minerva Surgical, Inc.’s Opposition to
Plaintiffs’ Motion for a Preliminary
Injunction, Hologic, Inc. v. Minerva
Surgical, Inc., No. 15-1031-SLR (D. Del.
Mar. 11, 2016), ECF No. 89 ..........................

91

Memorandum Order Denying Motion for
Preliminary Injunction, Hologic, Inc. v.
Minerva Surgical, Inc., Civ. No. 15-1031SLR (D. Del. June 2, 2016), ECF No. 127 .... 104

ii
Memorandum Order Regarding Claim Construction, Hologic, Inc. v. Minerva Surgical, Inc.,
Civ. No. 15-1031-SLR (D. Del. Apr. 24,
2017), ECF No. 227....................................... 128
Excerpts from June 30, 2017 Declaration of
Csaba Truckai [attached as Exhibit 42 to
Declaration of Olivia M. Kim in Support of
Defendant Minerva’s Motion to Dismiss,
Motion for Partial Summary Judgment,
and Daubert Motion, Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031-SLRSRF (D. Del. Jan. 5, 2018), ECF No. 281-8,
Ex. 42] ........................................................... 136
Excerpts from June 30, 2017 Expert Report of
Dr. Robert Tucker, M.D., Ph.D. Regarding
Invalidity of U.S. Patent Nos. 6,872,183,
9,095,348 and 9,247,989 [attached as
Exhibit 43 to Declaration of Olivia M. Kim
in Support of Defendant Minerva’s Motion
to Dismiss, Motion for Partial Summary
Judgment, and Daubert Motion, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031SLR-SRF (D. Del. Jan. 5, 2018), ECF No.
281-8, Ex. 43] ................................................ 165
Excerpts from October 25, 2017 Deposition of
Csaba Truckai [Attached as Exhibit 4 to
Declaration of Marc A. Cohn, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Jan. 5, 2018), ECF No. 292-1,
Ex. 4] ............................................................. 227

iii
Excerpt from January 26–30, 2011 Email
Thread [Attached as Exhibit 83 to
Declaration of Marc A. Cohn, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Jan. 5, 2018), ECF No. 293-4,
Ex. 83] ........................................................... 296
Email from Dave Clapper to Erik Glaser “Re:
Confidential ‘DRAFT’ - Minerva Pivotal
Study One Year Report,” dated November
10, 2015 [Attached as Exhibit 179 to
Delaration of Marc A. Cohn, Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Feb. 14, 2018), ECF No. 3254, Ex. 179] ..................................................... 301
Joint Statement of Uncontested Facts, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031JFB-SRF (D. Del. June 7, 2018), ECF No.
367-1, Ex. 1 [Attached as Exhibit 1 to Joint
Proposed Pretrial Order] .............................. 310
Order Regarding Summary Judgment, Hologic,
Inc. v. Minerva Surgical, Inc., No.
1:15CV1031 (D. Del. June 28, 2018), ECF
No. 408 .......................................................... 315
Jury Verdict, Hologic, Inc. v. Minerva Surgical,
Inc., No. 1:15CV1031 (D. Del. July 27,
2018), ECF No. 499....................................... 317
Volume Two
Excerpts from official transcript of jury trial
held on July 17, 2018 .................................... 321
Excerpts from official transcript of jury trial
held on July 18, 2018 .................................... 329
Excerpts from official transcript of jury trial
held on July 19, 2018 .................................... 331

iv
Excerpts from official transcript of jury trial
held on July 20, 2018 .................................... 347
Excerpts from official transcript of jury trial
held on July 23, 2018 .................................... 487
Excerpts from official transcript of jury trial
held on July 24, 2018 .................................... 498
Excerpts from official transcript of jury trial
held on July 26, 2018 .................................... 507
Judgment Following Jury Verdict, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Aug. 13, 2018), ECF No. 520 ... 508
Decision Denying Institution of Inter Partes
Review, Case No. IPR2016-00680, Paper 8,
dated September 12, 2016 [Attached as
Exhibit 1 to Declaration of Marc A. Cohn in
Support of Plaintiffs’ Post-Trial Motions,
Hologic, Inc. v. Minerva Surgical, Inc., No.
15-1031-JFB-SRF (D. Del. Sept. 17, 2018),
ECF No. 545, Ex. 1] ...................................... 510
Decision Denying Institution of Inter Partes
Review, Case No. IPR2016-00685, Paper 8,
dated September 12, 2016 [Attached as
Exhibit 2 to Declaration of Marc A. Cohn in
Support of Plaintiffs’ Post-Trial Motions,
Hologic, Inc. v. Minerva Surgical, Inc., No.
15-1031-JFB-SRF (D. Del. Sept. 17, 2018),
ECF No. 545, Ex. 2] ...................................... 545
Memorandum and Order Regarding Judgment
as a Matter of Law, Hologic, Inc. v. Minerva
Surgical, Inc., No. 1:15-cv-1031 (D. Del. May
2, 2019), ECF No. 616 ................................... 578

v
Final Judgment, Hologic, Inc. v. Minerva
Surgical, Inc., Civ. No. 15-1031-JFB (D.
Del. June 3, 2019), ECF No. 621 .................. 603
Plaintiffs’ Trial Exhibit 12: Press Release, Cytyc
Corp., Cytyc to Acquire Novacept in $325
Million Cash Transaction; Expands Women’s
Health Franchise (Mar. 1, 2004) .................. 605
Plaintiffs’ Trial Exhibit 14: Agreement and Plan
of Merger between Cytyc Corporation and
Novacept (Mar. 1, 2004) ............................... 611
Excerpt from Plaintiff’s’ Trial Exhibit 41: Email
thread dated July 12–18, 2010 between
Colin Pollard, U.S. Food & Drug Admin.,
and Mary Edwards, Minerva Surgical, Inc.,
regarding “Questions for budget purposes
regarding endometrial ablation trials” ........ 732
Plaintiffs’ Trial Exhibit 55: Email thread dated
August 12–15, 2015 regarding “JMIG article
about Minerva endometrial ablation” .......... 735
Plaintiffs’ Trial Exhibit 106: Email thread dated
December 2–19, 2014 between Mandy
Callahan, IP Paralegal, Hologic, Inc., and
Csaba
Truckai
regarding
“Patent
declaration” ................................................... 737
Plaintiffs’ Trial Exhibit 128: Minerva Statement
on Training ................................................... 739
Defendant’s Trial Exhibit 424: Email thread
dated August 12–18, 2015 regarding
“Minerva Hiring” .......................................... 741
Defendant’s Trial Exhibit 425: Email thread
dated September 30–October 2, 2015
regarding Minerva “defense program”......... 746

vi
Defendant’s Trial Exhibit 622: “Strategy
Planning Meeting Key Themes and Take
Aways” attachment to email thread
regarding Minerva “defense program”......... 748
Excerpt from Joint Trial Exhibit 5: U.S. Patent
No. 9,095,348 File History, U.S. Application
No. 13/962,178 (08/08/2013) .......................... 753
Excerpt from Joint Trial Exhibit 24: PMA
P140013: FDA Summary of Safety and
Effectiveness Data (SSED) – Thermal
(Radiofrequency Ionized Argon Gas)
Endometrial Ablation Device – Minerva™
Endometrial Ablation System ...................... 755
Excerpts from Joint Trial Exhibit 32: PMA
P010013: Summary of Safety and
Effectiveness Data – Thermal (RadioFrequency) Endometrial Ablation Device –
NovaSure™
Impedance
Controlled
Endometrial Ablation System ...................... 759
Supplemental Appendix
Plaintiffs’ Trial Exhibit 114: Letter and attachment from Mandy Callahan, IP Paralegal,
Hologic, Inc., to Csaba Truckai “Re:
Request for Signature – Hologic Inventor
Declaration for 13.003011 US CON 7” ........ 763
Excerpts from Defendant’s Trial Exhibit 16:
U.S. Patent No. 6,813,520 ............................ 795
Joint Trial Exhibit 2: U.S. Patent No. 9,095,348 .... 802
Excerpts from Joint Trial Exhibit 15: U.S.
Patent No. 6,813,520 File History, U.S.
Application No. 09/103,072 (06/23/1998) ....... 834
Joint Trial Exhibit 18: U.S. Patent No. 5,443,470 ... 977

vii
NOTICE
The following documents have been omitted from the
printing of this Joint Appendix. They may be found
in the Appendix to the Petition for a Writ of
Certiorari at the following pages:
Opinion, Hologic, Inc. v. Minerva Surgical, Inc.,
957 F.3d 1256 (Fed. Cir. 2020) .....................

1a

Memorandum Opinion, Hologic, Inc. v.
Minerva Surgical, Inc., 325 F. Supp. 3d
507 (D. Del. 2018), aff’d, 957 F.3d 1256
(Fed. Cir. 2020) ............................................ 33a
Order Denying Petitions for Panel Rehearing
and Rehearing En Banc, Hologic, Inc. v.
Minerva Surgical, Inc., Nos. 2019-2054,
2019-2081 (Fed. Cir. July 22, 2020), ECF
No. 72 ............................................................ 79a

763

PTX-0114
1:15-cv-01031-JFB-SRF

Appx36614

764

Appx36615

765

Appx36616

766

Appx36617

767

Appx36618

768

Appx36619

769

Appx36620

770

Appx36621

771

Appx36622

772

Appx36623

773

Appx36624

774

Appx36625

775

Appx36626

776

Appx36627

777

Appx36628

778

Appx36629

779

Appx36630

780

Appx36631

781

Appx36632

782

Appx36633

783

Appx36634

784

Appx36635

785

Appx36636

786

Appx36637

787

Appx36638

788

Appx36639

789

Appx36640

790

Appx36641

791

Appx36642

792

Appx36643

793

Appx36644

794

Appx36645

795

111111111111111111111111011q1pjj11111111101011111111110111111
(12)

United States Patent

(10) Patent No.:
US 6,813,520 B2
(45) Date of Patent:
Nov. 2, 2004

Truckai et al.

(54)

(75)

1,620,929 A

METHOD FOR ABLATING AND/OR
COAGULATING TISSUE USING MOISTURE
TRANSPORT
Inventors: Csaba Truckai, Sunnyvale, CA (US);
Russel Mahlon Sampson, Mountain
View, CA (US); Stephanie Squarcia,
Palo Alto, CA (US); Alfonzo Lawrence
Ramirez, San Jose, CA (US); Estela
Hilario, Los Altos, CA (US)

(73)

Assignee: Novacept, Palo Alto, CA (US)

(* )

Notice:

(21)

Appl. No.: 09/103,072

(22)

Filed:

(List continued on next page.)
FOREIGN PATENT DOCUMENTS
DE
EP
EP

Jun. 23, 1998

(List continued on next page.)

D. E. Haines and A. F. Verow, Observations on Electrode-Tissue Interface Temperature and Effect on Electrical
Inpendance During Radiofrequency Ablation of Ventricular
Myocardium. Circulation vol. 82, No. 3, Sep. 1990.

Primary Examiner-Christopher L. Chin
Assistant Examiner Ann Y Lam
(74) Attorney, Agent, or Firm-Stallman & Pollock LLP

Prior Publication Data

(57)
Related U.S. Application Data

(60)

(51)
(52)
(58)

Continuation-in-part of application No. 08/632,516, filed on
Apr. 12, 1996, now Pat. No. 5,769,880.
Provisional application No. 60/084,791, filed on May 8,
1998.

Int. C1.7
U.S. Cl.

A61F 2/00
607/101; 604/22; 604/28;
600/372; 600/373
Field of Search
607/100, 101,
607/108, 96, 98, 99, 1, 2, 115, 116, 27,
32, 122, 138; 600/372, 373, 377, 591; 604/20,
21, 22, 28, 48, 500, 506, 514, 515, 517,
93.01, 264, 275, 113, 114, 49, 55, 95.01-96.01,
35, 511, 509; 606/47, 119, 191, 193, 198

(56)

References Cited
U.S. PATENT DOCUMENTS
552,832 A
725,731 A

10/1923
2/1986
3/1994

(List continued on next page.)

US 2002/0022870 Al Feb. 21, 2002

(63)

384246
0056178
0584930 Al

OTHER PUBLICATIONS

Subject to any disclaimer, the term of this
patent is extended or adjusted under 35
U.S.C. 154(b) by 0 days.

(65)

3/1927 Wallerich

ABSTRACT

An apparatus and method for use in performing ablation or
coagulation of organs and other tissue includes a metallized
fabric electrode array which is substantially absorbent and/
or permeable to moisture and gases such as steam and
conformable to the body cavity. The array includes conductive regions separated by insulated regions arranged to
produce ablation to a predetermined depth. Following placement of the ablation device into contact with the tissue to be
ablated, an RF generator is used to deliver RF energy to the
conductive regions and to thereby induce current flow from
the electrodes to tissue to be ablated. As the current heats the
tissue, moisture (such as steam or liquid) leaves the tissue
causing the tissue to dehydrate. Suction may be applied to
facilitate moisture removal. The moisture permeability and/
or absorbency of the electrode carrying member allows the
moisture to leave the ablation site so as to prevent the
moisture from providing a path of conductivity for the
current.

1/1896 Fort
4/1903 Linn

47 Claims, 18 Drawing Sheets

DTX-0016
1:15-cv-01031-JFB-SRF

MSI00013582

Appx38729

796

This page intentionally left blank.

797

US 6,813,520 B2
19

20

Next, with the grips 142, 144 in their resting positions to
keep the applicator head 102 covered by sheath 104, the
distal end of the device 100 is inserted into the uterus. Once
the distal end of the sheath 104 is within the uterus, grips
142, 144 are squeezed together to deploy the applicator head
102 from sheath 104. Grips 142, 144 are squeezed until heel
188 engages with locking spring member 190 as described
with respect to FIGS. 36A through 36C.
At this point, deflecting mechanism 102b has deployed
the array 102a into contact with the uterine walls. The user
reads the uterine width, which as described above is transduced from the separation of the spring flexures, from gauge
146. The measured length and width are entered into the RF
generator system 250 (FIG. 21) and used to calculate the
ablation power.
Vacuum source 252 (FIG. 21) is activated, causing application of suction to hypotube 122 via suction port 210.
Suction helps to draw uterine tissue into contact with the
array 102.
Ablation power is supplied to the electrode array 102a by
the RF generator system 250. The tissue is heated as the RF
energy passes from electrodes 118a—d to the tissue, causing
moisture to be released from the tissue. The vacuum source
helps to draw moisture from the uterine cavity into the
hypotube 122. Moisture withdrawal is facilitated by the
apertures 126 formed in flexures 124 by preventing moisture
from being trapped between the flexures 124 and the lateral
walls of the uterus.
If the RF generator 250 includes an impedance monitoring module, impedance may be monitored at the electrodes
118a—d and the generator may be programmed to terminate
RF delivery automatically once the impedance rises to a
certain level. The generator system may also or alternatively
display the measured impedance and allow the user to
terminate RI,' delivery when desired.
When RF delivery is terminated, the user depresses
release lever 194 to disengage heel 188 from locking spring
member 190 and to thereby allow grips 142, 144 to move to
their expanded (resting condition). Release of grips 142, 144
causes applicator head 102 to retract to its unexpanded
condition and further causes applicator head 102 to be
withdrawn into the sheath 104. Finally, the distal end of the
device 100 is withdrawn from the uterus.
Two embodiments of ablation devices in accordance with
the present invention have been described herein. These
embodiments have been shown for illustrative purposes
only. It should be understood, however, that the invention is
not intended to be limited to the specifics of the illustrated
embodiments but is defined only in terms of the following
claims.
We claim:
1. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member
and a pair of elongate flexures wherein each flexure
includes at least one opening, the electrode array
including a fluid permeable elastic member having
insulating regions and conductive regions thereon,
wherein the fluid permeable elastic member includes
metallized fabric;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition by expanding the flexures;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic

member and away from the tissue and allowing at least
a portion of the moisture to pass through the openings
in the flexures.
2. The method of claim 1 wherein the metallized fabric
includes yarns of elastic material and yarns of inelastic
material.
3. The method of claim 2 wherein the metallized fabric
includes yarns of spandex and nylon.
4. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member
and a pair of elongate flexures wherein each flexure
includes at least one opening, the electrode array
including a fluid permeable elastic member having
insulating regions and conductive regions thereon;
(b) positioning the electrode array into an organ and into
contact with tissue to be ablated and moving the array
to an expanded condition by expanding the flexures;
(c) measuring the approximate length and width of the
organ, selecting an ablation power corresponding to the
measured length and width, and delivering RF energy
through the array to the tissue at approximately the
selected power to cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue and allowing at least
a portion of the moisture to pass through the openings
in the flexures.
5. The method of claim 4 wherein the step of measuring
the approximate width of the organ includes the step of
expanding the flexures to an expanded condition and deriving the approximate width of the uterus from the relative
positions of the flexures in the expanded condition.
6. The method of claim 5 wherein step (c) further includes
selecting an ablation power which is proportional to the
measured length times the measured width.
7. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member
and a pair of elongate flexures wherein each flexure
includes at least one opening, the electrode array
including a fluid permeable elastic member having
insulating regions and conductive regions thereon,
wherein the array material has elasticity in a transverse
direction and in a longitudinal direction and wherein
the elasticity in the transverse direction is greater than
the elasticity in the longitudinal direction
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition by expanding the flexures;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue and allowing at least
a portion of the moisture to pass through the openings
in the flexures.
8. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon, wherein the fluid permeable elastic member
includes metallized fabric;

5

10

15

20

25

30

35

40

45

50

55

60

65

MS100013611

Appx38758

798

US 6,813,520 B2
21

22

(b) positioning the electrode array in contact with tissue to
be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member, away from tissue and into the tubular member.
9. The method of claim 8 wherein the metallized fabric
includes yarns of elastic material and yarns of inelastic
material.
10. The method of claim 9 wherein the metallized fabric
includes yarns of spandex and nylon.
11. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon;
(b) positioning the electrode array within an organ and
into contact with tissue to be ablated;
(c) measuring the approximate length and width of the
organ, selecting an ablation power corresponding to the
measured length and width, and delivering RF energy
through the array to the tissue at approximately the
selected power to cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member, away from tissue and into the tubular member.
12. The method of claim 11 wherein the providing step
provides the electrode array to be carried by a pair of
elongate flexures, and wherein the step of measuring the
approximate width of the organ includes the step of expanding the flexures to an expanded condition and deriving the
approximate width of the uterus from the relative positions
of the flexures in the expanded condition.
13. The method of claim 12 wherein step (c) further
includes selecting an ablation power which is proportional to
the measured length times the measured width.
14. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon, wherein the array material has elasticity in a
transverse direction and in a longitudinal direction and
wherein the elasticity in the transverse direction is
greater than the elasticity in the longitudinal direction;
(b) positioning the electrode array in contact with tissue to
be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member, away from tissue and into the tubular member.
15. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member having insulating regions and conductive
regions thereon, wherein the fluid permeable elastic
member includes metallized fabric;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition;

(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue, and applying suction
to draw the moisture through the tubular member.
16. The method of claim 15 wherein the metallized fabric
includes yarns of elastic material and yarns of inelastic
material.
17. The method of claim 16 wherein the metallized fabric
includes yarns of spandex and nylon.
18. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member having insulating regions and conductive
regions thereon;
(b) positioning the electrode array into and organ and
contact with tissue to be ablated and moving the array
to an expanded condition;
(c) measuring the approximate length and width of the
organ, selecting an ablation power corresponding to the
measured length and width, and delivering RF energy
to the tissue at approximately the selected power to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue, and applying suction
to draw the moisture through the tubular member.
19. The method of claim 18 wherein the providing step
provides the electrode array to be carried by a pair of
elongate flexures, and wherein the step of measuring the
approximate width of the organ includes the step of expanding the flexures to an expanded condition and deriving the
approximate width of the uterus from the relative positions
of the flexures in the expanded condition.
20. The method of claim 19 wherein step (c) further
includes selecting an ablation power which is proportional to
the measured length times the measured width.
21. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member having insulating regions and conductive
regions thereon wherein the array material has elasticity in a transverse direction and in a longitudinal
direction and wherein the elasticity in the transverse
direction is greater than the elasticity in the longitudinal
direction;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue, and applying suction
to draw the moisture through the tubular member.
22. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon;

5

10

15

20

25

30

35

40

45

50

55

60

65

MS100013612

Appx38759

799

US 6,813,520 B2
23

24

(b) positioning the electrode array within an organ and
into contact with tissue to be ablated;
(c) measuring the approximate length and width of the
organ, selecting an ablation power corresponding to the
measured length and width, and delivering the RF
energy to the tissue at approximately the selected
power to cause the tissue to dehydrate;
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue; and
(e) applying suction through the tubular member to draw
the tissue into contact with the electrode array.
23. The method of claim 22 wherein the step of measuring
the approximate width of the organ includes the step of
expanding the flexures to an expanded condition and deriving the approximate width of the organ from the relative
positions of the flexures in the expanded condition.
24. The method of claim 22 wherein step (c) further
includes selecting an ablation power which is proportional to
the measured length times the measured width.
25. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
including metallized fabric having insulating regions
and conductive regions thereon, the metallized fabric
including yarns of elastic material and yarns of inelastic
material;
(b) positioning the electrode array into contact with tissue
to be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate;
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue and
(e) applying suction through the tubular member to draw
the tissue into contact with the electrode array.
26. The method of claim 25 wherein the metallized fabric
includes yarns of spandex and nylon.
27. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon, wherein the array material has elasticity in a
transverse direction and in a longitudinal direction and
wherein the elasticity in the transverse direction is
greater than the elasticity in the longitudinal direction;
(b) positioning the electrode array into contact with tissue
to be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate;
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue; and
(e) applying suction through the tubular member to draw
the tissue into contact with the electrode array.
28. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
bipolar electrode array carried by an elongate tubular
member and a pair of elongate flexures wherein each
flexure includes at least one opening, the electrode

array comprising a fluid permeable elastic member
having insulating regions and conductive regions
thereon;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition by expanding the flexures;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction through the fluid
permeable elastic member to cause moisture generated
during the dehydration of step (c) to pass into the fluid
permeable elastic member and away from the tissue
and allowing at least a portion of the moisture to pass
through the openings in the flexures.
29. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including a bipolar
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member having insulating regions and conductive
regions thereon;
(b) positioning the electrode array in contact with tissue to
be ablated;
(c) delivering RE energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction through the fluid
permeable elastic member to cause moisture generated
during the dehydration of step (c) to pass into the fluid
permeable elastic member, away from tissue and into
the tubular member.
30. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
bipolar electrode array carried by an elongate tubular
member, the electrode array including a fluid permeable elastic member having insulating regions and
conductive regions thereon;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction to the tubular member and through the fluid permeable elastic member to
cause moisture generated during the dehydration of
step (c) to pass into the fluid permeable elastic member
and away from the tissue, the suction drawing the
moisture through the tubular member.
31. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an bipolar
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member having insulating regions and conductive
regions thereon;
(b) positioning the electrode array into contact with tissue
to be ablated;
delivering RF energy through the array to the tissue to
cause the tissue to dehydrate;
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue; and
(e) applying suction through the tubular member to draw
the tissue into contact with the electrode array.

5

10

15

20

25

30

35

40

45

50

55

60

65

MS100013613

Appx38760

800

US 6,813,520 B2
25

26

32. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member
and a pair of elongate flexures wherein each flexure
includes at least one opening, the electrode array
including a fluid permeable elastic member having
insulating regions and conductive regions thereon;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition by expanding the flexures;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction through the fluid
permeable elastic member to cause moisture generated
during the dehydration of step (c) to pass into the fluid
permeable elastic member and away from the tissue
and allowing at least a portion of the moisture to pass
through the openings in the flexures, the suction substantially eliminating liquid surrounding the electrodes
during ablation.
33. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon;
(b) positioning the electrode array in contact with tissue to
be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction through the fluid
permeable elastic member to cause moisture generated
during the dehydration of step (c) to pass into the fluid
permeable elastic member, away from tissue and into
the tubular member the suction substantially eliminating liquid surrounding the electrodes during ablation.
34. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member having insulating regions and conductive
regions thereon;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction to the tubular member and through the fluid permeable elastic member to
cause moisture generated during the dehydration of
step (c) to pass into the fluid permeable elastic member
and away from the tissue, the suction drawing the
moisture through the tubular member, the suction substantially eliminating liquid surrounding the electrodes
during ablation.
35. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
having insulating regions and conductive regions
thereon;

(b) positioning the electrode array into contact with tissue
to be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate;
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue; and
(e) applying suction through the tubular member to draw
the tissue into contact with the electrode array, the
suction substantially eliminating liquid surrounding the
electrodes during ablation.
36. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member
and a pair of elongate flexures wherein each flexure
includes at least one opening, the electrode array
including a fluid permeable elastic member comprising
a moisture permeable envelope having a hollow interior
and having insulating regions and conductive regions
thereon;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition by expanding the flexures;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction through the fluid
permeable elastic member to cause moisture generated
during the dehydration of step (c) to pass into the fluid
permeable elastic member and away from the tissue
and allowing at least a portion of the moisture to pass
through the openings in the flexures, wherein the suction causes the moisture to pass into the hollow interior
of the fluid permeable elastic member and away from
the electrode array.
37. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
comprising a moisture permeable envelope having a
hollow interior and having insulating regions and conductive regions thereon;
(b) positioning the electrode array in contact with tissue to
be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction through the fluid
permeable elastic member to cause moisture generated
during the dehydration of step (c) to pass into the fluid
permeable elastic member, away from tissue and into
the tubular member and wherein the suction causes the
moisture to pass into the hollow interior of the fluid
permeable elastic member and away from the electrode
array.
38. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an expandable
electrode array carried by an elongate tubular member,
the electrode array including a fluid permeable elastic
member comprising a moisture permeable envelope
having a hollow interior and having insulating regions
and conductive regions thereon;
(b) positioning the electrode array in contact with tissue to
be ablated and moving the array to an expanded condition;

5

10

15

20

25

30

35

40

45

50

55

60

65

MS100013614

Appx38761

801

US 6,813,520 B2
27

28

(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate; and
(d) during step (c), applying suction to the tubular member and through the fluid permeable elastic member to
cause moisture generated during the dehydration of
step (c) to pass into the fluid permeable elastic member
and away from the tissue, the suction drawing the
moisture through the tubular member, and wherein the
suction causes the moisture to pass into the hollow
interior of the fluid permeable elastic member and away
from the electrode array.
39. A method of ablating and/or coagulating tissue, comprising the steps of:
(a) providing an ablation device including an electrode
array carried by an elongate tubular member, the electrode array including a fluid permeable elastic member
comprising a moisture permeable envelope having a
hollow interior and having insulating regions and conductive regions thereon;
(11) positioning the electrode array into contact with tissue
to be ablated;
(c) delivering RF energy through the array to the tissue to
cause the tissue to dehydrate;
(d) permitting moisture generated during the dehydration
of step (c) to pass into the fluid permeable elastic
member and away from the tissue; and
(e) applying suction through the tubular member to draw
the tissue into contact with the electrode array and
wherein the suction causes the moisture to pass into the

hollow interior of the fluid permeable elastic member
and away from the electrode array.
40. The method of claim 28, 29, 30, 36, 37, 38 or 39,
wherein the suction draws tissue into contact with the
5 electrode carrying member.
41. The method of claim 40 wherein the tissue is inside an
organ, and wherein the suction at least partially collapses the
organ onto the electrode carrying member.
42. The method of claim 28, 29, 30, 31, 36, 37, 38 or 39,
10 wherein the tissue is within a uterus, wherein the positioning
step passes the electrode array through the cervix and into
the uterus, and wherein the method further includes forming
a seal around the elongate tubular member at the cervix.
43. The method of claim 28, 29, 30, 31, 36, 37, 38 or 39
15 wherein the fluid permeable elastic member includes metallized filaments.
44. The method of claim 43 wherein the metallized
filaments include elastic and inelastic filaments.
45. The method of claim 44 wherein the metallized
20 filaments include filaments of spandex and nylon.
46. The method of claim 28, 29, 30, 31, 36, 37, 38 or 39
wherein said suction substantially preventing formation of a
low-impedance liquid layer around the electrode array during ablation/coagulation using the electrode array.
25
47. The method of claim 28, 29, 30 or 31 wherein
substantially the entire bipolar electrode array maintains
continuous contact with the tissue to be ablated during said
ablation and/or coagulation of the tissue.
*

*

MS100013615

Appx38762

802

limmiloulloiggijggamummoim
(12) United States Patent

(10) Patent No.:
US 9,095,348 B2
(45) Date of Patent:
Aug. 4, 2015

Truckai et al.

(58)

(54)

MOISTURE TRANSPORT SYSTEM FOR
CONTACT ELECTROCOAGULATION

(71)

Applicant: Cytyc Surgical Products, Marlborough,
MA (US)

(72)

Inventors: Csaba Truckai, Sunnyvale, CA (US);
Russel Mahlon Sampson, Mountain
View, CA (US); Stephanie Squarcia,
Palo Alto, CA (US); Alfonso Lawrence
Ramirez, San Jose, CA (US); Estela
Hilario, Los Altos, CA (US)

Field of Classification Search
CPC
A61B 2018/00577; A61B 2018/00449;
A61B 2018/00559
USPC
606/41; 607/101, 105, 138
See application file for complete search history.

(56)

(73)

Assignee: Cytyc Surgical Products, Marlborough,
MA (US)

(*)

Notice:

(21)

Appl. No.: 13/962,178

(22)

Filed:

1/1896 Fort
4/1903 Linn
(Continued)

FOREIGN PATENT DOCUMENTS
DE
DE

384246
22 22 820

10/1923
11/1973

(Continued)
OTHER PUBLICATIONS

Prior Publication Data
Primary Examiner — Joseph Stoklosa
Assistant Examiner — Jocelyn D Ram
(74) Attorney, Agent, or Firm — Robert P. Smith

Feb. 13, 2014

Related U.S. Application Data
Continuation of application No. 12/581,506, filed on
Oct. 19, 2009, now Pat. No. 8,506,563, which is a
continuation of application No. 10/959,771, filed on
Oct. 6, 2004, now Pat. No. 7,604,633, which is a
(Continued)

(52)

552,832 A
725,731 A

"Essure, Permanent Birth Control by Conceptus: What is Essure?"
Product Information Sheet [on-line] [retrieved Oct. 19, 2004]
Retrieved from the Internet: < URL: http://www.essure.com/consumer/c. sub. --what.sub.--is. sub.--essure saspx >.
(Continued)

Aug. 8, 2013

US 2014/0046317 Al

(51)

U.S. PATENT DOCUMENTS

Subject to any disclaimer, the term of this
patent is extended or adjusted under 35
U.S.C. 154(b) by 149 days.

(65)

(60)

References Cited

Int. Cl.
A61B 18/14
A61B 18/18
U.S. Cl.
CPC

(2006.01)
(2006.01)
(Continued)
A61B 18/1482 (2013.01); A61B 17/42
(2013.01); A61B 18/1485 (2013.01);

(57)
ABSTRACT
An apparatus and method for use in performing ablation or
coagulation of organs and other tissue includes a metallized
fabric electrode array which is substantially absorbent and/or
permeable to moisture and gases such as steam and conformable to the body cavity. Following placement of the ablation
device into contact with the tissue to be ablated, an RF generator is used to deliver RF energy to the conductive regions
and to thereby induce current flow from the electrodes to
tissue to be ablated. As the current heats the tissue, moisture
(such as steam or liquid) leaves the tissue causing the tissue to
dehydrate. Suction may be applied to facilitate moisture
removal. The moisture permeability and/or absorbency of the
electrode carrying member allows the moisture to leave the
ablation site so as to prevent the moisture from providing a
path of conductivity for the current.

(Continued)

15 Claims, 18 Drawing Sheets
102

102b
136
148
140
138

JTX-0002
1:15-cv-01031-JFB-SRF

MSI00013489

Appx138

803

US 9,095,348 B2
Page 2

Related U.S. Application Data
division of application No. 09/103,072, filed on Jun.
23, 1998, now Pat. No. 6,813,520.
(60)

Provisional application No. 60/084,791, filed on May
8, 1998.

(51)

Int. Cl.
A61M 16/04
A61B 17/22
A61B 17/42
A61B 18/00
A61B 18/12
A61B 19/00

(52)

(2006.01)
(2006.01)
(2006.01)
(2006.01)
(2006.01)
(2006.01)

U.S. Cl.
CPC

A61B18/18 (2013.01); A61B 19/40
(2013 01); A61M 16/0481 (2014.02); A61B
2017/22051 (2013.01); A61B 2017/4216
(2013.01); A61B 2018/00291 (2013.01); A61B
2018/00559 (2013.01); A61B 2018/00577
(2013.01); A61B 2018/00708 (2013.01); A61B
2018/126 (2013.01); A61B 2019/4009
(2013.01); A61B 2019/465 (2013.01)

(56)

References Cited
U.S. PATENT DOCUMENTS
1,620,929
1,827,306
2,190,383
2,347,195
2,466,042
3,228,398
3,324,855
3,645,265
3,706,307
3,840,016
3,845,771
3,858,586
3,877,464
3,924,628
3,948,270
3,967,625
3,971,378
4,016,867
4,022,215
4,057,063
4,082,096
4,094,320
4,158,050
4,185,618
4,204,548
4,224,951
4,233,025
4,347,842
4,359,454
4,380,238
4,415,288
4,449,528
4,465,072
4,489,732
4,492,231
4,532,483
4,532,924
4,552,557
4,568,326
4,582,057
4,601,698
4,606,336
4,628,924
4,662,383
4,676,258
4,685,474

A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A

*

*

*

*

*

*

3/1927
10/1931
2/1940
4/1944
4/1949
1/1966
6/1967
2/1972
12/1972
10/1974
11/1974
1/1975
4/1975
12/1975
4/1976
7/1976
7/1976
4/1977
5/1977
11/1977
4/1978
6/1978
6/1979
1/1980
5/1980
9/1980
11/1980
9/1982
11/1982
4/1983
11/1983
5/1984
8/1984
12/1984
1/1985
7/1985
8/1985
11/1985
2/1986
4/1986
7/1986
8/1986
12/1986
5/1987
6/1987
8/1987

Wallerich
Chapman et al.
Newman
Huff
Reich et al.
Leonard et al.
Heimlich
Majzlin
Hasson
Lindemann
Vise
Lessen
Vermes
Droegemueller et al.
Hasson
Yoon
Krantz
King et al.
Benson
Gieles et al.
Benson
Newton et al.
Zipper
Corey
Kurz
Hasson
Larson et al.
Beale
Hoffman
Colucci et al.
Gordon et al.
Auth et al.
Taheri
Hasson
Auth
Schminke
Auth et al.
Rangaswamy
Rangaswamy
Auth et al.
Moulding, Jr.
Zeluff
Cimber
Sogawa et al.
Inokuchi et al.
Kurz et al.

600/591

600/591

600/591

600/591

604/103.1

600/591

4,691,703
4,700,701
4,739,759
4,765,331
4,788,966
4,807,620
4,832,048
4,865,047
4,869,268
4,946,440
4,949,718
4,955,377
4,960,133
4,961,435
4,979,948
4,981,465
4,983,177
5,026,379
5,047,028
5,057,106
5,065,751
5,078,717
5,084,044
5,105,808
5,109,869
5,147,353
5,159,925
5,160,334
5,178,148
5,186,181
5,188,122
5,188,602
5,217,473
5,226,908
5,242,437
5,248,312
5,263,585
5,275,610
5,277,201
5,308,327
5,318,532
5,322,507
5,334,193
5,334,209
5,354,295
5,357,956
5,358,496
5,364,393
5,370,649
5,374,261
5,374,283
5,380,317
5,383,917
5,385,544
5,395,311
5,405,322
5,407,071
5,423,808
5,433,708
5,437,629
5,443,470
5,451,204
5,474,089
5,484,400
5,498,261
5,505,730
5,507,743
5,514,091
5,540,655
5,540,681
5,542,916
5,558,672
5,562,703
5,562,720
5,573,533
5,575,788
5,588,961
5,593,404
5,599,345

*

*

*

*
*

*

9/1987
10/1987
4/1988
8/1988
12/1988
2/1989
5/1989
9/1989
9/1989
8/1990
8/1990
9/1990
10/1990
10/1990
12/1990
1/1991
1/1991
6/1991
9/1991
10/1991
11/1991
1/1992
1/1992
4/1992
5/1992
9/1992
11/1992
11/1992
1/1993
2/1993
2/1993
2/1993
6/1993
7/1993
9/1993
9/1993
11/1993
1/1994
1/1994
5/1994
6/1994
6/1994
8/1994
8/1994
10/1994
10/1994
10/1994
11/1994
12/1994
12/1994
12/1994
1/1995
1/1995
1/1995
3/1995
4/1995
4/1995
6/1995
7/1995
8/1995
8/1995
9/1995
12/1995
1/1996
3/1996
4/1996
4/1996
5/1996
7/1996
7/1996
8/1996
9/1996
10/1996
10/1996
11/1996
11/1996
12/1996
1/1997
2/1997

Auth et al.
Montaldi
Rexroth et al.
Petruzzi et al.
Yoon
Strul et al.
Cohen
Chou et al.
Yoon
Hall
Neuwirth et al.
Lennox et al.
Hewson
Kitagawa et al.
Geddes et al.
Ballan et al.
Wolf
Yoon
Qian
Kasevich et al.
Wolf
Parins et al.
Quint
Neuwirth et al.
Buckley
Everett
Neuwirth et al.
Billings et al.
Lacoste et al.
Franconi et al.
Phipps et al.
Nichols
Yoon
Yoon
Everett et al.
Langberg
Lawhon et al.
Eberbach
Stern
Heaven et al.
Frassica
Costello et al.
Nardella
Yoon
Guglielmi et al.
Nardella
Ortiz et al.
Auth et al.
Gardetto et al.
Yoon
Flick
Everett et al.
Desai et al.
Edwards et al.
Andrews
Lennox et al.
Lawhon et al.
Edwards et al.
Nichols et al.
Goldrath
Stern et al.
Yoon
Waynant
Edwards et al.
Strul
Edwards
Edwards et al.
Yoon
Edwards et al.
Strul et al.
Hirsch et al.
Edwards et al.
Desai
Stern et al.
Strul
Baker et al.
Leone et al.
Costello et al.
Edwards et al.

600/591

606/198

606/198

607/98
604/1

606/41

MSI00013490

Appx139

804

US 9,095,348 B2
Page 3

(56)

References Cited
U.S. PATENT DOCUMENTS
5,599,346
5,609,598
5,613,950
5,620,481
5,649,924
5,656,013
5,658,316
5,667,520
5,697,882
5,702,438
5,716,343
5,722,975
5,730,136
5,730,725
5,733,252
5,769,880
5,779,698
5,797,903
5,800,482
5,807,389
5,810,847
5,827,273
5,843,026
5,843,121
5,846,238
5,865,788
5,871,469
5,879,348
5,885,278
5,885,601
5,888,198
5,891,134
5,891,136
5,897,551
5,897,553
5,935,123
5,935,137
5,938,660
5,944,715
5,954,717
5,979,446
5,997,534
6,002,968
6,014,589
6,033,397
6,036,687
6,041,260
6,042,596
6,047,700
6,066,139
6,068,613
6,068,626
6,071,277
6,071,281
6,074,386
6,077,257
6,096,052
6,112,123
6,117,101
6,123,702
6,135,997
6,139,527
6,139,546
6,152,899
6,159,207
6,164,280
6,165,172
6,179,832
6,183,468
6,193,713
6,197,025
6,200,312
6,224,591
6,231,496
6,231,507

A
A
A
A
A
A
A
A
A
A *
A
A
A
A
A
A *
A
A
A
A
A
A
A
A
A
A
A
A
A *
A
A
A *
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A
A *
A
A
A
A
A
A
A
A
A
A
A
A
A
B1
B1
B1
B1
B1
B1 *
B1
B1

2/1997
3/1997
3/1997
4/1997
7/1997
8/1997
8/1997
9/1997
12/1997
12/1997
2/1998
3/1998
3/1998
3/1998
3/1998
6/1998
7/1998
8/1998
9/1998
9/1998
9/1998
10/1998
12/1998
12/1998
12/1998
2/1999
2/1999
3/1999
3/1999
3/1999
3/1999
4/1999
4/1999
4/1999
4/1999
8/1999
8/1999
8/1999
8/1999
9/1999
11/1999
12/1999
12/1999
1/2000
3/2000
3/2000
3/2000
3/2000
4/2000
5/2000
5/2000
5/2000
6/2000
6/2000
6/2000
6/2000
8/2000
8/2000
9/2000
9/2000
10/2000
10/2000
10/2000
11/2000
12/2000
12/2000
12/2000
1/2001
2/2001
2/2001
3/2001
3/2001
5/2001
5/2001
5/2001

Edwards et al.
Laufer et al.
Yoon
Desai et al.
Everett et al.
Yoon
Lamond et al.
Bonutti
Eggers et al.
Avitall
Kriesel et al.
Edwards et al.
Laufer et al.
Yoon
Yoon
Truckai et al.
Clayman et al.
Swanson et al.
Pomeranz et al.
Gardetto et al.
Laufer et al.
Edwards
Edwards et al.
Yoon
Jackson et al.
Edwards et al.
Eggers et al.
Owens et al.
Fleischman
Sokal
Eggers et al.
Goble et al.
McGee et al.
Everett et al.
Mulier et al.
Edwards et al.
Saadat et al.
Swartz et al.
Goble et al.
Behl et al.
Loy
Tu et al.
Edwards
Farley et al.
Laufer et al.
Laufer et al.
Stern et al.
Bonutti
Eggers et al.
Ryan et al.
Kriesel et al.
Harrington et al.
Farley et al.
Burnside et al.
Goble et al.
Edwards et al.
Callister et al.
Kelleher et al.
Diederich et al.
Swanson et al.
Laufer et al.
Laufer et al.
Koenig et al.
Farley et al.
Yoon
Everett et al.
Farley et al.
Jones et al.
Swanson et al.
Geistert et al.
Grossi et al.
Zikorus et al.
Claren et al.
Wilk et al.
Zikorus et al.

607/122

607/101

606/41
606/27

606/41

6,234,178
6,237,606
6,238,393
6,245,065
6,245,090
6,254,601
6,258,084
6,258,085
6,263,248
6,277,089
6,293,942
6,296,639
6,309,384
6,315,776
6,322,559
6,346,102
6,352,549
6,364,877
6,369,465
6,395,012
6,398,780
6,402,742
6,428,537
6,432,116
6,451,015
6,475,213
6,485,487
6,485,500
6,490,474
6,508,815
6,554,780
6,663,626
6,679,269
6,712,810
6,712,815
6,726,682
6,743,184
6,764,488
6,813,520
6,964,274
7,074,217
7,407,502
7,512,445
7,604,633
7,717,909
7,731,712
7,846,160
2001/0041900
2002/0022870
2002/0029051
2002/0072499
2002/0072745
2002/0177846
2003/0093101
2003/0130711
2003/0199863
2004/0054368
2004/0118166
2004/0172051
2004/0204720
2004/0255958
2005/0085880
2005/0155608
2005/0217680
2006/0135956
2008/0071269
2010/0036372
2010/0217256
2012/0179155

B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B1
B2
B2
B2
B2
B2
B2
B1
B2
B1
B2
B2
B2
B2
B2
B2
B2
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al
Al

5/2001
5/2001
5/2001
6/2001
6/2001
7/2001
7/2001
7/2001
7/2001
8/2001
9/2001
10/2001
10/2001
11/2001
11/2001
2/2002
3/2002
4/2002
4/2002
5/2002
6/2002
6/2002
8/2002
8/2002
9/2002
11/2002
11/2002
11/2002
12/2002
1/2003
4/2003
12/2003
1/2004
3/2004
3/2004
4/2004
6/2004
7/2004
11/2004
11/2005
7/2006
8/2008
3/2009
10/2009
5/2010
6/2010
12/2010
11/2001
2/2002
3/2002
6/2002
6/2002
11/2002
5/2003
7/2003
10/2003
3/2004
6/2004
9/2004
10/2004
12/2004
4/2005
7/2005
10/2005
6/2006
3/2008
2/2010
8/2010
7/2012

Goble et al.
Zikorus et al.
Mulier et al.
Panescu et al.
Gilson et al.
Burbank et al.
Goldman et al.
Eggleston
Farley et al.
Yoon
Goble et al.
Truckai et al.
Harrington et al.
Edwards et al.
Daulton et al.
Harrington et al.
Everett
Goble et al.
Swanson
Yoon et al.
Farley et al.
Blewett et al.
Swanson et al.
Callister et al.
Rittman, III et al.
Whayne et al.
Sherman
Kokish et al.
Willis et al.
Strul et al.
Sampson et al.
Truckai et al.
Swanson
Harrington et al.
Sampson et al.
Harrington et al.
Sampson et al.
Burbank et al.
Truckai et al.
Ryan et al.
Strul et al.
Strul et al.
Truckai et al.
Truckai et al.
Strul et al.
Sampson et al.
Payne et al.
Callister et al.
Truckai et al.
Callister et al.
Clagett
Truckai et al.
Mulier et al.
O'Heeron et al.
Pearson et al.
Swanson et al.
Truckai et al.
Huang et al.
Ravikumar
Harrington et al.
Harrington et al.
Truckai et al.
Pavcnik et al.
Callister et al.
Sampson et al.
Hilario et al.
Truckai et al.
Strul et al.
Strul et al.

FOREIGN PATENT DOCUMENTS

606/27

DE
EP
EP
EP
EP
FR
FR

40 01 086
0 056 178
0 584 930
1 400 182
1 568 325
774 550
2 115 706

7/1991
4/1981
7/1993
3/2004
8/2005
12/1934
7/1972

MS100013491

Appx140

805

US 9,095,348 B2
Page 4
(56)

References Cited
FOREIGN PATENT DOCUMENTS

GB
GB
JP
JP
JP
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO
WO

189400141
2 317 566
48-67586
58-32756
63-318934
92/19145
94/00178
94/07445
94/10948
94/23794
95/04385
95/05869
95/07664
95/10326
96/00042
97/12569
97/41785
98/38932
99/58070
01/97897

7/1894
4/1998
12/1971
2/1983
12/1988
11/1992
1/1994
4/1994
5/1994
10/1994
2/1995
3/1995
3/1995
4/1995
1/1996
4/1997
11/1997
9/1998
11/1999
12/2001

OTHER PUBLICATIONS
"Essure: the non-incisional approach to permanent birth control",
Patient Information Booklet, .COPYRGT. 2004 by Conceptus Incorporated.
"Tubal Ligation and Resection: Tubal Ligation by Parkland and
Irving Methods" Datasheet [on-line] Chapel Hill Tubal Reversal
Center, 2004 [retrieved on Oct. 19, 2004] Retrieved from the Internet:
<URL: http://www.tubal-reversal.net/print/printer-friendly-tubal.
sub.--ligation- .sub.--resection.htm >.
"Tubal Ligation Methods: Coagulation Methods of Tubal Ligation"
Datasheet [on-line] Chapel Hill Tubal Reversal Center, 2004,
[retrieved Oct. 19, 2004] Retrieved from the Internet: <http://www.
tubal-reversal.net/tubal.sub.--ligation. sub.--coagulation.htm >.

"Tubal Ligation—Fimbriectomy: Tubal Reversal is Possible after
Fimbriectomy" Datasheet [on-line] Chapel Hill Tubal Reversal Center, 2004 [retrieved on Oct. 19, 2004] Retrieved from the Internet:
<URL: http://www.tubal-reversal.net/print/printer-friendly-tubal.
sub.--ligation- .sub.--fimbriectomy.htm >.
"Tubal Ligation—Pomeroy Technique: Pomeroy Tubal Ligation and
Resection" Datasheet [on-line] Chapel Hill Tubal Reversal Center,
2004 [retrieved Oct. 19, 2004 ] Retrieved from the Internet: < http://
www.tubal -reversal snet/print/printer-friendly-tubal .sub.- -ligation.sub.- -Pomeroy.htm >.
"Tubal Ligation—Tubal Ring or Clip: Tubal Ligation with Tubal
Rings or Tubal Clips" Datasheet [on-line] Chapel Hill Tubal Reversal
Center, 2004 [retrieved Oct. 19, 2004] Retrieved from the Internet:
<URL:
http://www.tubal-reversal.net/tubal.sub.--ligation-tubal.
sub.--ring-tubal- .sub.--clip.htm >.
Adiana options for women—how it works. (Dec. 31, 2005).
Retrieved from http://web.archivesorg/web/20051124001429/ www.
adiana.com/products.sub.--h- ow.php.
C. Nibley et al., "Prevention of Impedance Rise During
Radiofrequency Current Catheter Ablation by Intra-Electrode Tip
Chilling,"Circulation [Abstracts From the 67th Scientific Sessions,
Dallas Convention Center, Dallas, Texas, Nov. 14-17, 1994], vol. 90,
No. 4, Part 2, Oct. 1994, p. 460.
D.E. Haines et al., "Observations on Electrode-Tissue Interface Temperature and Effect on Electrical Impedance During Radiofrequency
Ablation of Ventricular Myocardium," Circulation, vol. 82, No. 3,
Sep. 1990, pp. 1034-1038.
METI-MyriadLase, SteriLase, Powerpo nt Presentation, published
at least as of Jun. 13, 2006, 6 pp.
W.M. Jackman et al., "Radiofrequency Current Directed Across the
Mitral Anulus With a Bipolar Epicardial-Endocardial Catheter Electrode Configuration in Dogs," Circulation, vol. 78, No. 5, Nov. 1988,
pp. 1288-1298.
First Request for Ex Partes Reexamination of U.S. Patent No.
5,769,880, filed Jul. 27, 1999, U.S. App. No. 90/005,435.
Second Request for Ex Partes Reexamination of U.S. Patent No.
5,769,880, filed Nov. 22, 2000, U.S Appl. No. 90/005,866.

* cited by examiner

MSI00013492

Appx141

806

U.S. Patent

Aug. 4, 2015

US 9,095,348 B2

Sheet 1 of 18

..6
21A
21B
21C

210
21
1

FIG. 1

FIG. 2

MSI00013493

Appx142

807

U.S. Patent

Aug. 4, 2015

US 9,095,348 B2

Sheet 2 of 18

+

50
42
48
18A

17

5B

FIG. 5A

MSI00013494

Appx143

808

U.S. Patent

35B
22 35A
39
17

37

Aug. 4, 2015

US 9,095,348 B2

Sheet 3 of 18

CO2

38

38

36

36

FIG. 7

FIG. 6

MSI00013495

Appx144

809

U.S. Patent

Aug. 4, 2015

Sheet 4 of 18

US 9,095,348 B2

12
17A
15
17A

FIG. 8

FIG. 11

MSI00013496

Appx145

810

U.S. Patent

Aug. 4, 2015

US 9,095,348 B2

Sheet 5 of 18

14A

14A
12A

— 12A

FIG. 13
FIG. 14

12A
14A

14A

FIG. 12

FIG. 16

FIG. 15
12A

14A

FIG. 17

MSI00013497

Appx146

811

U.S. Patent
14
+

—

Aug. 4, 2015

Sheet 6 of 18

US 9,095,348 B2

14

14
+

N

Fl
F2
A

T

14
14

F4

FIG, 18

14
+

+

—

+

+

+

T

FIG. 198
+

+

+ + + +

+ + +

+

IMMO.

WWI

IMM.

IMMO

NNW

A

FIG, 19C

T

MSI00013498

Appx147

812

U.S. Patent

Aug. 4, 2015

Sheet 7 of 18

US 9,095,348 B2

12

52

52

--- - -- 32

0

0
38

I---j
FIG. 20

MSI00013499

Appx148

146

MSI00013500

Zll 817i'S60% Sf1

Appx149
81 JO 8 JamiS

lualud °Sil

813

814

U.S. Patent

Aug. 4, 2015

US 9,095,348 B2

Sheet 9 of 18

4

CO

CD
r"

MSI00013501

Appx150

Appx151

140

138

140

148

136

102b

102a
29

136

124

124
122

122

134

134

FIG. 23

120
108

lualud °Sil
8I Jo OT WIN
MSI00013502

Zll 817i'S60% Sf1

102

815

816

U.S. Patent

Aug. 4, 2015

Sheet 11 of 18

US 9,095,348 B2

102

FIG. 25A

112
118b 110

110

118a

114
118d

118c
112

FIG. 25B

MSI00013503

Appx152

817

U.S. Patent

rf

Aug. 4, 2015

I

Sheet 12 of 18

US 9,095,348 B2

109b

FIG. 268

,Akt
‘ 11 r *

741
W

109a

PI
A„,
t is
‘ 71

k*

FIG. 26A

FIG. 26B

MSI00013504

Appx153

818

U.S. Patent

Aug. 4, 2015

US 9,095,348 B2

Sheet 13 of 18

82

14

S3

T

FIG. 27B

FIG. 27A

FIG. 27C

MOISTURE 126
/

122

108

128

124
128

FIG. 29

MSI00013505

Appx154

819

U.S. Patent

Aug. 4, 2015

Sheet 14 of 18

140

US 9,095,348 B2

138

124
122

120

FIG. 30
158

/ 146

156

160
164

FIG. 31

MSI00013506

Appx155

820

U.S. Patent

Aug. 4, 2015

186
104

176

180 174

US 9,095,348 B2

Sheet 15 of 18

178

108 194

146

190

142
144

FIG. 32A

104

174

106

190
1
184
( 192 ( 178
(---L-A-----.., 35

,---- c

146
158

t

0

1
i
142 —2 1-8: 180
186 176
108

1-00-1- 35

L144

162

156

1194

FIG. 32B

MSI00013507

Appx156

821

U.S. Patent

Aug. 4, 2015

US 9,095,348 B2

Sheet 16 of 18

108

178
194

190

FIG. 33
FIG. 35
184
186

184
176

18
176

186

190

FIG. 36A

FIG. 36B

186

188

190

—
176

188

FIG. 36C

MSI00013508

Appx157

Appx158

FIG. 34

130

'w--, 106

198

196

200

206

168
212

lualud °Sil
8I Jo LT WIN
MSI00013509

Zll 817i'S60% Sf1

208

822

823

U.S. Patent

Aug. 4, 2015

122

172

US 9,095,348 B2

Sheet 18 of 18

122

p170

108

162
LE

51.6

I
176

190
\-194

144

168

FIG. 37A

(170 122

146

OPEN

122

c
144

168

FIG. 37B

MSI00013510

Appx159

824

US 9,095,348 B2
2

1
MOISTURE TRANSPORT SYSTEM FOR
CONTACT ELECTROCOAGULATION
RELATED APPLICATIONS
5

This application is a continuation of U.S. application Ser.
No. 12/581,506 filed Oct. 19, 2009, now U.S. Pat. No. 8,506,
563 which is a continuation of U.S. application Ser. No.
10/959,771 filed Oct. 6, 2004, now U.S. Pat. No. 7,604,633,
which is a divisional of U.S. application Ser. No. 09/103,072
filed Jun. 23, 1998, now U.S. Pat. No. 6,813,520, which
claims the benefit of U.S. provisional application 60/084,791
filed May 8, 1998.
FIELD OF THE INVENTION

15

The present invention relates generally to the field of apparatuses and methods for ablating or coagulating the interior
surfaces of body organs. Specifically, it relates to an apparatus
and method for ablating the interior linings of body organs
such as the uterus and gallbladder.
BACKGROUND OF THE INVENTION

10

20

mally carried out during these ablation procedures to ensure
the temperature does not exceed 100° C. If the temperature
exceeds 100° C., the fluid within the tissue begins to boil and
to thereby produce steam. Because ablation is carried out
within a closed cavity within the body, the steam cannot
escape and may instead force itself deeply into the tissue, or
it may pass into areas adjacent to the area intended to be
ablated, causing embolism or unintended burning.
Moreover, in prior art RF devices the water drawn from the
tissue creates a path of conductivity through which current
traveling through the electrodes will flow. This can prevent
the current from traveling into the tissue to be ablated. Moreover, the presence of this current path around the electrodes
causes current to be continuously drawn from the electrodes.
The current heats the liquid drawn from the tissue and thus
turns the ablation process into a passive heating method in
which the heated liquid around the electrodes causes thermal
ablation to continue well beyond the desired ablation depths.
Another problem with prior art ablation devices is that it is
difficult for a physician to find out when ablation has been
carried out to a desired depth within the tissue. Thus, it is often
the case that too much or too little tissue may be ablated
during an ablation procedure.
It is therefore desirable to provide an ablation device which
eliminates the above-described problem of steam and liquid
buildup at the ablation site. It is further desirable to provide an
ablation method and device which allows the depth of ablation to be controlled and which automatically discontinues
ablation once the desired ablation depth has been reached.

Ablation of the interior lining of a body organ is a proce- 25
dure which involves heating the organ lining to temperatures
which destroy the cells of the lining or coagulate tissue proteins for hemostasis. Such a procedure may be performed as
a treatment to one of many conditions, such as chronic bleeding of the endometrial layer of the uterus or abnormalities of 30
the mucosal layer of the gallbladder. Existing methods for
effecting ablation include circulation of heated fluid inside
SUMMARY OF THE INVENTION
the organ (either directly or inside a balloon), laser treatment
of the organ lining, and resistive heating using application of
The present invention is an apparatus and method of ablatRF energy to the tissue to be ablated.
35 ing and/or coagulating tissue, such as that of the uterus or
U.S. Pat. No. 5,084,044 describes an apparatus for
other organ. An ablation device is provided which has an
endometrial ablation in which a bladder is inserted into the
electrode array carried by an elongate tubular member. The
uterus. Heated fluid is then circulated through the balloon to
electrode array includes a fluid permeable elastic member
expand the balloon into contact with the endometrium and to
preferably formed of a metallized fabric having insulating
ablate the endometrium thermally. U.S. Pat. No. 5,443,470 40 regions and conductive regions thereon. During use, the elecdescribes an apparatus for endometrial ablation in which an
trode array is positioned in contact with tissue to be ablated,
expandable bladder is provided with electrodes on its outer
ablation energy is delivered through the array to the tissue to
surface. After the apparatus is positioned inside the uterus, a
cause the tissue to dehydrate, and moisture generated during
non-conductive gas or liquid is used to fill the balloon, causdehydration is actively or passively drawn into the array and
ing the balloon to push the electrodes into contact with the 45 away from the tissue.
endometrial surface. RF energy is supplied to the electrodes
to ablate the endometrial tissue using resistive heating.
BRIEF DESCRIPTION OF THE DRAWINGS
These ablation devices are satisfactory for carrying out
ablation procedures. However, because no data or feedback is
FIG. 1 is a front elevation view of a first embodiment of an
available to guide the physician as to how deep the tissue so ablation device according to the present invention, with the
ablation has progressed, controlling the ablation depth and
handle shown in cross-section and with the RF applicator
ablation profile with such devices can only be done by
head in a closed condition.
assumption.
FIG. 2 is a front elevation view of the ablation device of
For example, the heated fluid method is a very passive and
FIG. 1, with the handle shown in cross-section and with the
ineffective heating process which relies on the heat conduc- 55 RF applicator head in an open condition.
tivity of the tissue. This process does not account for variaFIG. 3 is a side elevation view of the ablation device of FIG.
tions in factors such as the amount of contact between the
2.
balloon and the underlying tissue, or cooling effects such as
FIG. 4 is a top plan view of the ablation device of FIG. 2.
those of blood circulating through the organ. RF ablation
FIG. 5A is a front elevation view of the applicator head and
techniques can achieve more effective ablation since it relies 60 a portion of the main body of the ablation device of FIG. 2,
on active heating of the tissue using RF energy, but presently
with the main body shown in cross-section.
the depth of ablation using RF techniques can only be estiFIG. 5B is a cross-section view of the main body taken
mated by the physician since no feedback can be provided as
along the plane designated 5B-5B in FIG. 5A.
to actual ablation depth.
FIG. 6 is a schematic representation of a uterus showing the
Both the heated fluid techniques and the latest RF tech- 65 ablation device of FIG. 1 following insertion of the device
niques must be performed using great care to prevent over
into the uterus but prior to retraction of the introducer sheath
ablation. Monitoring of tissue surface temperature is norand activation of the spring members.

MSI00013511

Appx160

825

US 9,095,348 B2
4

3

FIG. 7 is a schematic representation of a uterus showing the
FIG. 28 is a perspective view showing the flexures and
ablation device of FIG. 1 following insertion of the device
hypotube of the deflecting mechanism of the applicator head
into the uterus and following the retraction of the introducer
of FIG. 23.
FIG. 29 is a cross-section view of a flexure taken along the
sheath and the expansion of the RF applicator head.
FIG. 8 is a cross-section view of the RF applicator head and 5 plane designated 29-29 in FIG. 23.
FIG. 30 is a top plan view illustrating the flexure and spring
the distal portion of the main body of the apparatus of FIG. 1,
arrangement of an alternative configuration of a deflecting
showing the RF applicator head in the closed condition.
mechanism for an applicator head according to the present
FIG. 9 is a cross-section view of the RF applicator head and
invention.
the distal portion of the main body of the apparatus of FIG. 1,
FIG. 31 is a cross-sectional side view of the bobbin portion
showing the configuration of RF applicator head after the 0
of the apparatus of FIG. 21.
sheath has been retracted but before the spring members have
FIG. 32A is a side elevation view of the handle of the
been released by proximal movement of the shaft.
ablation device of FIG. 21.
FIG. 10 is a cross-section view of the RF applicator head
FIG. 32B is a top plan view of the handle of the ablation
and the distal portion of the main body of the apparatus of
15 device of FIG. 21. For clarity, portions of the proximal and
FIG. 1, showing the configuration of RF applicator head after
distal grips are not shown.
the sheath has been retracted and after the spring members
FIG. 33 illustrates placement of the applicator head accordhave been released into the fully opened condition.
ing to the present invention in a uterine cavity.
FIG. 11 is a cross-section view of a distal portion of an RF
FIG. 34 is a side elevation view of the handle of the ablation
ablation device similar to FIG. 1 which utilizes an alternative 20 apparatus of FIG. 21, showing portions of the apparatus in
spring member configuration for the RF applicator head.
cross-section.
FIG. 12 is a side elevation view of the distal end of an
FIG. 35 is a front elevation view of the upper portion of the
alternate embodiment of an RF ablation device similar to that
proximal handle grip taken along the plane designated 35-35
of FIG. 1, which utilizes an RF applicator head having a
in FIG. 32B.
modified shape.
25
FIGS. 36A, 36B, and 36C are a series of side elevation
FIG. 13 is a top plan view of the ablation device of FIG. 12.
views illustrating the heel member as it becomes engaged
FIG. 14 is a representation of a bleeding vessel illustrating
with the corresponding spring member.
use of the ablation device of FIG. 12 for general bleeding
FIGS. 37A and 37B are cross-sectional top views of the
control.
frame member mounted on the proximal grip section, taken
FIGS. 15 and 16 are representations of a uterus illustrating 30 along the plane designated 37-37 in FIG. 34 and illustrating
use of the ablation device of FIG. 12 for endometrial ablation.
one of the load limiting features of the second embodiment.
FIG. 17 is a representation of a prostate gland illustrating
FIG. 37A shows the condition of the compression spring
use of the ablation device of FIG. 12 for prostate ablation.
before the heel member moves into abutment with frame
FIG. 18 is a cross-section view of target tissue for ablation,
member, and FIG. 37B shows the condition of the spring after
showing ablation electrodes in contact with the tissue surface 35 the heel member moves into abutment with the frame memand illustrating energy fields generated during bi-polar ablaber.
tion.
FIGS. 19A-19C are cross-section views of target tissue for
DETAILED DESCRIPTION
ablation, showing electrodes in contact with the tissue surface
and illustrating how varying active electrode density may be 40
The invention described in this application is an aspect of a
used to vary the ablation depth.
larger set of inventions described in the following co-pending
FIG. 20 is a side elevation view, similar to the view of FIG.
applications which are commonly owned by the assignee of
2, showing an ablation device according to the present inventhe present invention, and are hereby incorporated by refertion in which the electrode carrying means includes inflatable
ence: U.S. Provisional Patent Application No. 60/084,724,
balloons. For purposes of clarity, the electrodes on the elec- 45 filed May 8, 1998, entitled "APPARATUS AND METHOD
trode carrying means are not shown.
FOR INTRA-ORGAN MEASUREMENT AND ABLAFIG. 21 is a side elevation view of a second exemplary
TION"; and U.S. Provisional Patent Application No. 60/084,
embodiment of an ablation device according to the present
712 filed May 8, 1998, entitled "A RADIO-FREQUENCY
invention, showing the array in the retracted state.
GENERATOR FOR POWERING AN ABLATION
FIG. 22 is a side elevation view of the ablation device of 50 DEVICE".
FIG. 21, showing the array in the deployed state.
The ablation apparatus according to the present invention
FIG. 23 is a top plan view of the applicator head of the
will be described with respect to two exemplary embodiapparatus of FIG. 21.
ments.
FIG. 24 is a cross-sectional top view of the encircled region
First Exemplary Embodiment Structure
55
Referring to FIGS. 1 and 2, an ablation device according to
designated 24 in FIG. 23.
FIG. 25A is a perspective view of the electrode array of
the present invention is comprised generally of three major
FIG. 23.
components: RF applicator head 2, main body 4, and handle
FIG. 25B is a distal end view of the applicator head of FIG.
6. Main body 4 includes a shaft 10. The RF applicator head 2
30A.
includes an electrode carrying means 12 mounted to the distal
FIG. 26A is a plan view of a knit that may be used to form 60 end of the shaft 10 and an array of electrodes 14 formed on the
the applicator head.
surface of the electrode carrying means 12. An RF generator
FIG. 26B is a perspective view of a strand of nylon16 is electrically connected to the electrodes 14 to provide
wrapped spandex of the type that may be used to form the knit
mono-polar or bipolar RF energy to them.
of FIG. 26A.
Shaft 10 is an elongate member having a hollow interior.
FIGS. 27A, 27B, 27C are top plan views illustrating trian- 65 Shaft 10 is preferably 12 inches long and has a preferred
gular, parabolic, and rectangular mesh shapes for use as eleccross-sectional diameter of approximately 4 mm. A collar 13
trode arrays according to the present invention.
is formed on the exterior of the shaft 10 at the proximal end.

MSI00013512

Appx161

826

US 9,095,348 B2

5

6

As best shown in FIGS. 6 and 7, passive spring member 15 are
attached to the distal end of the shaft 10.
Extending through the shaft 10 is a suction/insufflation
tube 17 (FIGS. 6-9) having a plurality of holes 17a formed in
its distal end. An arched active spring member 19 is connected
between the distal ends of the passive spring members 15 and
the distal end of the suction/insufflation tube 17.
Referring to FIG. 2, electrode leads 18a and 18b extend
through the shaft 10 from distal end 20 to proximal end 22 of
the shaft 10. At the distal end 20 of the shaft 10, each of the
leads 18a, 18b is coupled to a respective one of the electrodes
14. At the proximal end 22 of the shaft 10, the leads 18a, 18b
are electrically connected to RF generator 16 via an electrical
connector 21. During use, the leads 18a, 18b carry RF energy
from the RF generator 16 to the electrodes. Each of the leads
18a, 18b is insulated and carries energy of an opposite polarity than the other lead.
Electrically insulated sensor leads 23a, 23b (FIGS. 5A and
5B) also extend through the shaft 10. Contact sensors 25a,
25b are attached to the distal ends of the sensor leads 23a,
23b, respectively and are mounted to the electrode carrying
means 12. During use, the sensor leads 23a, 23b are coupled
by the connector 21 to a monitoring module in the RF generator 16 which measures impedance between the sensors
25a, 25b. Alternatively, a reference pad may be positioned in
contact with the patient and the impedance between one of the
sensors and the reference pad measured.
Referring to FIG. 5B, electrode leads 18a, 18b and sensor
leads 23a, 23b extend through the shaft 10 between the external walls of the tube 17 and the interior walls of the shaft 10
and they are coupled to electrical connector 21 which is
preferably mounted to the collar 13 on the shaft 10. Connector
21, which is connectable to the RF generator 16, includes at
least four electrical contact rings 21a-21d (FIGS. 1 and 2)
which correspond to each of the leads 18a, 18b, 23a, 23b.
Rings 21a, 21b receive, from the RF generator, RF energy of
positive and negative polarity, respectively. Rings 21c, 21d
deliver signals from the right and left sensors, respectively, to
a monitoring module within the RF generator 16.
Referring to FIG. 5A, the electrode carrying means 12 is
attached to the distal end 20 of the shaft 10. A plurality of
holes 24 may be formed in the portion of the distal end 20 of
the shaft which lies within the electrode carrying means 12.
The electrode carrying means 12 preferably has a shape
which approximates the shape of the body organ which is to
be ablated. For example, the apparatus shown in FIGS. 1
through 11 has a bicornual shape which is desirable for intrauterine ablation. The electrode carrying means 12 shown in
these figures includes horn regions 26 which during use are
positioned within the cornual regions of the uterus and which
therefore extend towards the fallopian tubes.
Electrode carrying means 12 is preferably a sack formed of
a material which is non-conductive, which is permeable to
moisture and/or which has a tendency to absorb moisture, and
which may be compressed to a smaller volume and subsequently released to its natural size upon elimination of compression. Examples of preferred materials for the electrode
carrying means include open cell sponge, foam, cotton, fabric, or cotton-like material, or any other material having the
desired characteristics. Alternatively, the electrode carrying
means may be formed of a metallized fabric. For convenience, the term "pad" may be used interchangeably with the
term electrode carrying means to refer to an electrode carrying means formed of any of the above materials or having the
listed properties.
Electrodes 14 are preferably attached to the outer surface of
the electrode carrying means 12, such as by deposition or

other attachment mechanism. The electrodes are preferably
made of lengths of silver, gold, platinum, or any other conductive material. The electrodes may be attached to the electrode carrying means 12 by electron beam deposition, or they
may be formed into coiled wires and bonded to the electrode
carrying member using a flexible adhesive. Naturally, other
means of attaching the electrodes, such as sewing them onto
the surface of the carrying member, may alternatively be
used. If the electrode carrying means 12 is formed of a metallized fabric, an insulating layer may be etched onto the
fabric surface, leaving only the electrode regions exposed.
The spacing between the electrodes (i.e. the distance
between the centers of adjacent electrodes) and the widths of
the electrodes are selected so that ablation will reach predetermined depths within the tissue, particularly when maximum power is delivered through the electrodes (where maximum power is the level at which low impedance, low voltage
ablation can be achieved).
The depth of ablation is also effected by the electrode
density (i.e., the percentage of the target tissue area which is
in contact with active electrode surfaces) and may be regulated by pre-selecting the amount of this active electrode
coverage. For example, the depth of ablation is much greater
when the active electrode surface covers more than 10% of
the target tissue than it is when the active electrode surfaces
covers 1% of the target tissue.
For example, by using 3-6 mm spacing and an electrode
width of approximately 0.5-2.5 mm, delivery of approximately 20-40 watts over a 9-16 cm2 target tissue area will
cause ablation to a depth of approximately 5-7 millimeters
when the active electrode surface covers more than 10% of
the target tissue area. After reaching this ablation depth, the
impedance of the tissue will become so great that ablation will
self-terminate as described with respect to the operation of
the invention.
By contrast, using the same power, spacing, electrode
width, and RF frequency will produce an ablation depth of
only 2-3 mm when the active electrode surfaces covers less
than 1% of the target tissue area. This can be better understood with reference to FIG. 19A, in which high surface
density electrodes are designated 14a and low surface density
electrodes are designated 14b. For purposes of this comparison between low and high surface density electrodes, each
bracketed group of low density electrodes is considered to be
a single electrode. Thus, the electrode widths W and spacings
S extend as shown in FIG. 19A.
As is apparent from FIG. 19A, the electrodes 14a, which
have more active area in contact with the underlying tissue T,
produce a region of ablation Al that extends more deeply into
the tissue T than the ablation region A2 produced by the low
density electrodes 14b, even though the electrode spacings
and widths are the same for the high and low density electrodes.
Some examples of electrode widths, having spacings with
more than 10% active electrode surface coverage, and their
resultant ablation depth, based on an ablation area of 6 cm2
and a power of 20-40 watts, are given on the following table:

5

10

15

2

0

25

3

0

35

4

0

45

50

55

60

ELECTRODE WIDTH

SPACING

APPROX. DEPTH

1 mm
1-2.5 mm
1-4.5 mm

1-2 mm
3-6 mm
8-10 mm

1-3 mm
5-7 mm
8-10 mm

65

Examples of electrode widths, having spacings with less
than 1% active electrode surface coverage, and their resultant

MSI00013513

Appx162

827

US 9,095,348 B2
7

8

ablation depth, based on an ablation area of 6 cm2 and a
power of 20-40 watts, are given on the following table:

against the handle rail 35. The movement of the shaft 10
relative to the suction/insufflation tube 17 causes the shaft 10
to pull proximally on the passive spring member 15. Proximal
movement of the passive spring member 15 in turn pulls
ELECTRODE WIDTH
SPACING
APPROX. DEPTH
5 against the active spring member 19, causing it to move to the
opened condition shown in FIG. 7. Unless the shaft is held in
1-2 mm
0.5-1 mm
1 mm
1-2.S mm
3-6 mm
2-3 mm
this retracted condition, the compression spring 39 will push
1-4.5 null
8-10 null
2-3 mm
the collar and thus the shaft distally, forcing the RF applicator
head to close. A locking mechanism (not shown) may be
10
provided to hold the shaft in the fully withdrawn condition to
Thus it can be seen that the depth of ablation is significantly
prevent inadvertent closure of the spring members during the
less when the active electrode surface coverage is decreased.
ablation procedure.
In the preferred embodiment, the preferred electrode spacThe amount by which the springs 15, 19 are spread may be
ing is approximately 8-10 mm in the horn regions 26 with the
active electrode surfaces covering approximately 1% of the 15 controlled by manipulating the handle 34 to slide the shaft 10
(via collar 13), proximally or distally. Such sliding movement
target region. Approximately 1-2 mm electrode spacing (with
of the shaft 10 causes forceps-like movement of the spring
10% active electrode coverage) is preferred in the cervical
members 15, 19.
region (designated 28) and approximately 3-6 mm (with
A flow pathway 36 is formed in the handle rail 35 and is
greater than 10% active electrode surface coverage) is pre20 fluidly coupled to a suction/insufflation port 38. The proximal
ferred in the main body region.
end of the suction/insufflation tube 17 is fluidly coupled to the
The RF generator 16 may be configured to include a controller which gives the user a choice of which electrodes
flow pathway so that gas fluid may be introduced into, or
should be energized during a particular application in order to
withdrawn from the suction/insufflation tube 17 via the sucgive the user control of ablation depth. For example, during an
tion/insufflation port 38. For example, suction may be applied
application for which deep ablation is desired, the user may 25 to the fluid port 38 using a suction/insufflation unit 40. This
elect to have the generator energize every other electrode, to
causes water vapor within the uterine cavity to pass through
thereby optimize the effective spacing of the electrodes and to
the permeable electrode carrying means 12, into the suction/
decrease the percentage of active electrode surface coverage,
insufflation tube 17 via holes 17a, through the tube 17, and
as will be described below with respect to FIG. 18.
through the suction/insufflation unit 40 via the port 38. If
Although the electrodes shown in the drawings are 30 insufflation of the uterine cavity is desired, insufflation gas,
arranged in a particular pattern, it should be appreciated that
such as carbon dioxide, may be introduced into the suction/
the electrodes may be arranged in any pattern to provide
insufflation tube 17 via the port 38. The insufflation gas travablation to desired depths.
els through the tube 17, through the holes 17a, and into the
Referring to FIGS. 6 and 7, an introducer sheath 32 faciliuterine cavity through the permeable electrode carrying
tates insertion of the apparatus into, and removal of the appa- 35 member 12.
ratus from, the body organ to be ablated. The sheath 32 is a
If desirable, additional components may be provided for
tubular member which is telescopically slidable over the shaft
endoscopic visualization purposes. For example, lumen 42,
10. The sheath 32 is slidable between a distal condition,
44, and 46 may be formed in the walls of the introducer sheath
shown in FIG. 6, in which the electrode carrying means 12 is
32 as shown in FIG. 5B. An imaging conduit, such as a
compressed inside the sheath, and a proximal condition in 40 fiberoptic cable 48, extends through lumen 42 and is coupled
which the sheath 32 is moved proximally to release the elecvia a camera cable 43 to a camera 45. Images taken from the
trode carrying means from inside it (FIG. 7). By compressing
camera may be displayed on a monitor 56. An illumination
the electrode carrying means 12 to a small volume, the elecfiber 50 extends through lumen 44 and is coupled to an illutrode carrying means and electrodes can be easily inserted
mination source 54. The third lumen 46 is an instrument
into the body cavity (such as into the uterus via the vaginal 45 channel through which surgical instruments may be introopening).
duced into the uterine cavity, if necessary.
A handle 34 attached to the sheath 32 provides finger holds
Because during use it is most desirable for the electrodes 14
to allow for manipulation of the sheath 32. Handle 34 is
on the surface of the electrode carrying means 12 to be held in
slidably mounted on a handle rail 35 which includes a sleeve
contact with the interior surface of the organ to be ablated, the
33, a finger cutout 37, and a pair of spaced rails 35a, 35b so electrode carrying means 12 may be provided to have addiextending between the sleeve 33 and the finger cutout 37. The
tional components inside it that add structural integrity to the
shaft 10 and sheath 32 slidably extend through the sleeve 33
electrode carrying means when it is deployed within the body.
and between the rails 35a, 35b. The tube 17 also extends
For example, referring to FIG. 11, alternative spring memthrough the sleeve 33 and between the rails 35a, 35b, and its
bers 15a, 19a may be attached to the shaft 10 and biased such
proximal end is fixed to the handle rail 35 near the finger 55 that, when in a resting state, the spring members are posicutout 37.
tioned in the fully resting condition shown in FIG. 11. Such
A compression spring 39 is disposed around the proximal
spring members would spring to the resting condition upon
most portion of the suction/insufflation tube 17 which lies
withdrawal of the sheath 32 from the RF applicator head 2.
between the rails 35a, 35b. One end of the compression spring
Alternatively, a pair of inflatable balloons 52 may be
39 rests against the collar 13 on the shaft 10, while the oppo- 60 arranged inside the electrode carrying means 12 as shown in
site end of the compression spring rests against the handle rail
FIG. 20 and connected to a tube (not shown) extending
35. During use, the sheath 32 is retracted from the electrode
through the shaft 10 and into the balloons 52. After insertion
carrying means 12 by squeezing the handle 34 towards the
of the apparatus into the organ and following retraction of the
finger cutout 37 to slide the sheath 32 in the distal direction.
sheath 32, the balloons 52 would be inflated by introduction
When the handle 34 advances against the collar 13, the shaft 65 of an inflation medium such as air into the balloons via a port
10 (which is attached to the collar 13) is forced to slide in the
similar to port 38 using an apparatus similar to the suction/
proximal direction, causing compression of the spring 39
insufflation apparatus 40.

MSI00013514

Appx163

828

US 9,095,348 B2
9

10

Structural integrity may also be added to the electrode
carrying means through the application of suction to the
proximal end 22a of the suction/insufflation tube 17. Application of suction using the suction/insufflation device 40
would draw the organ tissue towards the electrode carrying
means 12 and thus into better contact with the electrodes 14.
FIGS. 12 and 13 show an alternative embodiment of an
ablation device according to the present invention. In the
alternative embodiment, an electrode carrying means 12a is
provided which has a shape which is generally tubular and
thus is not specific to any particular organ shape. An ablation
device having a general shape such as this may be used
anywhere within the body where ablation or coagulation is
needed. For example, the alternative embodiment is useful for
bleeding control during laparoscopic surgery (FIG. 14), tissue ablation in the prostate gland (FIG. 17), and also intrauterine ablation (FIGS. 15 and 16).
First Exemplary Embodiment Operation
Operation of the first exemplary embodiment of an ablation
device according to the present invention will next be
described.
Referring to FIG. 1, the device is initially configured for
use by positioning the introducer sheath 32 distally along the
shaft 10, such that it compresses the electrode carrying means
12 within its walls.
At this time, the electrical connector 21 is connected to the
RF generator 16, and the fiberoptic cable 48 and the illumination cable 50 are connected to the illumination source,
monitor, and camera, 54, 56, 45. The suction/insufflation unit
40 is attached to suction/insufflation port 38 on the handle rail
35. The suction/insufflation unit 40 is preferably set to deliver
carbon dioxide at an insufflation pressure of 20-200 mmHg.
Next, the distal end of the apparatus is inserted through the
vaginal opening V and into the uterus U as shown in FIG. 6,
until the distal end of the introducer sheath 32 contacts the
fundus F of the uterus. At this point, carbon dioxide gas is
introduced into the tube 17 via the port 38, and it enters the
uterine cavity, thereby expanding the uterine cavity from a flat
triangular shape to a 1-2 cm high triangular cavity. The physician may observe (using the camera 45 and monitor 56) the
internal cavities using images detected by a fiberoptic cable
48 inserted through lumen 42. If, upon observation, the physician determines that a tissue biopsy or other procedure is
needed, the required instruments may be inserted into the
uterine cavity via the instrument channel 46.
Following insertion, the handle 34 is withdrawn until it
abuts the collar 13. At this point, the sheath 32 exposes the
electrode carrying member 12 but the electrode carrying
member 12 is not yet fully expanded (see FIG. 9), because the
spring members 15, 19 have not yet been moved to their open
condition. The handle 34 is withdrawn further, causing the
shaft 10 to move proximally relative to the suction/insufflation tube 17, causing the passive spring members 15 to pull
the active spring members 19, causing them to open into the
opened condition shown in FIG. 10.
The physician may confirm proper positioning of the electrode carrying member 12 using the monitor 56, which displays images from the fiberoptic cable 48.
Proper positioning of the device and sufficient contact
between the electrode carrying member 12 and the
endometrium may further be confirmed using the contact
sensors 25a, 25b. The monitoring module of the RF generator
measures the impedance between these sensors using conventional means. If there is good contact between the sensors and
the endometrium, the measured impedance will be approximately 20-180 ohm, depending on the water content of the
endometrial lining.

The sensors are positioned on the distal portions of the
bicornual shaped electrode carrying member 12, which during use are positioned in the regions within the uterus in
which it is most difficult to achieve good contact with the
endometrium. Thus, an indication from the sensors 25a, 25b
that there is sound contact between the sensors and the
endometrial surface indicates that good electrode contact has
been made with the endometrium.
Next, insufflation is terminated. Approximately 1-5 cc of
saline may be introduced via suction/insufflation tube 17 to
initially wet the electrodes and to improve electrode electrical
contact with the tissue. After introduction of saline, the suction/insufflation device 40 is switched to a suctioning mode.
As described above, the application of suction to the RF
applicator head 2 via the suction/insufflation tube 17 collapses the uterine cavity onto the RF applicator head 2 and
thus assures better contact between the electrodes and the
endometrial tissue.
If the generally tubular apparatus of FIGS. 12 and 13 is
used, the device is angled into contact with one side of the
uterus during the ablation procedure. Once ablation is completed, the device (or a new device) is repositioned in contact
with the opposite side and the procedure is repeated. See.
FIGS. 15 and 16.
Next, RF energy at preferably about 500 kHz and at a
constant power of approximately 30 W is applied to the electrodes. As shown in FIG. 5a, it is preferable that each electrode be energized at a polarity opposite from that of its
neighboring electrodes. By doing so, energy field patterns,
designated Fl, F2 and F4 in FIG. 18, are generated between
the electrode sites and thus help to direct the flow of current
through the tissue T to form a region of ablation A. As can be
seen in FIG. 18, if electrode spacing is increased such by
energizing, for example every third or fifth electrode rather
than all electrodes, the energy patterns will extend more
deeply into the tissue. (See, for example, pattern F2 which
results from energization of electrodes having a non-energized electrode between them, or pattern F4 which results
from energization of electrodes having three non-energized
electrodes between them).
Moreover, ablation depth may be controlled as described
above by providing low surface density electrodes on areas of
the electrode carrying member which will contact tissue areas
at which a smaller ablation depth is required (see FIG. 19A).
Referring to FIG. 19B, if multiple, closely spaced, electrodes
14 are provided on the electrode carrying member, a user may
set the RF generator to energize electrodes which will produce a desired electrode spacing and active electrode area.
For example, alternate electrodes may be energized as shown
in FIG. 19B, with the first three energized electrodes having
positive polarity, the second three having negative polarity,
etc.
As another example, shown in FIG. 19C, if greater ablation
depth is desired the first five electrodes may be positively
energized, and the seventh through eleventh electrodes negatively energized, with the sixth electrode remaining inactivated to provide adequate electrode spacing.
As the endometrial tissue heats, moisture begins to be
released from the tissue. The moisture permeates the electrode carrying member 12 and is thereby drawn away from
the electrodes. The moisture may pass through the holes 17a
in the suction/insufflation tube 17 and leave the suction/insufflation tube 17 at its proximal end via port 38 as shown in
FIG. 7. Moisture removal from the ablation site may be further facilitated by the application of suction to the shaft 10
using the suction/insufflation unit 40.

5

10

15

20

25

30

35

40

45

so

55

60

65

MSI00013515

Appx164

829

US 9,095,348 B2
11
Removal of the moisture from the ablation site prevents
formation of a liquid layer around the electrodes. As
described above, liquid build-up at the ablation site is detrimental in that provides a conductive layer that carries current
from the electrodes even when ablation has reached the
desired depth. This continued current flow heats the liquid
and surrounding tissue, and thus causes ablation to continue
by unpredictable thermal conduction means.
Tissue which has been ablated becomes dehydrated and
thus decreases in conductivity. By shunting moisture away
from the ablation site and thus preventing liquid build-up,
there is no liquid conductor at the ablation area during use of
the ablation device of the present invention. Thus, when ablation has reached the desired depth, the impedance at the tissue
surface becomes sufficiently high to stop or nearly stop the
flow of current into the tissue. RF ablation thereby stops and
thermal ablation does not occur in significant amounts. If the
RF generator is equipped with an impedance monitor, a physician utilizing the ablation device can monitor the impedance
at the electrodes and will know that ablation has self-terminated once the impedance rises to a certain level and then
remains fairly constant. By contrast, if a prior art bipolar RF
ablation device was used together with an impedance monitor, the presence of liquid around the electrodes would cause
the impedance monitor to give a low impedance reading
regardless of the depth of ablation which had already been
carried out, since current would continue to travel through the
low-impedance liquid layer.
Other means for monitoring and terminating ablation may
also be provided. For example, a thermocouple or other temperature sensor may be inserted to a predetermined depth in
the tissue to monitor the temperature of the tissue and terminate the delivery of RF energy or otherwise signal the user
when the tissue has reached a desired ablation temperature.
Once the process has self terminated, 1-5 cc of saline can be
introduced via suction/insufflation tube 17 and allowed to sit
for a short time to aid separation of the electrode from the
tissue surface. The suction insufflation device 40 is then
switched to provide insufflation of carbon dioxide at a pressure of 20-200 mmHg. The insufflation pressure helps to lift
the ablated tissue away from the RF applicator head 2 and to
thus ease the closing of the RF applicator head. The RF
applicator head 2 is moved to the closed position by sliding
the handle 34 in a distal direction to fold the spring members
15, 19 along the axis of the device and to cause the introducer
sheath 32 to slide over the folded RF applicator head. The
physician may visually confirm the sufficiency of the ablation
using the monitor 56. Finally, the apparatus is removed from
the uterine cavity.
Second Exemplary Embodiment Structure
A second embodiment of an ablation device 100 in accordance with the present invention is shown in FIGS. 21-37B.
The second embodiment differs from the first embodiment
primarily in its electrode pattern and in the mechanism used to
deploy the electrode applicator head or array. Naturally,
aspects of the first and second exemplary embodiments and
their methods of operation may be combined without departing from the scope of the present invention.
Referring to FIGS. 21 and 22, the second embodiment
includes an RF applicator head 102, a sheath 104, and a
handle 106. As with the first embodiment, the applicator head
102 is slidably disposed within the sheath 104 (FIG. 21)
during insertion of the device into the uterine cavity, and the
handle 106 is subsequently manipulated to cause the applicator head 102 to extend from the distal end of the sheath 104
(FIG. 22) and to expand into contact with body tissue (FIG.
33).

12

5

10

15

20

25

30

35

40

45

50

55

60

65

RF Applicator Head
Referring to FIG. 23, in which the sheath 104 is not shown
for clarity, applicator head 102 extends from the distal end of
a length of tubing 108 which is slidably disposed within the
sheath 104. Applicator head 102 includes an external electrode array 102a and an internal deflecting mechanism 102b
used to expand and tension the array for positioning into
contact with the tissue.
Referring to FIGS. 25A and 25B, the array 102a of applicator head 102 is formed of a stretchable metallized fabric
mesh which is preferably knitted from a nylon and spandex
knit plated with gold or other conductive material. In one
array design, the knit (shown in FIGS. 26A and 26B) is
formed of three monofilaments of nylon 109a knitted
together with single yarns of spandex 109b. Each yarn of
spandex 109b has a double helix 109c of five nylon monofilaments coiled around it.
This knit of elastic (spandex) and inelastic (nylon) yarns is
beneficial for a number of reasons. For example, knitting
elastic and relatively inelastic yarns allows the overall
deformability of the array to be pre-selected.
The mesh is preferably constructed so as to have greater
elasticity in the transverse direction (T) than in the longitudinal direction (L). In a preferred mesh design, the transverse
elasticity is on the order of approximately 300% whereas the
longitudinal elasticity is on the order of approximately 100%.
The large transverse elasticity of the array allows it to be used
in a wide range of uterine sizes.
Another advantage provided by the combination of elastic
and relatively inelastic yarns is that the elastic yarns provide
the needed elasticity to the array while the relatively inelastic
yarns provide relatively non-stretchable members to which
the metallization can adhere without cracking during expansion of the array. In the knit configuration described above,
the metallization adheres to the nylon coiled around the spandex. During expansion of the array, the spandex elongates and
the nylon double helix at least partially elongates from its
coiled configuration.
One process which may be used to apply the gold to the
nylon/spandex knit involves plating the knit with silver using
known processes which involve application of other materials
as base layers prior to application of the silver to ensure that
the silver will adhere. Next, the insulating regions 110 (described below) are etched onto the silver, and afterwards the
gold is plated onto the silver. Gold is desirable for the array
because of it has a relatively smooth surface, is a very inert
material, and has sufficient ductility that it will not crack as
the nylon coil elongates during use.
The mesh may be configured in a variety of shapes, including but not limited to the triangular shape 51, parabolic S2,
and rectangular S3 shapes shown in FIGS. 27A, 27B and 27C,
respectively.
Turning again to FIGS. 25A and 25B, when in its expanded
state, the array 102a includes a pair of broad faces 112 spaced
apart from one another. Narrower side faces 114 extend
between the broad faces 112 along the sides of the applicator
head 102, and a distal face 116 extends between the broad
faces 112 at the distal end of the applicator head 102.
Insulating regions 110 are formed on the applicator head to
divide the mesh into electrode regions. The insulated regions
110 are preferably formed using etching techniques to
remove the conductive metal from the mesh, although alternate methods may also be used, such as by knitting conductive and non-conductive materials together to form the array.
The array may be divided by the insulated regions 110 into
a variety of electrode configurations. In a preferred configuration the insulating regions 110 divide the applicator head

MSI00013516

Appx165

830

US 9,095,348 B2
13

14

into four electrodes 118a-118d by creating two electrodes on
The deflecting mechanism is preferably configured such
each of the broad faces 112. To create this four-electrode
that the distal tips of the flexures 124 are sufficiently flexible
pattern, insulating regions 110 are placed longitudinally
to prevent tissue puncture during deployment and/or use.
along each of the broad faces 112 as well as along the length
Such an atraumatic tip design may be carried out in a number
of each of the faces 114, 116. The electrodes 118a-118d are 5 of ways, such as by manufacturing the distal sections 124a
used for ablation and, if desired, to measure tissue impedance
(FIG. 28) of the flexures from a material that is more flexible
during use.
than the proximal sections 124b. For example, flexures 124
Deflecting mechanism 102b and its deployment structure
may be provided to have proximal sections formed of a mateis enclosed within electrode array 102a. Referring to FIG. 23,
rial having a modulus of approximately 28x106 psi and distal
external hypotube 120 extends from tubing 108 and an inter0 sections having a durometer of approximately 72D.
nal hypotube 122 is slidably and co-axially disposed within
Alternatively, referring to FIG. 30, the flexures 124 may be
hypotube 120. Flexures 124 extend from the tubing 108 on
joined to the internal flexures 136 at a location more proximal
opposite sides of external hypotube 120. A plurality of lonthan the distal tips of the flexures 124, allowing them to move
gitudinally spaced apertures 126 (FIG. 28) are formed in each
flexure 124. During use, apertures 126 allow moisture to pass 15 more freely and to adapt to the contour of the surface against
which they are positioned (see dashed lines in FIG. 30). Given
through the flexures and to be drawn into exposed distal end
that uterine sizes and shapes vary widely between women, the
of hypotube 120 using a vacuum source fluidly coupled to
atraumatic tip design is further beneficial in that it allows the
hypotube 120.
device to more accurately conform to the shape of the uterus
Each flexure 124 preferably includes conductive regions
that are electrically coupled to the array 102a for delivery of 20 in which it is deployed while minimizing the chance of injury.
The deflecting mechanism formed by the flexures 124,
RF energy to the body tissue. Referring to FIG. 29, strips 128
of copper tape or other conductive material extend along
136, and ribbon 138 forms the array into the substantially
opposite surfaces of each flexure 124. Each strip 128 is electriangular shape shown in FIG. 23, which is particularly
trically insulated from the other strip 128 by a non-conductive
adaptable to most uterine shapes. As set forth in detail below,
coating on the flexure. Conductor leads (not shown) are elec- 25 during use distal and proximal grips 142, 144 forming handle
trically coupled to the strips 128 and extend through tubing
106 are squeezed towards one another to withdraw the sheath
108 (FIG. 23) to an electrical cord 130 (FIG. 21) which is
and deploy the applicator head. This action results in relative
attachable to the RF generator.
rearward motion of the hypotube 120 and relative forward
During use, one strip 128 on each conductor is electrically
motion of the hypotube 122. The relative motion between the
coupled via the conductor leads to one terminal on the RF 30 hypotubes causes deflection in flexures 124, 136 which
generator while the other strip is electrically coupled to the
deploys and tensions the electrode array 102a.
opposite terminal, thus causing the array on the applicator
Measurement Device
head to have regions of alternating positive and negative
The ablation device according to the second embodiment
polarity.
includes a measurement device for easily measuring the uterThe flexures may alternatively be formed using a conduc- 35 ine width and for displaying the measured width on a gauge
tive material or a conductively coated material having insu146 (FIG. 21). The measurement device utilizes non-conduclating regions formed thereon to divide the flexure surfaces
tive (e.g. nylon) suturing threads 148 that extend from the
into multiple conductive regions. Moreover, alternative methhypotube 122 and that have distal ends attached to the distal
ods such as electrode leads independent of the flexures 124
portion of the deflecting mechanism (FIG. 23). As shown in
may instead be used for electrically connecting the electrode 40 FIG. 24, threads 148 are preferably formed of a single strand
array to the source of RF energy.
150 threaded through a wire loop 152 and folded over on
It is important to ensure proper alignment between the
itself. Wire loop 152 forms the distal end of an elongate wire
conductive regions of the flexures 124 (e.g. copper strips 128)
154 which may be formed of stainless steel or other wire.
and the electrodes 118a-118d in order to maintain electrical
Referring to FIG. 31, wire 154 extends through the hypocontact between the two. Strands of thread 134 (which may be 45 tube 122 and is secured to a rotatable bobbin 156. The rotatnylon) (FIG. 23) are preferably sewn through the array 102a
able bobbin 156 includes a dial face 158 preferably covered in
and around the flexures 124 in order to prevent the conductive
a clear plastic. As can be seen in FIG. 32b, dial face 158
regions 128 from slipping out of alignment with the elecincludes calibration markings corresponding to an appropritrodes 118a-118d. Alternate methods for maintaining contact
ate range of uterine widths. The bobbin is disposed within a
between the array 102a and the conductive regions 128 so gauge housing 160 and a corresponding marker line 162 is
include using tiny bendable barbs extending between the
printed on the gauge housing. A torsion spring 164 provides
flexures 124 and the array 102a to hook the array to the
rotational resistance to the bobbin 156.
conductive regions 128, or bonding the array to the flexures
Expansion of the applicator head 102 during use pulls
using an adhesive applied along the insulating regions of the
threads 148 (FIG. 23) and thus wire 154 (FIG. 24) in a distal
55 direction. Wire 154 pulls against the bobbin 156 (FIG. 31),
flexures.
Referring again to FIG. 23, internal flexures 136 extend
causing it to rotate. Rotation of the bobbin positions one of the
laterally and longitudinally from the exterior surface of hypocalibration markings on dial face 158 into alignment with the
tube 122. Each internal flexure 136 is connected at its distal
marker line 162 (FIG. 32B) to indicate the distance between
end to one of the flexures 124 and a transverse ribbon 138
the distal tips of flexures 124 and thus the uterine width.
extends between the distal portions of the internal flexures 60
The uterine width and length (as determined using a con136. Transverse ribbon 138 is preferably pre-shaped such that
ventional sound or other means) are preferably input into an
when in the relaxed condition the ribbon assumes the corruRF generator system and used by the system to calculate an
gated configuration shown in FIG. 23 and such that when in a
appropriate ablation power as will be described below. Altercompressed condition it is folded along the plurality of
nately, the width as measured by the apparatus of the invencreases 140 that extend along its length. Flexures 124, 136 65 tion and length as measured by other means may be used by
and ribbon 138 are preferably an insulated spring material
the user to calculate the power to be supplied to the array to
such as heat treated 17-7 PH stainless steel.
achieve the desired ablation depth.

MSI00013517

Appx166

831

US 9,095,348 B2
15

16

The uterine width may alternatively be measured using
other means, including by using a strain gauge in combination
with an A/D converter to transduce the separation distance of
the flexures 124 and to electronically transmit the uterine
width to the RF generator.
Control of Ablation Depth
The most optimal electrocoagulation occurs when relatively deep ablation is carried out in the regions of the uterus
at which the endometrium is thickest, and when relatively
shallower ablation is carried out in areas in which the
endometrium is shallower. A desirable range of ablation
depths includes approximately 2-3 mm for the cervical os and
the cornual regions, and approximately 7-8 mm in the main
body of the uterus where the endometrium is substantially
thicker.
As discussed with respect to the first embodiment, a number of factors influence the ablation depth that can be achieved
using a given power applied to a bipolar electrode array.
These include the power supplied by the RF generator, the
distance between the centers of adjacent electrodes ("centerto-center distance"), the electrode density (i.e., the porosity of
the array fabric or the percent of the array surface that is
metallic), the edge gap (i.e. the distance between the edges of
adjacent electrode poles), and the electrode surface area.
Other factors include blood flow (which in slower-ablating
systems can dissipate the RF) and the impedance limit.
Certain of these factors may be utilized in the present
invention to control ablation depth and to provide deeper
ablation at areas requiring deeper ablation and to provide
shallower regions in areas where deep ablation is not needed.
For example, as center-to-center distance increases, the depth
of ablation increases until a point where the center to center
distance is so great that the strength of the RF field is too
diffuse to excite the tissue. It can been seen with reference to
FIG. 33 that the center to center distance dl between the
electrodes 118a, 118b is larger within the region of the array
that lies in the main body of the uterus and thus contributes to
deeper ablation. The center to center distance d2 between
electrodes 118a, 118b is smaller towards the cervical canal
where it contributes to shallower ablation. At the distal end of
the device, the shorter center to center distances d3 extend
between top and bottom electrodes 118b, 118c and 118a,
118d and again contribute to shallower ablation.
Naturally, because the array 102a expands to accommodate the size of the uterus in which it is deployed, the dimensions of the array 102a vary. One embodiment of the array
102a includes a range of widths of at least approximately
2.5-4.5 cm, a range of lengths of at least approximately 4-6
cm, and a density of approximately 35%-45%.
The power supplied to the array by the RF generator is
calculated by the RF generator system to accommodate the
electrode area required for a particular patient. As discussed
above, the uterine width is measured by the applicator head
102 and displayed on gauge 146. The uterine length is measured using a sound, which is an instrument conventionally
used for that purpose. It should be noted that calibration
markings of the type used on a conventional sound device, or
other structure for length measurement, may be included on
the present invention to allow it to be used for length measurement as well.
The user enters the measured dimensions into the RF generator system using an input device, and the RF generator
system calculates or obtains the appropriate set power from a
stored look-up table using the uterine width and length as
entered by the user. An EPROM within the RF generator

system converts the length and width to a set power level
according to the following relationship:
P=LxWx5.5
5

10

15

20

25

30

35

40

45

50

55

60

65

Where P is the power level in watts, L is the length in
centimeters, W is the width in centimeters, and 5.5 is a constant having units of watts per square centimeter.
Alternatively, the user may manually calculate the power
setting from the length and width, or s/he may be provided
with a table of suggested power settings for various electrode
areas (as determined by the measured length and width) and
will manually set the power on the RF generator accordingly.
Handle
Referring again to FIGS. 21 and 22, the handle 106 of the
RF ablation device according to the second embodiment
includes a distal grip section 142 and a proximal grip section
144 that are pivotally attached to one another at pivot pin 166.
The proximal grip section 144 is coupled to the hypotube
122 (FIG. 23) via yoke 168, overload spring 170 and spring
stop 172, each of which is shown in the section view of FIG.
34. The distal grip section 142 is coupled to the external
hypotube 120 via male and female couplers 174, 176 (see
FIGS. 32A and 32B). Squeezing the grip sections 142, 144
towards one another thus causes relative movement between
the external hypotube 120 and the internal hypotube 122. This
relative sliding movement results in deployment of the
deflecting mechanism 102b from the distal end of the sheath
and expansion of the array 102a to its expanded state.
Referring to FIGS. 32A and B, rack 180 is formed on male
coupler 174 and calibration markings 182 are printed adjacent the rack 180. The calibration markings 182 correspond to
a variety of uterine lengths and may include lengths ranging
from, for example, 4.0 to 6.0 cm in 0.5 cm increments.
A sliding collar 184 is slidably disposed on the tubing 108
and is slidable over male coupler 174. Sliding collar 184
includes a rotating collar 186 and a female coupler 176 that
includes a wedge-shaped heel 188. A locking spring member
190 (FIGS. 32B and 35) extends across an aperture 192
formed in the proximal grip 144 in alignment with the heel
188. When the distal and proximal handle sections are
squeezed together to deploy the array, the heel 188 passes into
the aperture 192. Its inclined lower surface gradually
depresses the spring member 190 as the heel moves further
into the aperture 192. See FIGS. 36A and 36B. After passing
completely over the spring member, the heel moves out of
contact with the spring member. The spring member snaps
upwardly thereby engaging the heel in the locked position.
See FIG. 36C.
A release lever 194 (FIG. 35) is attached to the free end of
the spring member 190. To disengage the spring lock, release
lever 194 is depressed to lower spring member 190 so that the
inclined heel can pass over the spring member and thus out of
the aperture 192.
Referring again to FIGS. 32A and 32B, sliding collar 184
is configured to allow the user to limit longitudinal extension
of the array 102a to a distance commensurate with a patient's
predetermined uterine length. It does so by allowing the user
to adjust the relative longitudinal position of male coupler
174 relative to the female coupler 176 using the rotating collar
186 to lock and unlock the female coupler from the rack 180
and the male coupler 174. Locking the female coupler to the
rack 180 and male coupler 174 will limit extension of the
array to approximately the predetermined uterine length, as
shown on the calibration markings 182.
Once the uterine length has been measured using a conventional sound, the user positions sliding collar 184 adjacent to
calibration marks 182 corresponding to the measured uterine
length (e.g. 4.5 cm). Afterwards, the user rotates the collar
section 186 to engage its internally positioned teeth with the

MSI00013518

Appx167

832

US 9,095,348 B2
17

18

rack 180. This locks the longitudinal position of the heel 188
such that it will engage with the spring member 190 on the
proximal grip when the array has been exposed to the length
set by the sliding collar.
The handle 106 includes a pair of spring assemblies which
facilitate controlled deployment and stowage of the array
102a. One of the spring assemblies controls movement of the
grips 142, 144 to automatically stow the array 102a into the
sheath 104 when the user stops squeezing the grips 142, 144
towards one another. The other of the spring assemblies controls the transverse movement of the spring flexures 124 to the
expanded condition by limiting the maximum load that can be
applied to the deployment mechanism 102b.
FIG. 34 shows the distal and proximal grips 142 and 144 in
partial cross-section. The first spring assembly for controlled
stowage includes a handle return mandrel 196 that is slidably
disposed within the proximal grip 144. A compression spring
198 surrounds a portion of the return mandrel 196, and a
retaining ring 200 is attached to the mandrel 196 above the
spring 198. A spring stop 202 is disposed between the spring
198 and the retaining ring.
The lowermost end of the return mandrel 196 is pivotally
engaged by a coupling member 204 on distal grip 142. Relative movement of the grips 142, 144 towards one another
causes the coupling member 204 to pull the return member
downwardly with the proximal grip 144 as indicated by
arrows. Downward movement of the mandrel 196 causes its
retaining ring 200 and spring stop 202 to bear downwardly
against the compression spring 198, thereby providing a
movement which acts to rotate the grips 142, 144 away from
one another. When tension against the grips 142, 144 is
released (assuming that heel 188 is not locked into engagement with spring member 190) the grips rotate apart into the
opened position as the compression spring 198 returns to the
initial state, stowing the applicator head inside the sheath.
The second spring assembly for controlling array deployment is designed to control separation of the flexures. It
includes a frame member 178 disposed over yoke 168, which
is pivotally attached to proximal grip 144. Tubing 108 extends
from the array 102a (see FIG. 23), through the sheath 104 and
is fixed at its proximal end to the frame member 178. Hypotube 122 does not terminate at this point but instead extends
beyond the proximal end of tubing 108 and through a window
206 in the frame member. Its proximal end 208 is slidably
located within frame member 178 proximally of the window
206 and is fluidly coupled to a vacuum port 210 by fluid
channel 212. Hypotube 120 terminates within the frame. Its
proximal end is fixed within the distal end of the frame.
A spring stop 172 is fixed to a section of the hypotube
within the window 206, and a compression spring 170 is
disposed around the hypotube between the spring stop 172
and yoke 168. See FIGS. 32B and 34.
When the distal and proximal grips are moved towards one
another, the relative rearward motion of the distal grip causes
the distal grip to withdraw the sheath 104 from the array 102a.
Referring to FIGS. 37A and 37B, this motion continues until
female coupler 176 contacts and bears against frame member
178. Continued motion between the grips causes a relative
rearward motion in the frame which causes the same rearward
relative motion in external hypotube 120. An opposing force
is developed in yoke 168, which causes a relative forward
motion in hypotube 122. The relative motion between the
hypotubes causes deflection in flexures 124, 136 which
deflect in a manner that deploys and tensions the electrode
array. Compression spring 170 acts to limit the force developed by the operator against hypotubes 120, 122, thus limit-

ing the force of flexures 124, 136 acting on the array and the
target tissue surrounding the array.
Referring to FIG. 21, collar 214 is slidably mounted on
sheath 104. Before the device is inserted into the uterus, collar
214 can be positioned along sheath 104 to the position measured by the uterine sound. Once in position, the collar provides visual and tactile feedback to the user to assure the
device has been inserted the proper distance. In addition, after
the applicator head 102 has been deployed, if the patient's
cervical canal diameter is larger than the sheath dimensions,
the collar 214 can be moved distally towards the cervix,
making contact with it and creating a pneumatic seal between
the sheath and cervix.
Second Exemplary Embodiment Operation
In preparation for ablating the uterus utilizing the second
exemplary embodiment, the user measures the uterine length
using a uterine sound device. The user next positions sliding
collar 184 (FIG. 32B) adjacent to calibration marks 182 corresponding to the measured uterine length (e.g. 4.5 cm) and
rotates the collar section 186 to engage its internally positioned teeth with the rack 180. This locks the longitudinal
position of the heel 188 (FIG. 32A) such that it will engage
with the spring member 190 when the array has been exposed
to the length set by the sliding collar.
Next, with the grips 142, 144 in their resting positions to
keep the applicator head 102 covered by sheath 104, the distal
end of the device 100 is inserted into the uterus. Once the
distal end of the sheath 104 is within the uterus, grips 142, 144
are squeezed together to deploy the applicator head 102 from
sheath 104. Grips 142, 144 are squeezed until heel 188
engages with locking spring member 190 as described with
respect to FIGS. 36A through 36C.
At this point, deflecting mechanism 102b has deployed the
array 102a into contact with the uterine walls. The user reads
the uterine width, which as described above is transduced
from the separation of the spring flexures, from gauge 146.
The measured length and width are entered into the RF generator system 250 (FIG. 21) and used to calculate the ablation
power.
Vacuum source 252 (FIG. 21) is activated, causing application of suction to hypotube 122 via suction port 210. Suction helps to draw uterine tissue into contact with the array
102.
Ablation power is supplied to the electrode array 102a by
the RF generator system 250. The tissue is heated as the RF
energy passes from electrodes 118a-d to the tissue, causing
moisture to be released from the tissue. The vacuum source
252 helps to draw moisture from the uterine cavity into the
hypotube 122. Moisture withdrawal is facilitated by the apertures 126 formed in flexures 124 by preventing moisture from
being trapped between the flexures 124 and the lateral walls
of the uterus.
If the RF generator 250 includes an impedance monitoring
module, impedance may be monitored at the electrodes
118a-d and the generator may be programmed to terminate
RF delivery automatically once the impedance rises to a certain level. The generator system may also or alternatively
display the measured impedance and allow the user to terminate RF delivery when desired.
When RF delivery is terminated, the user depresses release
lever 194 to disengage heel 188 from locking spring member
190 and to thereby allow grips 142, 144 to move to their
expanded (resting) condition. Release of grips 142, 144
causes applicator head 102 to retract to its unexpanded condition and further causes applicator head 102 to be withdrawn
into the sheath 104. Finally, the distal end of the device 100 is
withdrawn from the uterus.

5

10

15

20

25

30

35

40

45

so

55

60

65

MSI00013519

Appx168

833

US 9,095,348 B2
19

20

Two embodiments of ablation devices in accordance with
the present invention have been described herein. These
embodiments have been shown for illustrative purposes only.
It should be understood, however, that the invention is not
intended to be limited to the specifics of the illustrated
embodiments but is defined only in terms of the following
claims.
We claim:
1. A device for treating a uterus comprising:
an elongate member having a proximal portion and a distal
portion, the elongate member comprising an outer
sleeve and an inner sleeve slidably and coaxially disposed within the outer sleeve;
an applicator head coupled to the distal portion, the applicator head defining an interior volume and having a
contracted state and an expanded state, the contracted
state being configured for transcervical insertion and the
expanded state being configured to conform to the shape
of the uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue of the
uterus;
a handle coupled to the proximal portion of the elongate
member, wherein the handle comprises a frame, a proximal grip and a distal grip pivotally attached to one
another at a pivot point and operably coupled to the
applicator head so that when the proximal grip and the
distal grip are moved closer together, the applicator head
transitions from the contracted state to the expanded
state;
a deflecting mechanism including flexures disposed within
the applicator head, the flexures including first and second internal flexures and first and second external flexures, the first and second external flexures being coupled
to the outer sleeve and the first and second internal
flexures being coupled to the inner sleeve, wherein the
deflecting mechanism is configured so that translating
the inner sleeve relative to the frame causes the applicator head to transition from the contracted state to the
expanded state; and
an indicator mechanism operably coupled to the inner
sleeve, the indicator mechanism configured to indicate a
dimension of the uterus.
2. The device of claim 1 further comprising a transverse
ribbon coupled to a distal end of the first and second external
flexures, wherein the transverse ribbon is in a relaxed condition when the applicator head is in the expanded state.
3. The device of claim 1 wherein the first internal flexure
includes a plurality of longitudinally spaced apertures.
4. The device of claim 1 wherein the proximal grip is
coupled to the inner sleeve and the distal grip is coupled to the
outer sleeve.
5. The device of claim 1 further comprising an introducer
sheath, wherein the inner sleeve and the outer sleeve are
disposed within the introducer sheath when the applicator
head is in the contracted state, and wherein the distal grip is
coupled to the introducer sheath so that proximal movement
of the distal grip causes the introducer sheath to move proximally relative to the applicator head.
6. The device of claim 5, wherein continued movement of
the proximal grip and distal grip closer together causes relative movement between the inner sleeve and the outer sleeve.

7. The device of claim 1 wherein when the device is operably coupled to a generator to deliver current to the electrodes, the device is configured to electronically transmit the
dimension of the uterus to the generator.
8. The device of claim 1 further comprising an adjustable
5
locking mechanism configured to limit a degree of expansion
of the applicator head.
9. The device of claim 1 further comprising an adjustable
locking mechanism configured to limit a distance by which a
10 user can move the proximal grip and the distal grip closer
together.
10. The device of claim 1 wherein the first and second
external flexures each have a distal end, and wherein the first
and second internal flexures are coupled to the first and sec15 and external flexures at a location proximal to the distal ends
of the first and second external flexures.
11. A device for treating a uterus comprising:
an elongate member having a proximal portion and a distal
portion, the elongate member comprising an outer
sleeve and an inner sleeve slidably and coaxially dis20
posed within the outer sleeve:
a handle coupled to the proximal portion;
an applicator head coupled to the distal portion, the applicator head defining an interior volume and having a
contracted state and an expanded state, the contracted
25
state being configured for transcervical insertion and the
expanded state being configured to conform to the shape
of the uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue of the
uterus;
30
a deflecting mechanism including flexures disposed within
the applicator head, the flexures including first and second internal flexures and first and second external flexures, the first and second external flexures being coupled
to the outer sleeve and the first and second internal
35
flexures being coupled to the inner sleeve, wherein the
deflecting mechanism is configured so that translating
one of the inner and outer sleeves relative to the other
causes the applicator head to transition from the contracted state to the expanded state;
40
an indicator mechanism operably coupled to the inner
sleeve, the indicator mechanism configured to indicate a
dimension of the uterus; and
wherein when the device is operably coupled to a generator
to deliver current to the electrodes, the device is config45
ured to electronically transmit the dimension of the
uterus to the generator.
12. The device of claim 1 wherein the applicator head is
configured to expand until limited by the dimension of the
50 uterus.
13. The device of claim 11 wherein the first internal flexure
includes a plurality of longitudinally spaced apertures.
14. The device of claim 11 further comprising an adjustable
locking mechanism configured to limit a degree of expansion
55 of the applicator head.
15. The device of claim 11 wherein the first and second
external flexures each have a distal end, and wherein the first
and second internal flexures are coupled to the first and second external flexures at a location proximal to the distal ends
6 0 of the first and second external flexures.
*

*

*

*

*

MSI00013520

Appx169

834

•
o

LIMBACH & LIMBACH L.L.P.
2001 F rry Building, San Francisco, CA 94111
415/433-4150 .

)s

Address to:
Box Patent Application
Attorney's
Docket No. ENVS-2 ..10%•M
• •.
c. ,
(VC:2M—
▪
Assistant Commissioner for Patents
FirStiklamed Inventor Csaba Trucker
Washington, D.C. 20231
•n
ui
czy =
• cr% is= co
UTILITY PATENT APPLICATION TRANSMITTAL
I
C
( under 37 CFR 1.53(b)

=at
ME

:1
4
1

MVO APPLICATION CLAIMS THE BENEFIT OF U.S. PROVISIONAL APPLICATION NO. 60/084,791, FILED
_. _MAY -8, 1998, AND IS A CONTINUATION-IN-PART OF COPENDING U.S. APPLICATION NO. 08/632,516,
FILED APRIL 12, 1996, NOW U.S. PATENT NO. 5.769,880, ISSUED JUNE 23, 1998.
Transmitted herewith for filing is a CONTINUATION-IN-PART patent application entitled:
A MOISTURE TRANSPORT SYSTEM FOR CONTACT ELECTROCOAGULATION
CERTIFICATION UNDER 37 CFR § 1.10
I hereby certify that this New Application and the documents referred to as enclosed herein are being
deposited with the United States Postal Service on this date June 23, 1998, in an envelope bearing
"Express Mail Post Office To Addressee" Mailing Label Number EM503277278US addressed to: Box
Patent Application, Assistant Commissioner for Patents, Washington, D.C. 20231.

ELIZABETH A. REICKER
(Name of person mailing paper)
Enclosed are:
1.

X

Transmittal Form (two copies required)

2.

The papers required for filing date under CFR § 1.53(b):
i.
49 Pages of specification (including claims and abstract);
ii. 19 Sheets of drawings.
formal
X
informal

3.

Declaration or oath
a.

X

b.

Unsigned Declaration (original or copy)
Copy from a prior application (37 CFR 1.63(d))
(for continuation/divisional with Item 12 completed)
Incorporation By Reference (to be used if Item 3b is checked)
The entire disclosure of the prior application, from which a copy of the oath or declaration is
supplied under Item 3b, is considered as being part of the disclosure of the accompanying
application and is hereby incorporated by reference therein.

i.

4.

DELETION OF INVENTOR(S)
Signed statement attached deleting inventor(s) named in the prior application, see 37 CFR
1.63(d)(2) and 1.33(b)
Microfiche Computer Program (Appendix, see 37 CFR 1.96)

5.
-

i.
ii.
iii.

Nucleotide and/or Amino Acid Sequence Submission (if applicable, all necessary)
Computer Readable Copy
Paper Copy (identical to computer copy)
Statement verifying identity of above copies

ACCOMPANYING APPLICATION PARTS
6.

An assignment of the invention to is attached (including Form PTO-1 595).
PATENTS \APP-TRAN.MRG

- 1-

Rev. 01/05/98

HOLMIN_l 46824

Appx40293

835

i.

The prior application is assign d of record to ;
Reel
Assignment recorded in PTO on
Frame(s)
The prior application is assigned, and the assignment (copy attached) was submitted to PTO for
recording on
37 CFR 3.73(b) Statement (when there is an assignee)

7.

Power of Attorney

8.

An Information Disclosure Statement (IDS) is enclosed, including a PTO-1449 and copies of
references.

9.

Preliminary Amendment.

10. X Return Receipt Postcard (MPEP 503 -- should be specifically itemized)
11.

Other

12. If a CONTINUING APPLICATION, check appropriate box and supply the requisite information
Continuation
Divisional
X Continuation-In-Part (CIP)
of immediately prior application no. 08/632,516, filed April 12, 1996, now Patent No. 5,769,880,
Issued June 23, 1998 aM claims benefit of U.S. Provisional Application No. 60/084,791, filed May 8,
1998.
RELATE BACK - 35 USC 120: If one of the above boxes are checked, please amend the
specification by inserting before the first line the sentence: —This is a continuation-in-part of
Application no. 08/632,516, filed April 12, 1996, now Patent No. 5,769,880, issued June 23,
1998 and claims benefit of U.S. Provisional Application No. 60/084,791, filed May 8, 1998.-ii.

MAINTENANCE OF COPENDENCY OF PRIOR APPLICATION
(This item must be completed and the necessary papers filed in the prior application if the period
set in the prior application has run).
(J A petition, fee and response has been filed to extend the term in the pending prior application
until .
A copy of the petition for extension of time in the prior application is attached.

iii. CONDITIONAL PETITIONS FOR EXTENSION OF TIME IN PRIOR APPLICATION
(Complete this item and file conditional petition in prior application if previous item (ii) not
applicable).
(I A conditional petition for extension of time is being filed in the pending prior application.
(I A copy of the conditional petition for extension of time in the prior application is attached.
13. FOREIGN PRIORITY
II Priority of application no.

filed on

in

is claimed under 35 USC 119.

The certified copy of the priority application:
is filed herewith; or
has been filed in prior application no.
will be provided.

filed on

or

English Translation Document (if applicable)

Atty. Docket ENVS-220

II

PATENTS APP-TRAN.MDG

-2-

Rev. 01/05/98

HOL-MIN_146825

Appx40294

836

14. FEE CALCULATION
a.

Amendment changing number of claims or deleting multiple dependencies is enclosed.

b.

Cancel in this application original Claims
fee.

of the prior application before calculating the filing

CLAIMS AS FILED
Number Filed
Total Claims

31 - 20

Independent
Claims

3 -3

_

Number Extra
11

Multiple dependent claim(s), if any
• If less than zero, enter
.

Rate

Basic Fee
($790)

x $22.00

$242.00

x $82.00

-0-

$270.00

-0-

Filing Fee Calculation
50% Filing Fee Reduction (if applicable)

$1032.00
$516.00

15. Small Entity Status
a.
X A small entity statement is enclosed. (unsigned)
b.
A small entity statement was filed in the prior nonprovisional application and such status is
still proper and desired.
c.
is no longer claimed.

EH

16. Other Fees
Recording Assignment 1$40.001
Other fees
Specify
Total Fees Enclosed
17. Payment of Fees
Check(s) in the amount of $_ enclosed.
Charge Account No. 12-1420 in the amount of $_.
A duplicate of this transmittal Is attached.

rya
18. All correspondence regarding this application should be forwarded to the undersigned attorney:
Kathleen A. Frost
Limbach & Limbach L.L.P.
2001 Ferry Building
San Francisco, CA 94111
Telephone: 415/433-4150
Facsimile:
415/433-8716
19. Authorization to Charge Additional Fees
X

The Commissioner is hereby authorized to charge any additional fees (or credit any
overpayment) associated with this communication and which may be required under 37 CFR
1.16 or § 1.17 to Account No. 12-1420. A duplicate of this transmittal is attached.
LIMBACH & LIMBACH L.L.P.

Junea, 1998
(Date)
Attorney Docket No. ENVS-220

II

By:
Kath n A. Frost
Registration No. 37,326
Attomey(s) or Agent(s) of Record

PATENTS1APP-TRANAIRG
- 3-

Rev. 01/08/98

HOL-MIN_146826

Appx40295

837

14

"

14

14

1111

FIG. 3
12

18A
18B

21A
21B
21C
21D
21

FIG. 1

FIG. 2

HOL-MIN_146827

Appx40296

838

23A
10
18B
23B

FIG. 5B

FIG. 5A

HOLMIN_l 46828

Appx40297

839

37

w

36

FIG. 6

HOL-MIN_146829

Appx40298

840

12
19

12
17A
15
17A

FIG. 8

FIG. 9

•

HOLMIN_l 46830

Appx40299

841

2A

FIG. 13
so
FIG. 14

lA

FIG. 12

FIG. 15

FIG. 16

FIG. 17

HOL-MIN_146831

Appx40300

842

FIG. 18

14
14

+

+

+

-

-

-

A

FIG. 19B

T

+++++

+++++

FIG. 19C

T

HOLMIN_l 46832

Appx40301

843

12

rs

m.
ay

gpA 9y

J
t:4

o

0
38

FIG. 20
•

HOL-MIN_146833

Appx40302

844

9

0

HOL-MIN_146834

Appx40303

845

/N.

HOL-MIN_l 46835

Appx40304

846

co

HOLMIN_146836

Appx40305

847

1 102

I 02A

I 10

112.
118a
4—.
IS
OP CD'

1166

tio °
j_l_ac
1 11-.

ti l'etei

HOL-MIN_146837

Appx40306

848

0

-9
CN1
5

•

HOLMIN_l 46838

Appx40307

849

52

•0

53

66;.278 6-0

2,7A

•

HOL-MIN_146839

Appx40308

850

t2io

•

•
a

241)

124
0

t'1612-1

HOLMIN_l 46840

Appx40309

851

FCC,.30

1 8

uoo
Fie/. 31

- _

HOL-MIN_146841

Appx40310

852

tQo

04-

02-

1-74-

.

92-

I-7E5

-N 34
1

5 Co

57 9
lea I eo
14*

8'

$76 txt 35

14/.
iat+

1,0 2-

Ftel 32-6

160
eXo t7G, toe
lc>

t -78

t7-9-

•

HOL-MIN_146842

Appx40311

853

194 !cm_

66 23

Igo
08

ets,

1135
e; 308

HOL-MIN_146843

Appx40312

854

170

122

Ili

tui

172-

i7b

172

170

1.0tAtIp

Uot

rne

HOL-MIN_146844

Appx40313

855

0

HOL-MIN_146845

Appx40314

856

PATENT APPLICATION
Express Mailing Label: EM503277278US

1
A MOISTURE TRANSPORT SYSTEM FOR CONTACT
ELECTROCOAGULATION

Related Applications
This application claims the benefit of U.S. Provisional
5

Application No. 60/084,791, filed May 8, 1998, and is a
Continuation in Part of copending U.S. Application No. 08/632,516,
filed April 12, 1996, now U.S. Patent No. 5,769,880, issued June
23, 1998.

Field of the Invention
10

The present invention relates generally to the field of
apparatuses and methods for ablating or coagulating the interior
surfaces of body organs. Specifically, it relates to an apparatus and
method for ablating the interior linings of body organs such as the
uterus and gallbladder.

15

Background of the Invention
Ablation of the interior lining of a body organ is a procedure
which involves heating the organ lining to temperatures which
destroy the cells of the lining or coagulate tissue proteins for
hemostasis. Such a procedure may be performed as a treatment to

20

one of many conditions, such as chronic bleeding of the endometrial
layer of the uterus or abnormalities of the mucosal layer of the
gallbladder. Existing methods for effecting ablation include
circulation of heated fluid inside the organ (either directly or inside a
Docket No. ENUS-220

HOL-MIN_146846

Appx40315

857

PATENT APPLICATION
Express Mailing Lab I: EM503277278US

- 2balloon), laser treatment of the organ lining, and resistive heating
using application of RF energy to the tissue to be ablated.
U.S. Patent 5,084,044 describes an apparatus for endometrial
ablation in which a bladder is inserted into the uterus. Heated fluid
5

is then circulated through the balloon to expand the balloon into
contact with the endometrium and to ablate the endometrium
thermally. U.S. Patent 5,443,470 describes an apparatus for
endometrial ablation in which an expandable bladder is provided with
electrodes on its outer surface. After the apparatus is positioned

t2

10

inside the uterus, a non-conductive gas or liquid is used to fill the
balloon, causing the balloon to push the electrodes into contact with

ru

the endometrial surface. RF energy is supplied to the electrodes to

a

ablate the endometrial tissue using resistive heating.

Cr!

111.

These ablation devices are satisfactory for carrying out

fps

is

tO

ablation procedures. However, because no data or feedback is
available to guide the physician as to how deep the tissue ablation
has progressed, controlling the ablation depth and ablation profile
with such devices can only
be done by assumption.

20

For example, the heated fluid method is a very passive and
ineffective heating process which relies on the heat conductivity of
the tissue. This process does not account for variations in factors
such as the amount of contact between the balloon and the
underlying tissue, or cooling effects such as those of blood

25

circulating through the organ. RF ablation techniques can achieve
more effective ablation since it relies on active heating of the tissue
using RF energy, but presently the depth of ablation using RF
Docket No. ENVS-220

HOL-MIN_146847

Appx40316

858

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 3techniques can only be estimated by the physician since no feedback
can be provided as to actual ablation depth.
Both the heated fluid techniques and the latest RF techniques
must be performed using great care to prevent over ablation.
Monitoring of tissue surface temperature is normally carried out
during these ablation procedures to ensure the temperature does not
exceed 100° C. If the temperature exceeds 100° C, the fluid within
the tissue begins to boil and to thereby produce steam. Because
ablation is carried out within a closed cavity within the body, the
steam cannot escape and may instead force itself deeply into the
tissue, or it may pass into areas adjacent to the area intended to be
ablated, causing embolism or unintended burning.
Moreover, in prior art RF devices the water drawn from the
tissue creates a path of conductivity through which current traveling
through the electrodes will flow. This can prevent the current from
traveling into the tissue to be ablated. Moreover, the presence of
this current path around the electrodes causes current to be
continuously drawn from the electrodes. The current heats the
liquid drawn from the tissue and thus turns the ablation process into
a passive heating method in which the heated liquid around the
electrodes causes thermal ablation to continue well beyond the
desired ablation depths.
Another problem with prior art ablation devices is that it is
difficult for a physician to find out when ablation has been carried
out to a desired depth within the tissue. Thus, it is often the case
that too much or too little tissue may be ablated during an ablation
procedure.

Docket No. ENVS-220

HOL-MIN_146848

Appx40317

859

PATENT APPLICATION
Express Mailing Label: EM503277278US

-4It is therefore desirable to provide an ablation device which
eliminates the above-described problem of steam and liquid buildup
at the ablation site. It is further desirable to provide an ablation
method and device which allows the depth of ablation to be
5

controlled and which automatically discontinues ablation once the
desired ablation depth has been reached.

sO

Summary Of The Invention
The present invention is an apparatus and method of ablating

4.0

and/or coagulating tissue, such as that of the uterus or other organ.
10

An ablation device is provided which has an electrode array carried
by an elongate tubular member. The electrode array includes a fluid
permeable elastic member preferably formed of a metallized fabric
having insulating regions and conductive regions thereon. During

fU
LU
lw
te

use, the electrode array is positioned in contact with tissue to be
15

ablated, ablation energy is delivered through the array to the tissue
to cause the tissue to dehydrate, and moisture generated during
dehydration is actively or passively drawn into the array and away
from the tissue.

Brief Description Of The Drawings
20

Fig. 1 is a front elevation view of a first embodiment of an
ablation device according to the present invention, with the handle
shown in cross-section and with the RF applicator head in a closed
condition.

Docket No. ENVS-220

HOL-MIN_146849

Appx40318

860

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 5Fig. 2 is a front elevation view of the ablation device of Fig. 1,
with the handle shown in cross-section and with the RF applicator
head in an open condition.
Fig. 3 is a side elevation view of the ablation device of Fig. 2.
5

Fig. 4 is a top plan view of the ablation device of Fig. 2.
Fig. 5A is a front elevation view of the applicator head and a
portion of the main body of the ablation device of Fig. 2, with the
main body shown in cross-section.
Fig. 5B is a cross-section view of the main body taken along

10

the plane designated 5B-5B in Fig. 5A.
Fig. 6 is a schematic representation of a uterus showing the
ablation device of Fig. 1 following insertion of the device into the
uterus but prior to retraction of the introducer sheath and activation
of the spring members.

15

Fig. 7 is a schematic representation of a uterus showing the
ablation device of Fig. 1 following insertion of the device into the
uterus and following the retraction of the introducer sheath and the
expansion of the RF applicator head.
Fig. 8 is a cross-section view of the RF applicator head and

20

the distal portion of the main body of the apparatus of Fig. 1,
showing the RF applicator head in the closed condition.
Fig. 9 is a cross-section view of the RF applicator head and
the distal portion of the main body of the apparatus of Fig. 1,
showing the configuration of RF applicator head after the sheath has

25

been retracted but before the spring members have been released by
proximal movement of the shaft.

Docket No. ENVS-220

HOL-MIN_146850

Appx40319

861

PATENT APPLICATION
Expr ss Mailing Lab I: EM503277278US

- 6Fig. 10 is a cross-section view of the RF applicator head and
the distal portion of the main body of the apparatus of Fig. 1,
showing the configuration of RF applicator head after the sheath has
been retracted and after the spring members have been released into
the fully opened condition.
Fig. 11 is a cross-section view of a distal portion of an RF
ablation device similar to Fig. 1 which utilizes an alternative spring
member configuration for the RF applicator head.
Fig. 12 is a side elevation view of the distal end of an
10

alternate embodiment of an RF ablation device similar to that of Fig.
1, which utilizes an RF applicator head having a modified shape.
Fig. 13 is a top plan view of the ablation device of Fig. 12.
Fig. 14 is a representation of a bleeding vessel illustrating use
of the ablation device of Fig. 12 for general bleeding control.

15

Figs. 15 and 16 are representations of a uterus illustrating use
of the ablation device of Fig. 12 for endometrial ablation.
Fig. 17 is a representation of a prostate gland illustrating use
of the ablation device of Fig. 12 for prostate ablation.
Fig. 18 is a cross-section view of target tissue for ablation,

20

showing ablation electrodes in contact with the tissue surface and
illustrating energy fields generated during bi-polar ablation.
Figs. 19A - 19C are cross-section views of target tissue for
ablation, showing electrodes in contact with the tissue surface and
illustrating how varying active electrode density may be used to vary

25

the ablation depth.
Fig. 20 is a side elevation view, similar to the view of Fig. 2,
showing an ablation device according to the present invention in
Docket No. ENVS-220

HOL-MIN_146851

Appx40320

862

PATENT APPLICATION
Express Mailing Label: EM503277278US

-7which the electrode carrying means includes inflatable balloons. For
purposes of clarity, the electrodes on the electrode carrying means
are not shown.
Fig. 21 is a side elevation view of a second exemplary
5

embodiment of an ablation device according to the present
invention, showing the array in the retracted state.
Fig. 22 is a side elevation view of the ablation device of Fig.
21, showing the array in the deployed state.
Fig. 23 is a top plan view of the applicator head of the

10

apparatus of Fig. 21.
Fig. 24 is a cross-sectional top view of the encircled region
designated 24 in Fig. 23.
Fig. 25A is a perspective view of the electrode array of Fig.
23.
Fig. 25B is a distal end view of the applicator head of Fig.

15

30A.
Fig. 26A is a plan view of a knit that may be used to form the
applicator head.
Fig. 26B is a perspective view of a strand of nylon-wrapped
20

spandex of the type that may be used to form the knit of Fig. 26A.
Figs. 27A, 27B, 27C are top plan views illustrating triangular,
parabolic, and rectangular mesh shapes for use as electrode arrays
according to the present invention.
Fig. 28 is a perspective view showing the flexures and

25

hypotube of the deflecting mechanism of the applicator head of Fig.
23.

Docket No.

ENVS-220

HOL-MIN_146852

Appx40321

863

PATENT APPLICATION
Express Mailing Label: EM503277278US

-8Fig. 29 is a cross-section view of a flexure taken along the
plane designated 29-29 in Fig. 23.
Fig. 30 is a top plan view illustrating

the

flexure

and

spring

arrangement of an alternative configuration of a deflecting
5

mechanism for an applicator head according to the present
invention.
Fig. 31 is a cross-sectional side view of the bobbin portion of
the apparatus of Fig. 21.
Fig. 32A is a side elevation view of the handle of the ablation

10

device of Fig. 21.
Fig. 32B is a top plan view of the handle of the ablation
device of Fig. 21. For clarity, portions of the proximal and distal
grips are not shown.
Fig. 33 illustrates placement of the applicator head according

15

to the present invention in a uterine cavity.
Fig. 34 is a side elevation view of the handle of the ablation
apparatus of Fig. 21, showing portions of the apparatus in crosssection.
Fig. 35 is a front elevation view of the upper portion of the

20

proximal

handle grip taken along the plane designated 35-35 in Fig.

32B.
Figs. 36A, 36B, and 36C are a series of side elevation views
illustrating the heel member as it becomes engaged with the
corresponding spring member.
25

Figs. 37A and 37B are cross-sectional top

views

of

the frame

member mounted on the proximal grip section, taken along the plane
designated 37-37 in Fig. 34 and illustrating one of the load limiting
Docket No. ENVS-220

HOL-MIN_146853

Appx40322

864

PATENT APPLICATION
Express Mailing Label: EM503277278US

-9features of the second embodiment. Fig. 37A shows the condition
of the compression spring before the heel member moves into
abutment with frame member, and Fig 37B shows the condition of
the spring after the heel member moves into abutment with the
5

frame member.

Detailed Description
The invention described in this application is an aspect of a
larger set of inventions described in the following co-pending
applications which are commonly owned by the assignee of the
10

present invention, and are hereby incorporated by reference: U.S.
Provisional Patent Application No. 60/084,724, filed May 8, 1998,
entitled "APPARATUS AND METHOD FOR INTRA-ORGAN
MEASUREMENT AND ABLATION" (attorney docket no. ENVS-400);
and U.S. Provisional Patent Application No.

15

filed May 8,

1998, entitled "A RADIO-FREQUENCY GENERATOR FOR POWERING
AN ABLATION DEVICE" (attorney docket no. ENVS-500).
The ablation apparatus according to the present invention will
be described with respect to two exemplary embodiments.

First Exemplary Embodiment - Structure
20

Referring to Figs. 1 and 2, an ablation device according to the
present invention is comprised generally of three major components:
RF applicator head 2, main body 4, and handle 6. Main body 4
includes a shaft 10. The RF applicator head 2 includes an electrode
carrying means 12 mounted to the distal end of the shaft 10 and an

25

array of electrodes 14 formed on the surface of the electrode
Docket No. ENVS-220

HOL-MIN_146854

Appx40323

865

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 10 carrying means 12. An RF generator 16 is electrically connected to
the electrodes 14 to provide mono-polar or bipolar RF energy to
them.
Shaft 10 is an elongate member having a hollow interior.
5

Shaft 10 is preferably 12 inches long and has a preferred crosssectional diameter of approximately 4 mm. A collar 13 is formed on
the exterior of the shaft 10 at the proximal end. As best shown in
Figs. 6 and 7, passive spring member 15 are attached to the distal

/2=
rw

end of the shaft 10.
10

Extending through the shaft 10 is a suction/insufflation tube
17 (Figs. 6-9) having a plurality of holes 17a formed in its distal end.
An arched active spring member 19 is connected between the distal
ends of the passive spring members 15 and the distal end of the

ru

suction/insufflation tube 17.
15

Referring to Fig. 2, electrode leads 18a and 18b extend
through the shaft 10 from distal end 20 to proximal end 22 of the
shaft 10. At the distal end 20 of the shaft 10, each of the leads
18a, 18b is coupled to a respective one of the electrodes 14. At the
proximal end 22 of the shaft 10, the leads 18a, 18b are electrically

20

connected to RF generator 16 via an electrical connector 21. During
use, the leads 18a, 18b carry RF energy from the RF generator 16 to
the electrodes. Each of the leads 18a, 18b is insulated and carries
energy of an opposite polarity than the other lead.
Electrically insulated sensor leads 23a, 23b (Figs. 5A and 513)

25

also extend through the shaft 10.

Contact sensors 25a, 25b are

attached to the distal ends of the sensor leads 23a, 23b,
respectively and are mounted to the electrode carrying means 12.
Docket No.

ENVS- 22 0

HOL-MIN_146855

Appx40324

866

PATENT APPLICATION
Express Mailing Label: EM503277278US

During use, the sensor leads 23a, 23b are coupled by the connector
21 to a monitoring module in the RF generator 16 which measures
impedance between the sensors 25a, 25b. Alternatively, a
reference pad may be positioned in contact with the patient and the
5

impedance between one of the sensors and the reference pad
measured.
Referring to Fig. 5B, electrode leads 18a, 18b and sensor
leads 23a, 23b extend through the shaft 10 between the external
walls of the tube 17 and the interior walls of the shaft 10 and they

10

are coupled to electrical connector 21 which is preferably mounted
to the collar 13 on the shaft 10. Connector 21, which is
connectable to the RF generator 16, includes at least four electrical
contact rings 21a - 21d (Figs. 1 and 2) which correspond to each of
the leads 18a, 18b, 23a, 23b. Rings 21a, 21b receive, from the RF

15

generator, RF energy of positive and negative polarity, respectively.
Rings 21c, 21d deliver signals from the right and left sensors,
respectively, to a monitoring module within the RF generator 16.
Referring to Fig. 5A, the electrode carrying means 12 is
attached to the distal end 20 of the shaft 10. A plurality of holes 24

20

may be formed in the portion of the distal end 20 of the shaft which
lies within the electrode carrying means 12.
The electrode carrying means 12 preferably has a shape which
approximates the shape of the body organ which is to be ablated.
For example, the apparatus shown in Figs. 1 through 11 has a

25

bicornual shape which is desirable for intrauterine ablation. The
electrode carrying means 12 shown in these figures includes horn
regions 26 which during use are positioned within the cornual
Docket No. ENVS-220

HOL-MIN_146856

Appx40325

867

PATENT APPLICATION
Express Mailing Label: EM503277278US

-12regions of the uterus and which therefore extend towards the
fallopian tubes.
Electrode carrying means 12 is preferably a sack formed of a
material which is non-conductive, which is permeable to moisture
5

and/or which has a tendency to absorb moisture, and which may be
compressed to a smaller volume and subsequently released to its
natural size upon elimination of compression. Examples of preferred
materials for the electrode carrying means include open cell sponge,
foam, cotton, fabric, or cotton-like material, or any other material

10

having the desired characteristics. Alternatively, the electrode
carrying means may be formed of a metallized fabric. For
convenience, the term "pad" may be used interchangeably with the
term electrode carrying means to refer to an electrode carrying
means formed of any of the above materials or having the listed

15

properties.
Electrodes 14 are preferably attached to the outer surface of
the electrode carrying means 1 2, such as by deposition or other
attachment mechanism. The electrodes are preferably made of
lengths of silver, gold, platinum, or any other conductive material.

20

The electrodes may be attached to the electrode carrying means 12
by electron beam deposition, or they may be formed into coiled
wires and bonded to the electrode carrying member using a flexible
adhesive. Naturally, other means of attaching the electrodes, such
as sewing them onto the surface of the carrying member, may

25

alternatively be used.

If the electrode carrying means 12 is formed

of a metallized fabric, an insulating layer may be etched onto the
fabric surface, leaving only the electrode regions exposed.
Docket No. ENVS-220

HOL-MIN_146857

Appx40326

868

PATENT APPLICATION
Expr ss Mailing Label: EM503277278US

-13The spacing between the electrodes (i.e. the distance between
the centers of adjacent electrodes) and the widths of the electrodes
are selected so that ablation will reach predetermined depths within
the tissue, particularly when maximum power is delivered through
5

the electrodes (where maximum power is the level at which low
impedance, low voltage ablation can be achieved).
The depth of ablation is also effected by the electrode density

C3
led

(i.e., the percentage of the target tissue area which is in contact
with active electrode surfaces) and may be regulated by pre-

CI

10

Ca

the depth of ablation is much greater when the active electrode
surface covers more than 10% of the target tissue than it is when

a

the active electrode surfaces covers 1% of the target tissue.

eA
6F

x'

ts)

selecting the amount of this active electrode coverage. For example,

For example, by using 3-6 mm spacing and an electrode width
15

of approximately 0.5 - 2.5 mm, delivery of approximately 20 - 40
watts over a 9-16 cm2 target tissue area will cause ablation to a

co

depth of approximately 5-7 millimeters when the active electrode
surface covers more than 10% of the target tissue area. After
reaching this ablation depth, the impedance of the tissue will
20

become so great that ablation will self-terminate as described with
respect to the operation of the invention.
By contrast, using the same power, spacing, electrode width,
and FIF frequency will produce an ablation depth of only 2 - 3 rnm
when the active electrode surfaces covers less than 1 % of the

25

target tissue area. This can be better understood with reference to
Fig. 19A, in which high surface density electrodes are designated
14a and low surface density electrodes are designated 14b. For
Docket No. ENVS-220

HOL-MIN_146858

Appx40327

869

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 14purposes of this comparison between low and high surface density
electrodes, each bracketed group of low density electrodes is
considered to be a single electrode. Thus, the electrode widths W
and spacings S extend as shown in Fig. 19A.
5

As is apparent from Fig. 19A, the electrodes 14a, which have
more active area in contact with the underlying tissue T, produce a
region of ablation Al that extends more deeply into the tissue T than
the ablation region A2 produced by the low density electrodes 14b,
even though the electrode spacings and widths are the same for the

10

high and low density electrodes.
Some examples of electrode widths, having spacings with
more than 10% active electrode surface coverage, and their
resultant ablation depth, based on an ablation area of 6 cm2 and a
power of 20 - 40 watts, are given on the following table:

15

ELECTRODE WIDTH

SPACING

APPROX. DEPTH

1 mm

1 - 2 mm

1 - 3 mm

1 - 2.5 mm

3 - 6 mm

5 - 7 mm

1 - 4.5 mm

8- 10 mm

8- 10 mm

Examples of electrode widths, having spacings with less than
20

1 % active electrode surface coverage, and their resultant ablation
depth, based on an ablation area of 6 cm2 and a power of 20 - 40
watts, are given on the following table:

Docket No. ENVS-220

HOL-MIN_146859

Appx40328

870

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 15 -

ELECTRODE WIDTH

SPACING

APPROX. DEPTH

1 mm

1 - 2 mm

0.5 - 1 mm

1 - 2.5 mm

3 - 6 mm

2 - 3 mm

1 - 4.5 mm

8 - 10 mm

2 - 3 mm

Thus it can be seen that the depth of ablation is significantly

5

less when the active electrode surface coverage is decreased.
In the preferred embodiment, the preferred electrode spacing
is approximately 8 - 10 mm in the horn regions 26 with the active
electrode surfaces covering approximately 1% of the target region.
10

Approximately 1 - 2 mm electrode spacing (with 10% active
electrode coverage) is preferred in the cervical region (designated
28) and approximately 3 - 6 mm (with greater than 10% active
electrode surface coverage) is preferred in the main body region.
The RF generator 16 may be configured to include a controller

15

which gives the user a choice of which electrodes should be
energized during a particular application in order to give the user
control of ablation depth. For example, during an application for
which deep ablation is desired, the user may elect to have the
generator energize every other electrode, to thereby optimize the

20

effective spacing of the electrodes and to decrease the percentage
of active electrode surface coverage, as will be described below with
respect to Fig. 1 8 .
Although the electrodes shown in the drawings are arranged
in a particular pattern, it should be appreciated that the electrodes
Docket

No. ENVS-220

HOL-MIN_146860

Appx40329

871

PATENT APPLICATION
Express Mailing Lab I: EM503277278US

- 16 may be arranged in any pattern to provide ablation to desired
depths.
Referring to Figs. 6 and 7, an introducer sheath 32 facilitates
insertion of the apparatus into, and removal of the apparatus from,
5

the body organ to be ablated. The sheath 32 is a tubular member
which is telescopically slidable over the shaft 10. The sheath 32 is
slidable between a distal condition, shown in Fig. 6, in which the
electrode carrying means 12 is compressed inside the sheath, and a
proximal condition in which the sheath 32 is moved proximally to

10

release the electrode carrying means from inside it (Fig. 7). By
compressing the electrode carrying means 12 to a small volume, the
electrode carrying means and electrodes can be easily inserted into
the body cavity (such as into the uterus via the vaginal opening).
A handle 34 attached to the sheath 32 provides finger holds

15

to allow for manipulation of the sheath 32. Handle 34 is slidably
mounted on a handle rail 35 which includes a sleeve 33, a finger
cutout 37, and a pair of spaced rails 35a, 35b extending between
the sleeve 33 and the finger cutout 37. The shaft 10 and sheath 32
slidably extend through the sleeve 33 and between the rails 35a,

20

35b. The tube 17 also extends through the sleeve 33 and between
the rails 35a, 35b, and its proximal end is fixed to the handle rail 35
near the finger cutout 37.
A compression spring 39 is disposed around the proximal
most portion of the suction/insufflation tube 17 which lies between

25

the rails 35a, 35b. One end of the compression spring 39 rests
against the collar 13 on the shaft 10, while the opposite end of the
compression spring rests against the handle rail 35.

During

Docket No. ENVS-220

HOL-MIN_146861

Appx40330

872

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 17 use, the sheath 32 is retracted from the electrode carrying means 12
by squeezing the handle 34 towards the finger cutout 37 to slide the
sheath 32 in the distal direction. When the handle 34 advances
against the collar 13, the shaft 10 (which is attached to the collar
5

13) is forced to slide in the proximal direction, causing compression
of the spring 39 against the handle rail 35. The movement of the
shaft 10 relative to the suction/insufflation tube 17 causes the shaft
10 to pull proximally on the passive spring member 15. Proximal
movement of the passive spring member 15 in turn pulls against the

10

active spring member 19, causing it to move to the opened condition
shown in Fig. 7. Unless the shaft is held in this retracted condition,
the compression spring 39 will push the collar and thus the shaft
distally, forcing the RF applicator head to close. A locking
mechanism (not shown) may be provided to hold the shaft in the

15

fully withdrawn condition to prevent inadvertent closure of the
spring members during the ablation procedure.
The amount by which the springs 15, 19 are spread may be
controlled by manipulating the handle 34 to slide the shaft 10 (via
collar 13), proximally or distally. Such sliding movement of the shaft

20

10

causes forceps-like movement of the spring members 15, 19.

A flow pathway 36 is formed in the handle rail 35 and is
fluidly coupled to a suction/insufflation port 38. The proximal end of
the suction/insufflation tube 17 is fluidly coupled to the flow
pathway so that gas fluid may be introduced into, or withdrawn
25

from the suction/insufflation tube 17 via the suction/insufflation port
38. For example, suction may be applied to the fluid port 38 using a
Docket No. ENVS-220

HOL-MIN_146862

Appx40331

873

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 18 suction/insufflation unit 40. This causes water vapor within the
uterine cavity to pass through the permeable electrode carrying
means 12, into the suction/insufflation tube 17 via holes 1 7a,
through the tube 17, and through the suction/insufflation unit 40 via
5

the port 38. If insufflation of the uterine cavity is desired,
insufflation gas, such as carbon dioxide, may be introduced into the
suction/insufflation tube 17 via the port 38. The insufflation gas

,

travels through the tube 17, through the holes 17a, and into the
uterine cavity through the permeable electrode carrying member 12.
If desirable, additional components may be provided for

10

endoscopic visualization purposes. For example, lumen 42, 44, and
46 may be formed in the walls of the introducer sheath 32 as shown
in Fig. 5B. An imaging conduit, such as a fiberoptic cable 48,
extends through lumen 42 and is coupled via a camera cable 43 to a
15

camera 45. Images taken from the camera may be displayed on a
monitor 56. An illumination fiber 50 extends through lumen 44 and
is coupled to an illumination source 54. The third lumen 46 is an
instrument channel through which surgical instruments may be
introduced into the uterine cavity, if necessary.
Because during use it is most desirable for the electrodes 14

20

on the surface of the electrode carrying means 12 to be held in
contact with the interior surface of the organ to be ablated, the
electrode carrying means 12 may be provide to have additional
components inside it that add structural integrity to the electrode
25

carrying means when it is deployed within the body.
For example, referring to Fig. 11, alternative spring members
1 5a, 1 9a may be attached to the shaft 10 and biased such that,
Docket

NO.

ENVS - 22 0

HOL-MIN_146863

Appx40332

874

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 19 when in a resting state, the spring members are positioned in the
fully resting condition shown in Fig. 11. Such spring members
would spring to the resting condition upon withdrawal of the sheath
32 from the RF applicator head 2.
5

Alternatively, a pair of inflatable balloons 52 may be arranged
inside the electrode carrying means 12 as shown in Fig. 20 and
connected to a tube (not shown) extending through the shaft 10 and
into the balloons 52. After insertion of the apparatus into the organ
and following retraction of the sheath 32, the balloons 52 would be

10

inflated by introduction of an inflation medium such as air into the
balloons via a port similar to port 38 using an apparatus similar to
the suction/insufflation apparatus 40.
Structural integrity may also be added to the electrode
carrying means through the application of suction to the proximal

15

end 22 of the suction/insufflation tube 17. Application of suction
using the suction/insufflation device 40 would draw the organ tissue
towards the electrode carrying means 12 and thus into better
contact with the electrodes 14.
Figs. 12 and 13 show an alternative embodiment of an

20

ablation device according to the present invention. In the alternative
embodiment, an electrode carrying means 12a is provided which has
a shape which is generally tubular and thus is not specific to any
particular organ shape. An ablation device having a general shape
such as this may be used anywhere within the body where ablation

25

or coagulation is needed. For example, the alternative embodiment
is useful for bleeding control during laparoscopic surgery (Fig. 14),

/Docket No. ENVS - 2 2 0

HOL-MIN_146864

Appx40333

875

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 20 tissue ablation in the prostate gland (Fig. 17), and also intrauterine
ablation (Figs. 15 and 16).

First Exemplary Embodiment - Operation
Operation of the first exemplary embodiment of an ablation
5

device according to the present invention will next be described.
Referring to Fig. 1, the device is initially configured for use by
positioning the introducer sheath 32 distally along the shaft 10, such
that it compresses the electrode carrying means 12 within its walls.
At this time, the electrical connector 21 is connected to the
RF generator 16, and the fiberoptic cable 48 and the illumination
cable 50 are connected to the illumination source, monitor, and
camera, 54, 56, 45. The suction/insufflation unit 40 is attached to
suction/insufflation port 38 on the handle rail 35. The
suction/insufflation unit 40 is preferably set to deliver carbon dioxide
at an insufflation pressure of 20 - 200 mmHg.
Next, the distal end of the apparatus is inserted through the
vaginal opening V and into the uterus U as shown in Fig. 6, until the
distal end of the introducer sheath 32 contacts the fundus F of the
uterus. At this point, carbon dioxide gas is introduced into the tube

20

17 via the port 38, and it enters the uterine cavity, thereby
expanding the uterine cavity from a flat triangular shape to a 1-2 cm
high triangular cavity. The physician may observe (using the camera
45 and monitor 56) the internal cavities using images detected by a
fiberoptic cable 48 inserted through lumen 42. If, upon observation,

25

the physician determines that a tissue biopsy or other procedure is

Docket No. ENVS-220

HOL-MIN_146865

Appx40334

876

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 21 needed, the required instruments may be inserted into the uterine
cavity via the instrument channel 46.
Following insertion, the handle 34 is withdrawn until it abuts
the collar 13. At this point, the sheath 32 exposes the electrode
5

carrying member 12 but the electrode carrying member 12 is not yet
fully expanded (see Fig 9), because the spring members 15, 19 have
not yet been moved to their open condition. The handle 34 is
withdrawn further, causing the shaft 10 to move proximally relative
to the suction/insufflation tube 17, causing the passive spring

10

members 15 to pull the active spring members 19, causing them to
open into the opened condition shown in Fig. 10.
The physician may confirm proper positioning of the electrode
carrying member 12 using the monitor 56, which displays images
from the fiberoptic cable 48.

15

Proper positioning of the device and sufficient contact
between the electrode carrying member 12 and the endometrium
may further be confirmed using the contact sensors 25a, 25b. The
monitoring module of the RF generator measures the impedance
between these sensors using conventional means. If there is good

20

contact between the sensors and the endometrium, the measured
impedance will be approximately 20 - 180 ohm, depending on the
water content of the endometrial lining.
The sensors are positioned on the distal portions of the
bicornual shaped electrode carrying member 12, which during use

25

are positioned in the regions within the uterus in which it is most
difficult to achieve good contact with the endometrium. Thus, an
indication from the sensors 25a, 25b that there is sound contact
Docket No. ENVS-220

HOL-MIN_146866

Appx40335

877

PATENT APPLICATION

Express Mailing Label: EM503277278US
-22between the sensors and the endometrial surface indicates that good
electrode contact has been made with the endometrium.
Next, insufflation is terminated. Approximately 1 - 5 cc of
saline may be introduced via suction/insufflation tube 17 to initially
5

wet the electrodes and to improve electrode electrical contact with
the tissue. After introduction of saline, the suction/insufflation
device 40 is switched to a suctioning mode. As described above,
the application of suction to the RF applicator head 2 via the
suction/insufflation tube 17 collapses the uterine cavity onto the RF
applicator head 2 and thus assures better contact between the
electrodes and the endometrial tissue.
If the generally tubular apparatus of Figs. 12 and 13 is used,
the device is angled into contact with one side of the uterus during
the ablation procedure. Once ablation is completed, the device (or a
new device) is repositioned in contact with the opposite side and the
procedure is repeated. See. Figs. 15 and 16.
Next, RF energy at preferably about 500 kHz and at a
constant power of approximately 30 W is applied to the electrodes.
As shown in Fig. 5a, it is preferable that each electrode be energized

20

at a polarity opposite from that of its neighboring electrodes. By
doing so, energy field patterns, designated F 1, F2 and F4 in Fig. 18,
are generated between the electrode sites and thus help to direct the
flow of current through the tissue T to form a region of ablation A.
As can be seen in Fig. 18, if electrode spacing is increased such by

25

energizing, for example every third or fifth electrode rather than all
electrodes, the energy patterns will extend more deeply into the
tissue. (See, for example, pattern F2 which results from
Docket No. ENVS-220

HOL-MIN_146867

Appx40336

878

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 23 energization of electrodes having a non-energized electrode between
them, or pattern F4 which results from energiiation of electrodes
having two non-energized electrodes between them).
Moreover, ablation depth may be controlled as described
5

above by providing low surface density electrodes on areas of the
electrode carrying member which will contact tissue areas at which
a smaller ablation depth is required (see Fig. 19A).

Referring

to Fig. 19B, if multiple, closely spaced, electrodes 14 are provided
on the electrode carrying member, a user may set the RF generator
10

to energize electrodes which will produce a desired electrode
spacing and active electrode area. For example, alternate electrodes
may be energized as shown in Fig. 1 9B, with the first three
energized electrodes having positive polarity, the second three
having negative polarity, etc.
As another example, shown in Fig. 19C, if greater ablation

15

depth is desired the first five electrodes may be positively energized,
and the seventh through eleventh electrodes negatively energized,
with the sixth electrode remaining' inactivated to provide adequate
electrode spacing.
As the endometrial tissue heats, moisture begins to be

20

released from the tissue. The moisture permeates the electrode
carrying member 12 and is thereby drawn away from the electrodes.
The moisture may pass through the holes 17a in the
suction/insufflation tube 17 and leave the suction/insufflation tube
25

17 at its proximal end via port 38 as shown in Fig. 7. Moisture
removal from the ablation site may be further facilitated by the

Docket

No.

ENVS-220

HOL-MIN_146868

Appx40337

879

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 24 application of suction to the shaft 10 using the suction/insufflation
unit 40.
Removal of the moisture from the ablation site prevents
formation of a liquid layer around the electrodes. As described
5

above, liquid build-up at the ablation site is detrimental in that
provides a conductive layer that carries current from the electrodes
even when ablation has reached the desired depth. This continued
current flow heats the liquid and surrounding tissue, and thus causes
ablation to continue by unpredictable thermal conduction means.

10

Tissue which has been ablated becomes dehydrated and thus
decreases in conductivity. By shunting moisture away from the
ablation site and thus preventing liquid build-up, there is no liquid
conductor at the ablation area during use of the ablation device of
the present invention. Thus, when ablation has reached the desired

15

depth, the impedance at the tissue surface becomes sufficiently high
to stop or nearly stop the flow of current into the tissue. RF ablation
thereby stops and thermal ablation does not occur in significant
amounts. If the RF generator is equipped with an impedance
monitor, a physician utilizing the ablation device can monitor the

20

impedance at the electrodes and will know that ablation has selfterminated once the impedance rises to a certain level and then
remains fairly constant. By contrast, if a prior art bipolar RF ablation
device was used together with an impedance monitor, the presence
of liquid around the electrodes would cause the impedance monitor

25

to give a low impedance reading regardless of the depth of ablation
which had already been carried out, since current would continue to
travel through the low-impedance liquid layer.
Docket No. ENVS-220

HOL-MIN_146869

Appx40338

880

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 25 Other means for monitoring and terminating ablation may also
be provided. For example, a thermocouple or other temperature
sensor may be inserted to a predetermined depth in the tissue to
monitor the temperature of the tissue and terminate the delivery of
5

RF energy or otherwise signal the user when the tissue has reached
a desired ablation temperature.
Once the process has self terminated, 1 - 5 cc of saline can
be introduced via suction/insufflation tube 17 and allowed to sit for
a short time to aid separation of the electrode from the tissue

10

surface. The suction/insufflation device 40 is then switched to
provide insufflation of carbon dioxide at a pressure of 20 - 200
mmHg. The insufflation pressure helps to lift the ablated tissue
away from the RF applicator head 2 and to thus ease the closing of
the RF applicator head. The RF applicator head 2 is moved to the

15

closed position by sliding the handle 34 in a distal direction to fold
the spring members 15, 19 along the axis of the device and to cause
the introducer sheath 32 to slide over the folded RF applicator head.
The physician may visually confirm the sufficiency of the ablation
using the monitor 56. Finally, the apparatus is removed from the

20

uterine cavity.

Second Exemplary Embodiment - Structure
A second embodiment of an ablation device 100 in
accordance with the present invention is shown in Figs. 21 - 37B.
The second embodiment differs from the first embodiment primarily
25

in its electrode pattern and in the mechanism used to deploy the
electrode applicator head or array. Naturally, aspects of the first and
Docket No. ENVS-220

HOL-MIN_146870

Appx40339

881

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 26 second exemplary embodiments and their methods of operation may
be combined without departing from the scope of the present
invention.
Referring to Figs. 21 and 22, the second embodiment includes
5

an RF applicator head 102, a sheath 104, and a handle 106. As
with the first embodiment, the applicator head 102 is slidably
disposed within the sheath 104 (Fig. 21) during insertion of the
device into the uterine cavity, and the handle 106 is subsequently
manipulated to cause the applicator head 102 to extend from the

10

distal end of the sheath 104 (Fig. 22) and to expand into contact
with body tissue (Fig. 33).

RF Applicator Head
Referring to Fig. 23, in which the sheath 104 is not shown for
clarity, applicator head 102 extends from the distal end of a length
15

of tubing 108 which is slidably disposed within the sheath 104.
Applicator head 102 includes an external electrode array 102a and
an internal deflecting mechanism 102b used to expand and tension
the array for positioning into contact with the tissue.
Referring to Figs. 25A and 25B, the array 102a of applicator

20

head 102 is formed of a stretchable metallized fabric mesh which is
preferably knitted from a nylon and spandex knit plated with gold or
other conductive material. In one array design, the knit (shown in
Figs. 26A and 26B) is formed of three monofilaments of nylon 109a
knitted together with single yarns of spandex 109b. Each yarn of

25

spandex 109b has a double helix 109c of five nylon monofilaments
coiled around it.
Docket No. ENVS-220

HOL-MIN_146871

Appx40340

882

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 27 This knit of elastic (spandex) and inelastic (nylon) yarns is
beneficial for a number of reasons. For example, knitting elastic and
relatively inelastic yarns allows the overall deformability of the array
to be pre-selected.
5

The mesh is preferably constructed so as to have greater
elasticity in the transverse direction (T) than in the longitudinal
direction (L}. In a preferred mesh design, the transverse elasticity is
on the order of approximately 300% whereas the longitudinal
elasticity is on the order of approximately 100%. The large

10

transverse elasticity of the array allows it to be used in a wide range
of uterine sizes.
Another advantage provided by the combination of elastic and
relatively inelastic yarns is that the elastic yarns provide the needed
elasticity to the array while the relatively inelastic yarns provide

15

relatively non-stretchable members to which the metallization can
adhere without cracking during expansion of the array. In the knit
configuration described above, the metallization adheres to the nylon
coiled around the spandex. During expansion of the array, the
spandex elongates and the nylon double helix at least partially

20

elongates from its coiled configuration.
One process which may be used to apply the gold to the
nylon/spandex knit involves plating the knit with silver using known
processes which involve application of other materials as base layers
prior to application of the silver to ensure that the silver will adhere.

25

Next, the insulating regions 110 (described below) are etched onto
the silver, and afterwards the gold is plated onto the silver. Gold is
desirable for the array because of it has a relatively smooth surface,
Docket No. ENVS-220

HOL-MIN_146872

Appx40341

883

PATENT APPLICATION
Expr ss Mailing Lab I: EM503277278US

- 28 -

is a very inert material, and has sufficient ductility that it will not
crack as the nylon coil elongates during use.
The mesh may be configured in a variety of shapes, including
but not limited to the triangular shape Si, parabolic S2, and
5

rectangular S3 shapes shown in Figs. 27A, 278 and 27C,
respectively.
Turning again to Figs. 25A and 25B, when in its expanded
state, the array 102a includes a pair of broad faces 112 spaced

ti

apart from one another. Narrower side faces 114 extend between
10

the broad faces 112 along the sides of the applicator head 102, and
a distal face 116 extends between the broad faces 112 at the distal
end of the applicator head 102.
Insulating regions 110 are formed on the applicator head to
divide the mesh into electrode regions. The insulated regions 110

llu
15

are preferably formed using etching techniques to remove the
conductive metal from the mesh, although alternate methods may

CO

also be used, such as by knitting conductive and non-conductive
materials together to form the array.
The array may be divided by the insulated regions 110 into a
20

variety of electrode configurations. In a preferred configuration the
insulating regions 110 divide the applicator head into four electrodes
118a - 118d by creating two electrodes on each of the broad faces
112. To create this four-electrode pattern, insulating regions 110
are placed longitudinally along each of the broad faces 112 as well

25

as along the length of each of the faces 114, 116. The electrodes
118a-118d are used for ablation and, if desired, to measure tissue
impedance during use.

Docket No. ENVS-220

HOL-MIN_146873

Appx40342

884

PATENT APPLICATION
Express Mailing Label: EM503277278US

-29Deflecting mechanism 102b and its deployment structure is
enclosed within electrode array 102a. Referring to Fig. 23, external
hypotube 120 extends from tubing 108 and an internal hypotube
122 is slidably and co-axially disposed within hypotube 120.
5

Flexures 124 extend from the tubing 108 on opposite sides of
external hypotube 120.

A plurality of longitudinally spaced

apertures 126 (Fig. 28) are formed in each flexure 124. During use,
apertures 126 allow moisture to pass through the flexures and to be
drawn into exposed distal end of hypotube 120 using a vacuum

1

10

source fluidly coupled to hypotube 120.
Each flexure 124 preferably includes conductive regions that
are electrically coupled to the array 102a for delivery of RF energy to
the body tissue. Referring to Fig. 29, strips 128 of copper tape or
other conductive material extend along opposite surfaces of each

15

CO

flexure 124.

Each strip 128 is electrically insulated from the other

strip 128 by a non-conductive coating on the flexure. Conductor
leads (not shown) are electrically coupled to the strips 128 and
extend through tubing 108 (Fig. 23) to an electrical cord 130 (Fig.
21) which is attachable to the RF generator.
20

During use, one strip 128 on each conductor is electrically
coupled via the conductor leads to one terminal on the RF generator
while the other strip is electrically coupled to the opposite terminal,
thus causing the array on the applicator head to have regions of
alternating positive and negative polarity.

25

The flexures may alternatively be formed using a conductive
material or a conductively coated material having insulating regions
formed thereon to divide the flexure surfaces into multiple
Docket No. ENVS-220

HOL-MIN_146874

Appx40343

885

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 30 conductive regions. Moreover, alternative methods such as
electrode leads independent of the flexures 124 may instead be used
for electrically connecting the electrode array to the source of RF
energy.
It is important to ensure proper alignment between the
conductive regions of the flexures 124 (e.g. copper strips 128) and
the electrodes 118a - 118d in order to maintain electrical contact
between the two. Strands of thread 134 (which may be nylon) (Fig.
23) are preferably sewn through the array 102a and around the
flexures 124 in order to prevent the conductive regions 128 from
slipping out of alignment with the electrodes 118a - 118d. Alternate
methods for maintaining contact between the array 102a and the
conductive regions 128 include using tiny bendable barbs extending
between the flexures 124 and the array 102a to hook the array to
the conductive regions 128, or bonding the array to the flexures
using an adhesive applied along the insulating regions of the
flexures.
Referring again to Fig. 23, internal flexures 136 extend
laterally and longitudinally from the exterior surface of hypotube
122.

Each internal flexure 136 is connected at its distal end to one

of the flexures 124 and a transverse ribbon 138 extends between
the distal portions of the internal flexures 136. Transverse ribbon
138 is preferably pre-shaped such that when in the relaxed condition
the ribbon assumes the corrugated configuration shown in Fig. 23
and such that when in a compressed condition it is folded along the
plurality of creases 140 that extend along its length. Flexures 124,

Docket No. ENVS-220

HOL-MIN_146875

Appx40344

886

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 31 1 36 and ribbon 138 are preferably an insulated spring material such
as heat treated 17-7 PH stainless steel.
The deflecting mechanism is preferably configured such that
the distal tips of the flexures 124 are sufficiently flexible to prevent
5

tissue puncture during deployment and/or use. Such an atraumatic
tip design may be carried out in a number of ways, such as by
manufacturing the distal sections 124a (Fig. 28) of the flexures from
a material that is more flexible than the proximal sections 124b.
For example, flexures 124 may be provided to have proximal

10

sections formed of a material having a modulus of approximately 28.
x 106 psi and distal sections having a durometer of approximately
72D.
Alternatively, referring to Fig. 30, the flexures 124 may be
joined to the internal flexures 136 at a location more proximal than

15

the distal tips of the flexures 124, allowing them to move more
freely and to adapt to the contour of the surface against which they
are positioned (see dashed lines in Fig. 30). Given that uterine sizes
and shapes vary widely between women, the atraumatic tip design
is further beneficial in that it allows the device to more accurately

20

conform to the shape of the uterus in which it is deployed while
minimizing the chance of injury.
The deflecting mechanism formed by the flexures 124, 136,
and ribbon 138 forms the array into the substantially triangular
shape shown in Fig. 23, which is particularly adaptable to most

25

uterine shapes. As set forth in detail below, during use distal and
proximal grips 142, 144 forming handle 106 are squeezed towards
one another to withdraw the sheath and deploy the applicator head.
Docket No. ENVS-220

HOL-MIN_146876

Appx40345

887

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 32 This action results in relative rearward motion of the hypotube 120
and relative forward motion of the hypotube 122. The relative
motion between the hypotubes causes deflection in flexures 124,
136 which deploys and tensions the electrode array 102a.
5

Measurement Device
The ablation device according to the second embodiment
includes a measurement device for easily measuring the uterine
width and for displaying the measured width on a gauge 146 (Fig.
21). The measurement device utilizes non-conductive (e.g. nylon)

10

suturing threads 148 that extend from the hypotube 122 and that
have distal ends attached to the distal portion of the deflecting
mechanism (Fig. 23). As shown in Fig. 24, threads 148 are
preferably formed of a single strand 150 threaded through a wire
loop 152 and folded over on itself. Wire loop 152 forms the distal

15

end of an elongate wire 154 which may be formed of stainless steel
or other wire.
Referring to Fig. 31, wire 154 extends through the hypotube
122 and is secured to a rotatable bobbin 156. The rotatable bobbin
156 includes a dial face 158 preferably covered in a clear plastic.

20

As can be seen in Fig. 32, dial face 158 includes calibration
markings corresponding to an appropriate range of uterine widths.
The bobbin is disposed within a gauge housing 160 and a
corresponding marker line 162 is printed on the gauge housing. A
torsion spring 164 provides rotational resistance to the bobbin 156.

25

Expansion of the applicator head 102 during use pulls threads
148 (Fig. 23) and thus wire 154 (Fig. 24) in a distal direction. Wire
154 pulls against the bobbin 156 (Fig. 31), causing it to rotate.
Docket No. ENVS-220

HOL-MIN_146877

Appx40346

888

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 33 Rotation of the bobbin positions one of the calibration markings on
dial face 158 into alignment with the marker line 162 (Fig. 32B) to
indicate the distance between the distal tips of flexures 124 and
thus the uterine width.
5

The uterine width and length (as determined using a
conventional sound or other means) are preferably input into an RF
generator system and used by the system to calculate an appropriate
ablation power as will be described below. Alternately, the width as
measured by the apparatus of the invention and length as measured

10

by other means may be used by the user to calculate the power to
be supplied to the array to achieve the desired ablation depth.
The uterine width may alternatively be measured using other
means, including by using a strain gauge in combination with an A/D
converter to transduce the separation distance of the flexures 124

15

and to electronically transmit the uterine width to the RF generator.

Control of Ablation Depth
The most optimal electrocoagulation occurs when relatively
deep ablation is carried out in the regions of the uterus at which the
endometrium is thickest, and when relatively shallower ablation is
20

carried out in areas in which the endometrium is shallower. A
desirable range of ablation depths includes approximately 2 - 3 mm
for the cervical os and the cornual regions, and approximately 7 - 8
mm in the main body of the uterus where the endometrium is
substantially thicker.

25

As discussed with respect to the first embodiment, a number
of factors influence the ablation depth that can be achieved using a
Docket No. ENVS-220

HOL-MIN_146878

Appx40347

889

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 34 given power applied to a bipolar electrode array. These include the
power supplied by the RF generator, the distance between the
centers of adjacent electrodes ("center-to-center distance"), the
electrode density (i.e., the porosity of the array fabric or the percent
of the array surface that is metallic), the edge gap (i.e. the distance
between the edges of adjacent electrode poles), and the electrode
surface area. Other factors include blood flow (which in slowerablating systems can dissipate the RF) and the impedance limit.
Certain of these factors may be utilized in the present
invention to control ablation depth and to provide deeper ablation at
areas requiring deeper ablation and to provide shallower regions in
areas where deep ablation is not needed.

For example, as center-

to-center distance increases, the depth of ablation increases until a
point where the center to center distance is so great that the
strength of the RF field is too diffuse to excite the tissue. It can
been seen with reference to Fig. 33 that the center to center
distance dl between the electrodes 118a, 1 18b is larger within the
region of the array that lies in the main body of the uterus and thus
contributes to deeper ablation. The center to center distance d2
between electrodes 118a, 1 18b is smaller towards the cervical canal
where it contributes to shallower ablation. At the distal end of the
device, the shorter center to center distances d3 extend between
top and bottom electrodes 118b, 118c and 118a, 118d and again
contribute to shallower ablation.
Naturally, because the array 102a expands to accommodate
the size of the uterus in which it is deployed, the dimensions of the
array 102a vary.

One embodiment of the array 102a includes a

Docket No. ENVS-220

HOL-MIN_146879

Appx40348

890

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 35 range of widths of at least approximately 2.5 - 4.5 cm, a range of
lengths of at least approximately 4 -6 cm, and a density of
approximately 35% - 45%.
The power supplied to the array by the RF generator is
5

calculated by the RF generator system to accommodate the
electrode area required for a particular patient. As discussed above,
the uterine width is measured by the applicator head 102 and
displayed on gauge 146. The uterine length is measured using a
sound, which is an instrument conventionally used for that purpose.

10

It should be noted that calibration markings of the type used on a
conventional sound device, or other structure for length
measurement, may be included on the present invention to allow it
to be used for length measurement as well.
The user enters the measured dimensions into the RF

15

generator system using an input device, and the RF generator
system calculates or obtains the appropriate set power from a stored
look-up table using the uterine width and length as entered by the
user.

An EPROM within the RF generator system converts the

length and width to a set power level according to the following
20

relationship:

P =LxWx5.5

Where P is the power level in watts, L is the length in centimeters,
W is the width in centimeters, and 5.5 is a constant having units of
watts per square centimeter.

Docket No. ENVS-220

HOL-MIN_146880

Appx40349

891

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 36 Alternatively, the user may manually calculate the power
setting from the length and width, or s/he may be provided with a
table of suggested power settings for various electrode areas (as
determined by the measured length and width) and will manually set
5

the power on the RF generator accordingly.

Handle
Referring again to Figs. 21 and 22, the handle 106 of the RF
ablation device according to the second embodiment includes a

4.1

distal grip section 142 and a proximal grip section 144 that are
10

pivotally attached to one another at pivot pin 166.
The proximal grip section 144 is coupled to the hypotube 122

2

(Fig. 23) via yoke 168, overload spring 170 and spring stop 172,

ru
k:
Ca

each of which is shown in the section view of Fig. 34. The distal
grip section 142 is coupled to the external hypotube 120 via male
15

and female couplers 174, 176 (see Figs. 32A and 32B). Squeezing
the grip sections 142, 144 towards one another thus causes relative
movement between the external hypotube 120 and the internal
hypotube 122. This relative sliding movement results in deployment
of the deflecting mechanism 102b from the distal end of the sheath

20

and expansion of the array 102a to its expanded state.
Referring to Figs. 32A and B, rack 180 is formed on male
coupler 174 and calibration markings 182 are printed adjacent the
rack 180. The calibration markings 182 correspond to a variety of
uterine lengths and may include lengths ranging from, for example,

25

4.0 to 6.0 cm in 0.5 cm increments.

Docket No. ENVS-220

HOL-MIN_146881

Appx40350

892

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 37 A sliding collar 184 is slidably disposed on the tubing 108 and
is slidable over male coupler 174. Sliding collar 184 includes a
rotating collar 186 and a female coupler 176 that includes a wedgeshaped heel 188. A locking spring member 190 (Figs. 32B and 35)
5

extends across an aperture 192 formed in the proximal grip 144 in
alignment with the heel 188. When the distal and proximal handle
sections are squeezed together to deploy the array, the heel 188
passes into the aperture 192. Its inclined lower surface gradually
depresses the spring member 190 as the heel moves further into the

10

aperture 192. See Figs. 36A and 36B. After passing completely
over the spring member, the heel moves out of contact with the
spring member. The spring member snaps upwardly thereby
engaging the heel in the locked position. See Fig. 36C.
A release lever 194 (Fig. 35) is attached to the free end of the

15

spring member 190. To disengage the spring lock, release lever 194
is depressed to lower spring member 190 so that the inclined heel
can pass over the spring member and thus out of the aperture 192.
Referring again to Figs. 32A and 32B, sliding collar 184 is
configured to allow the user to limit longitudinal extension of the

20

array 102a to a distance commensurate with a patient's
predetermined uterine length. It does so by allowing the user to
adjust the relative longitudinal position of male coupler 174 relative
to the female coupler 176 using the rotating collar 186 to lock and
unlock the female coupler from the rack 180 and the male coupler

25

174. Locking the female coupler to the rack 180 and male coupler
174 will limit extension of the array to approximately the

Docket No. ENVS-220

HOL-MIN_146882

Appx40351

893

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 38 predetermined uterine length, as shown on the calibration markings
182.
Once the uterine length has been measured using a
conventional sound, the user positions sliding collar 184 adjacent to
5

calibration marks 182 corresponding to the measured uterine length
(e.g. 4.5 cm). Afterwards, the user rotates the collar section 186 to
engage its internally positioned teeth with the rack 180. This locks
the longitudinal position of the heel 188 such that it will engage with
the spring member 190 on the proximal grip when the array has

W

10

been exposed to the length set by the sliding collar.
The handle 106 includes a pair of spring assemblies which

ru

facilitate controlled deployment and stowage of the array 102a. One

a

of the spring assemblies controls movement of the grips 142, 144 to

en

automatically stow the array 102a into the sheath 104 when the
15

user stops squeezing the grips 142, 144 towards one another. The
other of the spring assemblies controls the transverse movement of

CO

the spring flexures 124 to the expanded condition by limiting the
maximum load that can be applied to the deployment mechanism
102b.
20

Fig. 34 shows the distal and proximal grips 142 and 144 in
partial cross-section. The first spring assembly for controlled
stowage includes a handle return mandrel 196 that is slidably
disposed within the proximal grip 144. A compression spring 198
surrounds a portion of the return mandrel 196, and a retaining ring

25

200 is attached to the mandrel 196 above the spring 198. A spring
stop 202 is disposed between the spring 198 and the retaining ring.

Docket No. ENVS-220

HOL-MIN_146883

Appx40352

894

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 39 The lowermost end of the return mandrel 196 is pivotally
engaged by a coupling member 204 on distal grip 142. Relative
movement of the grips 142, 144 towards one another causes the
coupling member 204 to pull the return member downwardly with
the proximal grip 144 as indicated by arrows.

Downward

movement of the mandrel 196 causes its retaining ring 200 and
spring stop 202 to bear downwardly against the compression spring
198, thereby providing a movement which acts to rotate the grips
142, 144 away from one another. When tension against the grips
142, 144 is released (assuming that heel 188 is not locked into
engagement with spring member 190) the grips rotate apart into the
opened position as the compression spring 198 returns to the initial
state, stowing the applicator head inside the sheath.
The second spring assembly for controlling array deployment
is designed to control separation of the flexures. It includes a frame
member 178 disposed over yoke 168, which is pivotally attached to
proximal grip 144. Tubing 108 extends from the array 102a (see
Fig. 23), through the sheath 104 and is fixed at its proximal end to
the frame member 178. Hypotube 122 does not terminate at this
point but instead extends beyond the proximal end of tubing 108
and through a window 206 in the frame member. Its proximal end
208 is slidably located within frame member 178 proximally of the
window 206 and is fluidly coupled to a vacuum port 210 by fluid
channel 212. Hypotube 120 terminates within the frame. Its
proximal end is fixed within the distal end of the frame.
A spring stop 214 is fixed to a section of the hypotube within
the window 206, and a compression spring 170 is disposed around
Docket: No. ENVS-220

HOL-MIN_146884

Appx40353

895

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 40 the hypotube between the spring stop 172 and yoke 168. See Figs.
32B and 34.
When the distal and proximal grips are moved towards one
another, the relative rearward motion of the distal grip causes the
5

distal grip to withdraw the sheath 104 from the array 102a.
Referring to Figs. 37A and 37B, this motion continues until female
coupler 176 contacts and bears against frame member 178.
Continued motion between the grips causes a relative rearward
motion in the frame which causes the same rearward relative motion

10

in external hypotube 120. An opposing force is developed in yoke
168, which causes a relative forward motion in hypotube 122. The
relative motion between the hypotubes causes deflection in flexures
124, 136 which deflect in a manner that deploys and tensions the
electrode array. Compression spring 170 acts to limit the force

15

developed by the operator against hypotubes 120, 122, thus limiting
the force of flexures 124, 136 acting on the array and the target
tissue surrounding the array.
Referring to Fig. 21, collar 214 is slidably mounted on sheath
104. Before the device is inserted into the uterus, collar 214 can be

20

positioned along sheath 104 to the position measured by the uterine
sound. Once in position, the collar provides visual and tactile
feedback to the user to assure the device has been inserted the
proper distance. In addition, after the applicator head 102 has been
deployed, if the patient's cervical canal diameter is larger than the

25

sheath dimensions, the collar 214 can be moved distally towards the
cervix, making contact with it and creating a pneumatic seal
between the sheath and cervix.
Docket No. ENVS-220

HOL-MIN_146885

Appx40354

896

PATENT APPLICATION
Expr ss Mailing Label: EM503277278US

- 41 Second Exemplary Embodiment - Operation
In preparation for ablating the uterus utilizing the second
exemplary embodiment, the user measures the uterine length using a
uterine sound device. The user next positions sliding collar 184 (Fig.
5

32B) adjacent to calibration marks 182 corresponding to the
measured uterine length (e.g. 4.5 cm) and rotates the collar section
186 to engage its internally positioned teeth with the rack 180. This
locks the longitudinal position of the heel 188 (Fig. 32A) such that it
will engage with the spring member 190 when the array has been

10

exposed to the length set by the sliding collar.

Next, with the grips 142, 144 in their resting positions to
keep the applicator head 102 covered by sheath 104, the distal end
of the device 100 is inserted into the uterus. Once the distal end of
the sheath 104 is within the uterus, grips 142, 144 are squeezed
15

together to deploy the applicator head 102 from sheath 104. Grips
142, 144 are squeezed until heel 188 engages with locking spring
member 190 as described with respect to Figs. 36A through 36C.
At this point, deflecting mechanism 102b has deployed the
array 102a into contact with the uterine walls. The user reads the

20

uterine width, which as described above is transduced from the
separation of the spring flexures, from gauge 146. The measured
length and width are entered into the RF generator system 250 (Fig.
21) and used to calculate the ablation power.
Vacuum source 252 (Fig. 21) is activated, causing application

25

of suction to hypotube 122 via suction port 210. Suction helps to
draw uterine tissue into contact with the array 102.
Docket

No. ENVS-220

HOL-MIN_146886

Appx40355

897

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 42 Ablation power is supplied to the electrode array 102a by the
RF generator system 250. The tissue is heated as the RF energy
passes from electrodes 118a-d to the tissue, causing moisture to be
released from the tissue. The vacuum source helps to draw
5

moisture from the uterine cavity into the hypotube 122. Moisture
withdrawal is facilitated by the apertures 126 formed in flexures 124
by preventing moisture from being trapped between the flexures 124
and the lateral walls of the uterus.
If the RF generator 250 includes an impedance monitoring

10

module, impedance may be monitored at the electrodes 118a-d and
the generator may be programmed to terminate RF delivery
automatically once the impedance rises to a certain level. The
generator system may also or alternatively display the measured
impedance and allow the user to terminate RF delivery when desired.

15

When RF delivery is terminated, the user depresses release
lever 194 to disengage heel 188 from locking spring member 190
and to thereby allow grips 142, 144 to move to their expanded
(resting condition). Release of grips 142, 144 causes applicator
head 102 to retract to its unexpanded condition and further causes

20

applicator head 102 to be withdrawn into the sheath 104. Finally,
the distal end of the device 100 is withdrawn from the uterus.
Two embodiments of ablation devices in accordance with the
present invention have been described herein. These embodiments
have been shown for illustrative purposes only. It should be

25

understood, however, that the invention is not intended to be limited
to the specifics of the illustrated embodiments but is defined only in
terms of the following claims.
Docket No. ENVS-220

HOL-MIN_146887

Appx40356

898

PATENT APPLICATION
Expr ss Mailing Label: EM503277278US

- 43 -

We Claim:

1.

A method of ablating and/or coagulating tissue,

comprising the steps of:
(a) providing an ablation device including an ele rode array
5

carried by an elongate tubular member, the electro

array including

a fluid permeable elastic member having insulati • regions and
conductive regions thereon;
(b) positioning the electrode array in

ontact with tissue to be

ablated;
10

(c) delivering RF energy t

o g

the array to the tissue to

cause the tissue to dehydrat
(d) permitting moist

-rated during the dehydration of

step (c) to pass into the

n • member and away from

the tissue.

15

2.

The method

in the fluid permeable

elastic member include

herein the array is expandable
and wherein step (•) furthe

udes the step of moving the array to

an expanded con ition.

20

4.

T e method of claim 3 w erein the array is carried by a

pair of elong ate flexures and wherei the step of moving the array to
the expanded condition includes the step of expanding the flexures.

Docket No

ENVS- 220

HOL-MIN_146888

Appx40357

899

PATENT APPLICATION
Express Mailing Label: EM503277278US

-44-

5.

The method o claim 4 wherein each flexure includes at

I ast one opening and wher in step-(8) includes allowing at least a
portion of the moisture to p ss through the openings in the flexures.

6.
5

The method of claim 1 wherein step (d) includes

permitting at least a portio

of the moisture to pass from the array

into the tubular member.

7.

The method of claim 3

_herein step (d) includes the

step of applying suction to draw t e moisture through the tubular
member.

10

8.

The method of claim 1 wherein the method furth

includes the step of
(e) monitoring impedanc

using he electrod

automatically terminating the low of
impedance has approximat:

15

9.

The method

includes the step of me

urrent in

ed a pr

JJerein

e method further
e length and width of

(c) includes the teps of selecting an

ablation power corres

red length and width and

delivering the RF e
20

the tissue once

etermined level.

the approxim

the organ and wherein

-rray and

approximately the selected

power.

10

he method o

pair o elongate flexures a

rein the array is carried by a
h rein the step of measuring the

Docket No. ENVS-220

HOL-MIN_146889

Appx40358

900

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 45 approximate width of the organ includes the step of expa = ng the
flexures to an expanded condition and deriving the ap • oximate
width of the uterus from the relativ

sitions of t

flexures in the

expanded condition.

5

11.

The method of claim

(c) further includes

selecting an ablation powe
tS3
1,4

length times the measure

I 1

12.

portional to the measured

The method of clai

tallized fabric includes

yarns of elastic material

is material.

30
S

10

13.

The method o clai

fU

yarns of spandex

tO

14.

The

elasticit

2 alvherei the metallized fabric includes

nd nyl

ethod of cla

?herein the array material has

n a transverse dir ction and in a longitudinal direction and

wher- n the elasticity in the transverse direction is greater than the
15

e sticity in the longitudinal direction.

5.

The method of claim 3,,itiClullg the step of applying suction

through the tubular member to d‘w the tissue into contact with the
electrode array.

16.
20

An ablation and/or coagulatio

energy to tissue for ablation, the

ratus for use in delivering
omprising:

Docket No. ENVS-220

HOL-MIN_146890

Appx40359

901

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 46 an electrode array carried by an elongate member, the array
including a fluid permeable elastic member having insulating and
conductive regions thereon, the electrode array configured to permit
moisture generated during ablation to pass actively and/or passively
5

into the electrode array and away from underlying tissue;
a source of radio frequency energy electrically coupled to the
conductive regions of the array.

17.

The ablation and/or co gulation apparatus of claim 16 further

including an elongate tube h ving at least one opening adjacent to
10

the array and a vacuum so rce fluidly coupled to the elongate tube.
18.

The apparatus of claim 16 wherein the fluid permeab

elastic

member includes metallized ferblic7

19. The apparatus of claim 1

rein the

yarns of elastic material an

15

20.

The apparatus of

etallized fabric includes

elastic material.
ein the metallized fabric

includes yarns of span

21.

The app

transverse
elastici
20

tus

In the array has elasticity in a

ection a

final direction and wherein the

in the transv

on is greater than the elasticity in

the •ngitudinal directi

Docket No. ENVS-220

HOL-MIN_146891

Appx40360

902

PATENT APPLICATION
Express Mailing Label: EM503277278US

- 47 -

22.

The apparatus of claim

erein th

carried by a deflecting mec

ectrode array is

able between a retracted

position and an expanded

23.
5

C:

include

24.

;=

The ap

tus of

erein the deflecting mechanism

pair of elonga

res.

The apparatus o claim 23 wherein the flexures include at

least one fluid opening.

4.mr.

Ld
25.

ru
C3
cn
ru
Ed

The apparatus of claim 22 wherein the deflectin •

includes electrically conductiveAions electrically
10

conductive regions of the electro

26.

rn

oupled to

array.

The apparatus of clai

electrically conductive reg

echanism

the flexures include
ricall

oupled to conductive

regions of the electrode

27.
15

The apparatus
width meas

laim 16 Urther comprising:

eme t meads for measuring the approximate

width of the or an.

28.

Th apparatus of c
ngth measuremen

len •

27 further comprising:
ans for measuring the approximate

of the organ.

Docket No. ENVS-220

HOL-MIN_146892

Appx40361

903

PATENT APPLICATION
Expr ss Mailing Label: EM503277278US

-48The apparatus of claim 27 f

29.

determining an ablation power u-

rising means for
measured approximate

width.

30.
5

The apparat

prising means for

of clai

easured approximate

determining a• ablation po
width a

31.

length.

An ablati n and/or coagulation apparatus for use in delivering

energy to tissue for ablation, the apparatus comprising:
an elongat • member;
10

a deploym

t mechanism carried by the elongate member, the

deployment mechanism moveable between a retracted position and a
plurality of lateral!

expanded positions;

an electrode .rray carried by the deployment mechanism;
a sheath slid bly disposed over the electrode array;
a handle coup ed to the sheath and deployment mechanism,

1.5

the handle moveable between an insertion position in which the
sheath is disposed ov r the electrode array and the array is in an
unexpanded condi on and a deployment position in which the
electrode array ext =nd fro
20

the distal end of the sheath and is in

one of its expanded po itions;
limiting means fo selectively limiting lateral expansion of the
deployment mechanism nd for selectively limiting longitudinal
extension of the array fr

the sheath; and

a source of radio fr quency energy electrically coupled to the
25

array.

HOL-MIN_146893

Appx40362

904

PATENT APPLICATION
Express Mailing Lab I: EM503277278US

- 49 ABSTRACT OF THE DISCLOSURE

An apparatus and method for use in performing ablation or
coagulation of organs and other tissue includes a metallized fabric
electrode array which is substantially absorbent and/or permeable to
5

moisture and gases such as steam and conformable to the body
cavity. The array includes conductive regions separated by insulated
regions arranged to produce ablation to a predetermined depth.
Following placement of the ablation device into contact with the
tissue to be ablated, an RF generator is used to deliver RF energy to

10

the conductive regions and to thereby induce current flow from the
electrodes to tissue to be ablated. As the current heats the tissue,
moisture (such as steam or liquid) leaves the tissue causing the
tissue to dehydrate. Suction may be applied to facilitate moisture
removal. The moisture permeability and/or absorbency of the

15

electrode carrying member allows the moisture to leave the ablation
site so as to prevent the moisture from providing a path of
conductivity for the current.

Docket No. ENVS-220

HOL-MIN_146894

Appx40363

905

This page intentionally left blank.

906

al.
Applicant or Patentee: saba Tr
Appin. or Patent No.: NEW
HEREWITH
Filed or Issued:
For: A MOISTURE TRANSPORT SYSTEM FOR CONTACT ELECTROCOAGULATION

Attorney's
Docket No.: ENVS-220

VERIFIED STATEMENT (DECLARATION) CLAIMING SMALL ENTITY
STATUS (37 CFR 1.9(f) and 1.27(c)) - SMALL BUSINESS CONCERN
I hereby declare that I am
the owner of the small business concern identified below:
II
(XI
an official of the small business concern empowered to act on behalf of the concern identified below:
NAME OF CONCERN Novacept
ADDRESS OF CONCERN 1047 Elwell Court, Palo Alto, CA 94303
I hereby declare that the above identified small business concern qualifies as a small business concern as defined in 13
CFR 121.3-18, and reproduced in 37 CFR 1.9(d), for purposes of paying reduced fees under section 41(a) and (b) of Title
35, United States Code, in that the number of employees of the concern, including those of its affiliates, does not exceed
500 persons. For purposes of this statement, (1) the number of employees of the business concern is the average over
the previous fiscal year of the concern of the persons employed on a full-time, part-time or temporary basis during each of
the pay periods of the fiscal year, and (2) concerns are affiliates of each other when either, directly or indirectly, one
concern controls or has the power to control the other, or a third party or parties controls or has the power to control
both.
I hereby declare that rights under contract or law have been conveyed to and remain with the small business concern
identified above with regard to the invention, entitled A MOISTURE TRANSPORT SYSTEM FOR CONTACT
ELECTROCOAGULATION by inventor(s) Csaba Truckai et al. described in

0=4.

(X1
I]
11

the specification filed herewith with title as listed above.
application no. , filed .
patent no. , issued .

If the rights held by the above identified small business concern are not exclusive, each individual, concern or organization
having rights to the invention is listed below• end no rights to the invention are held by any person, other than the
inventor, who could not qualify as an independent inventor under 37 CFR 1.91c) if that person made the invention, or by
any concern which would not qualify as a small business concern under 37 CFR 1.9(d) or a nonprofit organization under
37 CFR 1.9(e).
•NOTE: Separate verified statements are required from each named person, concern or
organization having rights to the invention averring to their status as small entities. (37 CFR 1.27).
NAME
ADDRESS
I Individual (I Small Business Concern 1 1 Nonprofit Organization
NAME
ADDRESS
[ I Individual ( I Small Business Concern I 1 Nonprofit Organization
I acknowledge the duty to file, in this application or patent, notification of any change in status resulting in loss of
entitlement to small entity status prior to paying, or at the time or paying, the earliest of the issue fee or any maintenance
fee due after the date on which status as a small entity is no longer appropriate. (37 CFR 1.28(b))
I hereby declare that all statements made herein of my own knowledge are true and that all statements made on
information and belief are believed to be true; and further that these statements were made with the knowledge that willful
false statements and the like so made are punishable by fine or imprisonment, or both, under Section 1001 of Title 18 of
the United States Code, and that such willful false statements may jeopardize the validity of the application, any patent
issuing thereon, or any patent to which this verified statement is directed.
NAME OF PERSON SIGNING Csaba Truckai
TITLE OF PERSON OTHER THAN OWNER Vice Pres. of Research and Development
ADDRESS OF PERSON SIGNING 1047 Elwell Court, Palo Alto, CA 94303
SIGNATURE:

DATE:

\PATENTS SMENTBUS MRG

Rev. OR/17/96

HOLMIN_l 46895

Appx40364

907

Atty Docket No. ENVS-220 fl
DECLARATION FOR CIP PATENT APPLICATION
As a below named inventor, I hereby declare that:
My residence, post office address and citizenship ar

as stated below next to my name,

I believe I am the original, first and sole inventor (if only one name is listed below) or an original, first and
joint inventor (if plural names are listed below) of the subject matter which is claimed and for which a
patent is sought on the invention entitled
MOISTURE TRANSPORT SYSTEM FOR CONTACT ELECTROCOAGULATION
the specification of which (check one) X
and was amended on
(if applicable).

is attached hereto or

was filed on

as Application No.

I hereby state that I have reviewed and understand the contents of the above-identified specification,
including the claims, as amended by any amendment referred to above.
I acknowledge the duty to disclose all information which is material to patentability as defined in 37 CFR
§ 1.56.

I hereby claim foreign priority benefits under 35 U.S.C. § 119(a)-(d) or § 365(b) of any foreign
application(s) for patent or inventor's certificate, or § 365(a) of any PCT International application which
designated at least one country other than the United States, listed below and have also identified below
any foreign application for patent or inventor's certificate having a filing date before that of the application
on which priority is claimed:
Prior Foreign Application(s)

Priority Claimed
Yes
No

Number

Country

Day/Month/Year Filed

Number

Country

Day/Month/Year Filed

I hereby claim the benefit under 35 U.S.C. § 119(e) of any United States provisional application(s) below.
60/084,791
Application Number

May 8, 1998
Filing Date

Application Number

Filing Date

I hereby claim the benefit under 35 U.S.C. § 120 of any United States application(s), or § 365(c) of any
PCT International application designating the United States, listed below and, insofar as the subject matter
of each of the claims of this application is not disclosed in the prior United States application in the manner
provided by the first paragraph of 35 U.S.C. § 112, I acknowledge the duty to disclose all information
which is material to patentability as defined in 37 CFR § 1.56 which became available between the filing
date of the prior application and the national or PCT international filing date of this application:
08/632,516 [Patent No. 5,769,8801
April 12, 1996
Application Number
Filing Date

Patented
Status: Patented, Pending, Abandoned

Application Number

Status: Patented, Pending, Abandoned

1PATENTS1DECLARTN.MRG

Filing Date

- 1 -

Revised: 05/01/98

HOLMIN_l 46896

Appx40365

908

Attorney Dock. No. ENVS-220
I hereby declare that all statements made herein of my own knowledge are true and that all statements
made on information and belief are beli ved to be true; and further that these statements were made with
the knowledge that willful false statements and the like so made are punishable by fin or imprisonment or
both, under 18 U.S.C. § 1001 and that such willful false statements may jeopardize the validity of the
application or any patent issued thereon.

Full name of sole or first inventor Csaba Truckai

Inventor's signature
Date
Residence 627 Alberta Avenue, Sunnyvale, CA 94087
Citizenship USA
Post Office Address 627 Alberta Avenue, Sunnyvale, CA 94087

Full name of second joint inventor, if any, Russet Mahlon Sampson

Inventor's signature
Date
Residence 271 Diablo Ave, Mountain View, CA 94043
Citizenship USA
Post Office Address 271 Diablo Ave, Mountain View, CA 94043

Full name of third joint inventor, if any, Stephanie Squarcia

Inventor's signature
Date
Residence 411 California Ave, Apt. 14. Palo Alto, CA 94306
Citizenship USA
Post Office Address 411 California Ave, Apt. 14, Palo Alto, CA 94306

Full name of fourth joint inventor, if any, Alfonzo Lawrence Ramirez

Inventor's signature
Date
Residence 2911 Betsy Way. San Jose, CA 95133
Citizenship USA
Post Office Address 2911 Betsy Way, San Jose, CA 95133

Full name of fifth joint inventor, if any, Estela Hilario

Inventor's signature
Date
Residence 887 Altos Oaks Dr., Los Altos, CA 94024
Citizenship USA

\PATENTS DECLARTN.SARG

-

2-

Revised: 05/01/98

HOLMIN_146897

Appx40366

909

•
Attorney Docket No. ENVS 220 U

ASSIGNMENT

WHEREAS, WE, Csaba Truckei, Russel Mahlon Sampson, Stephanie Squarcia, Alfonzo Lawrence Ramirez and
Estela Hifano hereinafter referred to as "ASSIGNORS", have invented certain new and useful improvements as described
and set forth in the below-identified application for United States Letters Patent:
Title of Invention: A MOISTURE TRANSPORT SYSTEM FOR CONTACT ELECTROCOAGULATION
Application (Declaration/Oath) Execution Date:
Filing Date: June 23, 1998

Application No.:

July 31, 199R

and Art&ric t

Li.„,

1998

09/103,072

WHEREAS, Novacept, a corporation of the State of California, 1047 Elwell Court, Palo Alto, CA 94303
hereinafter referred to as "ASSIGNEE", is desirous of acquiring the entire right, title and interest in the said invention and
application and in any Letters Patent which may be granted on the same:
NOW, THEREFORE, TO ALL WHOM IT MAY CONCERN: Be it known that, for One Dollar ($1.00) and other good
and valuable consideration, receipt of which is hereby acknowledged by Assignors, Assignors have sold, assigned and
transferred, and by these presents do sell, assign and transfer unto the said Assignee, and Assignee's successors and
assigns, all right, title and interest in and to the said invention, said application for United States Letters Patent, and any
Letters Patent which may hereafter be granted on the same in the United States and all countries throughout the world
including any divisions, renewals, continuations in whole or in part, substitutions, conversions, reissues, prolongations
or extensions thereof, said interest to be held and enjoyed by said Assignee as fully and exclusively as it would have
been held and enjoyed by said Assignors had this assignment and transfer not been made, to the full end and term of
any such Letters Patent.
Assignors further agree that they will, without charge to said Assignee, but at Assignee's expense, cooperate
with Assignee in the prosecution of said application and/or applications, execute, verify, acknowledge and deliver all
such further papers, including applications for Letters Patent and for the reissue thereof, and instruments of assignment
and transfer thereof, and will perform such other acts as Assignee lawfully may request, to obtain or maintain Letters
Patent for said invention and improvement in any and all countries, and to vest title thereto in said Assignee, or
Assignee's successors and assigns.
IN TESTIMONY WHEREOF, Assignor has hereunto signed his/her name to this assignment on the date indicated
below.

p/6--

Date:

Csaba Truckai

State of
County of

ell
St4a) r

EIP3/f?

On

t

CL4441,44
before me,

/4 /VA/

C -0`3 r

personally appeared
personally known to me or proved to me on the basis of
satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the within instrument and acknowledged
to me that he/she/they executed the same In his/her/their authorized capacitylies), and that by his/her/their signature(s)
on the instrument the person(s), or the entity upon behalf of which the person(s) acted, executed the instrument.

.-.°11*,
.41-11.-.
ffi
1N

ANN FOSTER
Comm. 111159470

i

NOIARY PUBLIC•CALIFORNIA
County of Sante C1111
My Comm. Expires Oct. 25, 2001

WITNESS my hand and official seal.

Signature of Notary

SEAL

PATENTS1ASMT-MUL PARR

-1-

Rev. 04/28/98

HOL-MIN_146898

Appx40367

910

Attorney Docket No. ENVS-220
IN TESTIMONY WHEREOF, Assignor has hereunto signed his/her name to this assignment on the date indicated
below.

Date: e:"Eg•ckS • PAS
Russel Mahlon Sampson

State of

Ca

County of
On

SI5I

San k-c,Clo ea.
before me,

ct5'

A t.i 14 Fro s

personally appeared
us5e.111ARt_oto
personally known to me or proved to me on the basis of
satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the within instrument and acknowledged
to me that he/she/they executed the same in his/her/their authorized capacity(ies), and that by his/her/their signature(s)
on the instrument the person(s), or the entity upon behalf of which the person(s) acted, executed the instrument.
WITNESS my hand and official seal.

Comm.#1159470

NOTARY PUBLIC•CALIFORNIA
County of Santa Clara
My Comm. Expires Oct. 25, 2001

Si nature of Notary

IN TESTIMONY WHEREOF, Assignor has hereunto signed his/her name to this assignment on the date indicated
below.

21 /qg

Date:

Stephanie Squarcia

State of
County of

On

NI
5Ctri

'VA

ei.A.,CQ.-

3 Mqg

before me,

A) ><IrZD S

personally appeared 53€e)14 h ;`-e Su4
r C
, personally known to me or proved to me on the basis of
satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the within instrument and acknowledged
to me that he/she/they executed the same in his/her/their authorized capacity(ies), and that by his/her/their signature(s)
on the instrument the person(s), or the entity upon behalf of which the person(s) acted, executed the instrument.

ANN FOSTER

comm. #1159470

e
fel

NOTARY PUBLIC -CALIFORNIA UI
County of Santa Clara
My Comm. Expires Oct.25,2001

PATENTSlASMT.MUL.MR0

WITNESS my hand and official seal.

Signature of Notary

-2-

Rev. 04/28/98

HOL-MIN_146899

Appx40368

911

Attorney Docket No. ENVS-220
IN TESTIMONY WHEREOF, Assignor has hereunto signed his/her name to this assignment on the date indicated
below.

13-57-98

Date:

State of

Alfonzo L

nce Ramirez

GA
Oa' ex-

County of gni r''r

on 8

)9

before me,

AAJ Ai COS Th•rz.

personally known to me or proved to me on the basis of
personally appeared fi- (igts f1 2.c. L. Iackry, r re 7—
satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the within instrument and acknowledged
to me that he/she/they executed the same in his/her/their authorized capacityhes), and that by his/her/their signature(s)
on the instrument the person(s), or the entity upon behalf of which the person(s) acted, executed the instrument.
WITNESS my hand and official seal.

46

401
1
elti.r1.1

011,

SE

comm. A 1159470

m

NOTARY PUBLIC•CALIFORNIA vt
County of Santa Clara
My Comm. Expires Oct.25,2001

Signature of Notary

IN TESTIMONY WHEREOF, Assignor has hereunto signed his/her name to this assignment on the date indicated
below.

p-

Date:

State of
County of

On

- .9 C)
Estela Hilario

Cif)

Sysie,0/,

.9l5/yA

AD 9 JL- 0--

before me,

personally appeared
personally known to me or proved to me on the basis of
satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the within instrument and acknowledged
to me that he/she/they executed the same In his/her/their authorized capacitylies), and that by his/her/their signature(s)
on the instrument the person(s), or the entity upon behalf of which the person(s) acted, executed the instrument.
WITNESS my hand and official seal.

ANN FOSTER
Comm. 11159470

Signature of Notary

NOTARY PUBLIC -CALIFORNIA vs
County of Santa Clara
My Comm. Expires Oct. 25, 2001

PATENTS‘ASMT-MULAARG

-3-

Rev. 04/28/98

HOLMIN_l 46900

Appx40369

912

Application
or Docket Number

PATENT APPLICATION FEE DETERMINATION RECORD

9/4,56707

Effective October 1, 1997
CLAIMS AS FILED - PART I
(Column 1) •
FOR

NUMBER FILED

SMALL ENTITY
TYPE ni

Column 2

NUMBER EXTRA

RATE

OR

OTHER THAN
SMALL ENTITY

FEE

FEE

395.00 OR

BASIC FEE
TOTAL CLAIMS

minus 20 a * / /

tSi

INDEPENDENT CLAIMS

j

minus 3 a

x$11=

OR

x41=

OR

+135=

OR

TOTAL

OR

790.00

•

MULTIPLE DEPENDENT CLAIM PRESENT
* U the difference In column 1Is less than zero, enter V' In column 2

CLAIMS AS AMENDED - PART II

AMENDMENT A

(Column 1)

ir

4,

A

, ,, ._i•
Total

CLAIMS
rf
REMAINING
AFTER
AMENDMENT ,
'

Independent "

40g
4...

(Column 2)

(Column 3)

HIGHEST
NUMBER
PREVIOUSLY
PAID FOR

PRESENT
EXTRA

RATE

ADDITIONAL
FEE

= 3

x$11=

333

x41=

11-1

Minus

''"

Minus

"*

3

/

,5

7

= /

AMENDMENT B

I

FIRST PRESENTATION OF MULTIPLE DEPENDENT CLAIM

(Column 1)

(Column 2)

(Column 3)

CLAIMS
REMAINING
AFTER

HIGHEST
NUMBER
PREVIOUSLY
PAID FOR

PRESENT
EXTRA

AMENDMENT

Total

Minus

••

Independent

Minus

•••

SMALL ENTITY

+135=
TOTAL
ADDIT. EEE

OR

TOTAL

OTHER THAN
SMALL ENTITY

RATE

ADDITIONAL
FEE

OR

x$22=

66*

OR

x82=

OR

+270=

3

TOTAL
ADDI

,

FIRST PRESENTATION OF MULTIPLE DEPENDENT CLAIM

RATE

ADDITIONAL
FEE

ADDI-

RATE

X$11=

OR

x$22=

x41=

OR

x82=

+135=

OR

+270=

TIONAL
FEE

AMENDMENT C

TOTAL

(Column 1)

(Column 2)

(Column 3)

CLAIMS
REMAINING
AFTER
AMENDMENT

HIGHEST
NUMBER
PREVIOUSLY
PAID FOR

PRESENT
EXTRA

Total

Minus

Independent

Minus

RATE

*ft

FIRST PRESENTATION OF MULTIPLE DEPENDENT CLAIM

OR ADDIT. FEE

ADDIT. FEE

ADDITIONAL
FEE

RATE

411=

OR

x$22=

x41=

OR

x82=

+135=

ADDITIONAL
FEE

OR +270=

TOTAL
* If the entry In column 1 is less than the entry in column 2, write "0' in column 3.
TOTAL
** If the 'Highest Number Previously Paid For IN THIS SPACE is less than 20. enter "20."
OR ADDIT. FEE!
ADDIT. FEE I
" elf the "Highest Number Previously Paid For IN THIS SPACE is less than 3. enter "3.'
The 'Highest Number Previously Paid For (Total or Independent) is the highest number found in the appropriate box in column 1.
FORM PT04175 (Rev. 8/97)

•u.S. Government Printing Office: 1997 - 430-571/89194

Patent and Trademark Office. U.S. DEPARTMENT OF COMMERCE

HOL-MIN_146901

Appx40370

913

(
FLS1G DATE

SERIAL. Na

CLAIMS ONLY

APPUCANT(S)

CLAIMS
AS

0
DEP.

AFTER
1st AMENDMENT
IND.

DEP.

2nd
010.

DEP.

IND.

5
6
8

TOTAL
IND.
TOTAL.
DEP.
TOTAL
CLAMS

I
1

1

.!

DEP.

51
52
53
54
55
56
57
58
59
60
61
62
63
64
65
66
67
68
69
70
71
72
73
74
7S
76
77
78
79
80
81
82
83
84
65
86
87
88
89
90
91
92
93
94
95
98
97
98
99
100
TOTAL
eirs.

1
2
3
4

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40
41
42
43
44
45
46
47
48
49
50

*

ENT

es$

IND.

DER

Na.

OER

/

I
I
'I

I

I

I

0

1
1

M.
DEP.

Bth
*MAY SE USED FOR ADDITIONAL

MS OR AMENDMENTS
U.S.OEPARTMENT OF COMMERCE
Patent and Trademanc Mee

FORM PTC1•21122 (MEd

GPO: 1991.1443493412152

HOL-MIN_146902

Appx40371

1

914

Opp
ADD 17 ale St ,'
os
•

R4001101-

E UNITED STATES PATENT AND TRADEMARK OFFICE

in re Patent Application of

Group Art Unit: 3736

Csaba Truckai et al.

Examiner: Unknown

Appin. No. 09/103,072

RESPONSE TO NOTICE TO FILE
MISSING PARTS OF APPLICATION
AND SUBMISSION OF SMALL ENTITY
STATUS, POWER OF ATTORNEY,
AND DECLARATION

Filed: June 23, 1998.
For:

MOISTURE TRANSPORT
SYSTEM FOR CONTACT
ELECTROCOAGULATION

)
►
)
)

2001 Ferry Building
San Francisco, CA 94111
415/433-4150
w.

tt.vu

Unkoo States: Posts) Sorvico ee feet eless mail in en onvolope.
addressed to'At;,,iata -Cammisaanar fa PatentsWashington C. C.
LIMBACH:.

IMBAC

Date::::11/398

Box Missing Parts
Assistant Commissioner for Patents
Washington, D.C. 20231
Sir:
In response to the Notice to File Missing Parts of Application mailed July 17,
1998 (copy enclosed), applicant submits the enclosed Declaration for Patent
Application and Verified Statement Claiming Small Entity Status-Small Business
Concern.
Also enclosed is a Power of Attorney by Assignee.
A check in the amount of $581.00 is enclosed herewith to cover the $65.00
surcharge for filing missing parts of an application, and the basic filing fee of
$516.00.
The Commissioner is hereby authorized to charge payment of any additional
fees associated with this communication or credit any overpayment to Deposit
Account No. 12-1420. A duplicate copy of this sheet is enclosed.
Respectfully submitted,
LIMBACH & LIMBACH L.L.P.
08/20/1998 SCARNICH 00000076 09103072
01 FC:201
02 FC:205
03 FC:203

August I.
(Date)

395.00 OP
65.00 OP

199821.00 OP

-9,Ykgk.

By:
Kathlee A. Frost
Registration No. 37,326

ENVS-220

Attorneys for Applicant(s)

PATENTMMISSPART.MR0

Rev. 03/08/98

HOL-MIN_146903

Appx40372

915

-,•••KATiAgEN A FRO'
LIt)1BACH & L I MBA
2011 FERRY BUILDI
. • • • SON • FRANCISCO CA .94111

0242/0717

, _•
s ,
Not' •A'tsieNED"
DATE hiAiLED3736

• 1I7S/ 17/98 •
NOTICE TO FILE MISSING PARTS OF APPLICATION
kz.
..k. , 1 .5..,
'
_
. f
•• • .
. . .7-.7'
• ...•
..
. ..ltit....*
..:.::'• '. -An Application Number and Filing Date have been assigned to this application. The items indicated below, however, are missing. RP
;.... -* • .:Iii.glve TWO MONTHS FROM THE DATE OF MIS _NOTICE within which to file all required items and pay lees rsqulred below to avoid.
g a petition accompanied by the extension fee under the provisions of 37 CFR ..
tairriSions of time may be obtained b
ant,
. ithan
1.136(a). If any of Items 1or 3 through 5 are Ind ed as missing, the SURCHARGE set forth in 37 CFR 1.16(e) of 0 $65.00 for a small
130.00 for a non-small entity, must also be timely submitted in reply to this NOTICE
entity Incompliance with 37 CFR 1.27, or
..: tP;av Id aband5minent.
amount owed by applicant
within the period
x,. . .,, Heil required Items on this form are
'0inity (statement Mad) F on-small entity Is $
•
•
tutory basic filing fee is:
.,..,inissing.
.
*MOM.
••••• •
to complete th*Iieeff:1111na':fekOn/bi:file..;i•errialti)n144statipriceitplairrting
ititantiniusi:Siib
y. 7.,

• ti..Aar,tyn.irt,.. .4; ',.; .....,:-..4..: .

s ,

lrqnted)
.*,.,,.., .?.....44,,71.____t _Fillpg pate G

.6flhr

ic.,;.....; ' 0a

as a

7reio:, yja total

s Of $

' - , including ariy ii4iioWdefifid1 en 'do
_ . ,.., . . t.
independent claims iii,ret a- - •
.
.e
. . . . z..
for ..-- I/
dependent qlarens owit 0.
.. . •
N. • for multiple dependent claim surcharge.
, • •->..
which fees are due.- .
.i ; 'Applicant must either submit the additional claim fees or cancel additional clalmS
... .
111ilioath or declaration:
AO— Is missing or.unexecuted.
... 0 does not cover_the newly submitted items.
O does not identify the:appiihation to which it applies.
0 does not include the(CiV and statie,onforeign country of applicant's residence.
9
An oath or declaration"in cocnPlianie with 37 CFR 1. 63, including residence information and identifying the application:by **
thkabove Applicatign Nurnber14ed Rini&Dale i required.
..
•
,4, ,The.sign.atungsfiel.the:oitt.h oreolivelioMs/tire bxia person other thatrInVerlibrIffOralitiqi.itiffea—under 37 Cftt1.1$2;" : .
. -.
' ' i" .,.. t ‘ • •
1.43 or 1.47. ' ,
A properly signed oath or declaratioeltrFolAPliance with 37 CFR 1.63, Identifying the application.by the above
Application'Number and Filing bat& is requir
'?':,:13 .5. The signature of the following joint Inventor(s) is missing from the oath or declaration:
for •

for

Y:.
An ojth or declaration.in corrtpliarice,witik.3Z,,CFR4,01isting.the nerves of all inventors and signed by thp omittedt— •
inventor(s), identifying this applic4tibivOlhi-0' OVe Apptication IVultiberarid•Fititig
4
$50.00 processing foals. requited.since.your check was returned without payment (37 CFR 1.21(m)): . • •
',receipt was ntai In error because your, check was returned withoutpoymenL
7. Your
l• •
With the Sequence Rules
atiOh.does •
•
Agjaat.WER,
'no ce to 'Attention: Box Miseiiig,Parta."
•

sousr, eigOined twiAtperpply!
•

•

•

: :I".
•
RETtiliNg0:10.1THAESPOW . •
;DE:
,41:04itTO,
1;
.
Ts. • . . • .4 t• .. • •
•: ;
HOL-MIN_l 46904

Appx40373

916

a®a1. P

Applicant or Patentee: Csaba

09/103,072

Appin. No:

Aus

Filed: June 23, 1998 •

17

A MOISTURE TRANSPORT

Docket No.: ENVS-220

19B

sFor:

Attorney's

TEM FOR C

(.3
ACT ELECTROCOAGULATION

TRA Dc0c.‘‘

VERIFIED STATEMENT (DECLARATION) CLAIMING SMALL ENTITY
STATUS (37 CFR 1.9(f) and 1.27(c)) - SMALL BUSINESS CONCERN
I hereby declare that I am
the owner of the small business concern identified below:
fl
(XI
an official of the small business concern empowered to act on behalf of the concern identified below:
NAME OF CONCERN Novacept
ADDRESS OF CONCERN 1047 Elwell Court, Palo Alto, CA 94303
I hereby declare that the above identified small business concern qualifies as a small business concern as defined in 13
CFR 121.3-18, and reproduced in 37 CFR 1.9(d), for purposes of paying reduced fees under section 41(a) and (b) of Title
35, United States Code, in that the number of employees of the concern, including those of its affiliates, does not exceed
500 persons. For purposes of this statement, (1) the number of employees of the business concern is the average over
the previous fiscal year of the concern of the persons employed on a full-time, part-time or temporary basis during each of
the pay periods of the fiscal year, and (2) concerns are affiliates of each other when either, directly or indirectly, one
concern controls or has the power to control the other, or a third party or parties controls or has the power to control
both.
I hereby declare that rights under contract or law have been conveyed to and remain with the small business concern
identified above with regard to the invention, entitled A MOISTURE TRANSPORT SYSTEM FOR CONTACT
ELECTROCOAGULATION by inventor(s) Csaba Truckai et al. described in
(X]
I]
I]

the specification filed herewith with title as listed above.
application no. , filed .
patent no. , issued .

If the rights held by the above identified small business concern are not exclusive, each individual, concern or organization
having rights to the invention is listed below• and no rights to the invention are held by any person, other than the
inventor, who could not qualify as an independent inventor under 37 CFR 1.9(c) if that person made the invention, or by
any concern which would not qualify as a small business concern under 37 CFR 1.9(d) or a nonprofit organization under
37 CFR 1.9(e).
•NOTE: Separate verified statements are required from each named person, concern or
organization having rights to the invention averring to their status as small entities. (37 CFR 1.27).
NAME
ADDRESS
I

Individual ( I Small Business Concern I ] Nonprofit Organization

NAME
ADDRESS
f I Individual ( ] Small Business Concern I ] Nonprofit Organization
I acknowledge the duty to file, in this application or patent, notification of any change in status resulting in loss of
entitlement to small entity status prior to paying, or at the time or paying, the earliest of the issue fee or any maintenance
fee due after the date on which status as a small entity is no longer appropriate. (37 CFR 1.28(b))
I hereby declare that all statements made herein of my own knowledge are true and that all statements made on
information and belief are believed to be true; and further that these statements were made with the knowledge that willful
false statements and the like so made are punishable by fine or imprisonment, or both, under Section 1001 of Title 18 of
the United States Code, and that such willful false statements may jeopardize the validity of the application, any patent
issuing thereon, or any patent to which this verified statement is directed.
NAME OF PERSON SIGNING Csaba Truckai
TITLE OF PERSON OTHER THAN OWNER Vice Pres. of Research and Development
ADDRESS OF PERSO SIGNING 1047 Elwell Court Palo Alto CA 94303
SIGNATURE:

DATE:

'

•oS• 1.8

1PATENTS1SMENTBUS.MRG

Rev. 013/1 7/96

HOLMIN_146905

Appx40374

917

•

s
'•••••• •"
•

Atty Dock t No. ENVS-220 Il
CLARATION FOR CIP PATENT APPLICATION
As a below named inventor, I hereby declare that:
My residence, post office address and citizenship ar as stated below next to my name.
I believe I am the original, first and sole inventor (if only one name is listed below) or an original, first and
joint inventor (if plural names are listed below) of the subject matter which is claimed and for which a
patent is sought on the invention entitled
A MOISTURE TRANSPORT SYSTEM FOR CONTACT ELECTROCOAGULATION
is attached hereto or X was filed on June 23, 1998 as
the specification of which (check one)
Application No. (19/103,077
and was amended on
(if applicable).
I hereby state that I have reviewed and understand the contents of the above-identified specification,
including the claims, as amended by any amendment referred to above.
I acknowledge the duty to disclose all information which is material to patentability as defined in 37 CFR
§ 1.56.

I hereby claim foreign priority benefits under 35 U.S.C. § 119(a)-(d) or § 365(b) of any foreign
application(s) for patent or inventor's certificate, or § 365(a) of any PCT International application which
designated at least one country other than the United States, listed below and have also identified below
any foreign application for patent or inventor's certificate having a filing date before that of the application
on which priority is claimed:
Prior Foreign Application(s)

Priority Claimed
Yes
No

Number

Country

Day/Month/Year Filed

Number

Country

Day/Month/Year Filed

I hereby claim the benefit under 35 U.S.C. § 119(e) of any United States provisional application(s) below.
60/084,791
Application Number

May 8. 1998
Filing Date

Application Number

Filing Date

I hereby claim the benefit under 35 U.S.C. § 120 of any United States application(s), or § 365(c) of any
PCT International application designating the United States, listed below and, insofar as the subject matter
of each of the claims of this application is not disclosed in the prior United States application in the manner
provided by the first paragraph of 35 U.S.C. § 112, I acknowledge the duty to disclose all information
which is material to patentability as defined in 37 CFR § 1.56 which became available between the filing
date of the prior application and the national or PCT international filing date of this application:
08/632,516 (Patent No. 5.769,880)
Aoril 12. 1996
Application Number
Filing Date

Patented
Status: Patented, Pending, Abandoned

Application Number

Status: Patented, Pending, Abandoned

%PATENTS\DECLARTN.MR0

Filing Date

- 1 -

Revised: 05/01/98

HOL-MIN_146906

Appx40375

918

•
Attorney Dock. No. ENVS-220
I hereby d dare that all statements made h rein of my own knowledg are true and that all statements
made on information and beli f are believed to be true; and further that these statements were made with
the knowledge that willful false statements and the like so mad are punishable by fine or imprisonment or
both, under 18 U.S.C. § 1001 and that such willful false statements may jeopardize the validity of the
application or any patent issued thereon.

Full name of sole or first inventor Csaba Truckai

07. 71. 1 g
Date

Inventor's signature
Residence 627 Alberta Avenue, Sunnyvale, CA 94087
Citizenship USA
Post Office Address 627 Alberta Avenue, Sunnyvale, CA 94087

Full name of second joint inventor, if any, Russel Mahlon Sampson
C
Inventor's signature

o7. -jt 923
Date

Residence 271 Diablo Ave, Mountain View, CA 94043
Citizenship USA
Post Office Address 271 Diablo Ave, Mountain View, CA 94043

Full name of third joint inventor, if any Stephanie Squarcia

Inventor's signature

#1

‘AidliteatatOt)

Residence 411 California Ave, Apt. /4, Palo Alto, CA 94306
Citizenship USA

7443/08

Post Office Address 411 California Ave, Apt. p

Palo Alto, CA 94306

AI ro /VG)
Full name of fourth joint inventor, if any,-Allowz.o. Lawrence Ramirez

8-9 —_9e3

Inventor's signature
Date
Residence 2911 Betsy Way, San Jose, CA 95133
Citizenship USA
Post Office Address 2911 Betsy Way, San Jose, CA 95133

Full name of fifth joint inventor, if any Estela Hilario

Inventor's signature
Date

4'- -1,0

Residence 887 Altos Oaks Dr., Los Altos, CA 94024
Citizenship USA
Post Office Address 887 Altos Oaks Dr., Los Altos, CA 94024

\PATENTS \DECLARTN.MRG

- 2-

Revised: 05/01/98

HOLMIN_146907

Appx40376

919

Attorney Docket No. ENVS-220
RADE10.*
N THE UNITED STATES PATENT AND TRADEMARK OFFICE
APPLICATION FOR UNITED STATES PATENT

In re Patent Application of

)

Group Art Unit: Unknown

Csaba Truckai et al.

)
)
)
)
)
)

POWER OF ATTORNEY BY ASSIGNEE AND CERTIFICATE
BY ASSIGNEE UNDER 37 CFR § 3.73(b)

Appin. No.

09/103,072

Filed: June 23, 1998
For:

A MOISTURE TRANSPORT SYSTEM FOR
CONTACT ELECTROCOAGULATION
)

Assistant Commissioner for Patents
Washington, D.C. 20231

Sir:
Novecept, assignee of the entire right title.and interest in the above-identified application by assignment dated
, which assignment is ( I recorded in the Patent and Trademark Office at Reel , frame , (X) attached
hereto, hereby appoints the members of the firm of LIMBACH & LIMBACH L.L.P., a firm composed of:

_

815/98

Karl A. Limbach
George C. Limbach
John K. Uilkema
Neil A. Smith
Veronica C. Devitt
Ronald L. Yin
Gerald T. Sekimura
Michael A. Stallman
Philip A. Girard
Michael J. Pollock
Stephen M. Everett
Alfred A. Equitz

18,689
19,305
20,282
25,441
29,375
27,607
30,103
29,444
28,848
29,098
30,050
30,922

W. Patrick Bengtsson
32,456
Mark A. Della Valle
34,147
Charles P. Sammut
28,901
Mark C. Pickering
36,239
Kathleen A. Frost
37,326
Alan S. Hodes
38,185
Patricia Coleman James 37,155
Alan A. Limbach
39,749
Douglas C. Limbach
35,249
Brian J. Keating
39,520
Seong-Kun Oh•
Cameron A. King
P-41,897

Kyle L. Harriel
Mayumi Maeda
Kent J. Tobin
Christine S. Ring
Michael R. Ward
Steven M. Santisi
Charles L. Hamilton
Andrew V. Smith
Heath W. Hoglund
J. Thomas McCarthy

P-41,816
40,075
39,496
P-42,106
38,651
40,157
P-42,624
P-43,132
41,076
22,420

• Recognition under 37 CFR 10.91b)

as its attorneys with full power of substitution to prosecute this application and to transact all business in the Patent
and Trademark Office in connection therewith.
The assignee certifies that it has reviewed the assignment and to the best of the assignee's knowledge and belief,
title is in the assignee.
Please direct all correspondence regarding this application to the following:
LIMBACH & LIMBACH L.L.P.
Attn: Kathleen A. Frost
2001 Ferry Building
San Francisco, CA 94111
Telephone: (415) 433-4150
Facsimile: (415) 433-8716

Dated:

to
Novacept

By:
Name:
Title:

Csaba Truckai
Vice Pres. of Research and Development

PATENTS \ PWRSLASN.MRG

Rev. 03/25/98

HOLMIN_l 46908

Appx40377

920

This page intentionally left blank.

921

PATENT
-3A list of the patent(s) or publication(s) is
set forth on the attached Form PTO-1449 (Modified).
A copy of the items on PTO-1449 (Modified) is
supplied herewith:
Those patent(s) or publication(s) which are
marked with an asterisk (*) in the attached form PTO1449 (Modified) are not supplied because they were
previously cited by or submitted to the Office in a
prior application no

, filed

and relied upon in

this application for an earlier filing date under 35
U.S.C. § 120.
A concise explanation of relevance of the items
listed on form PTO-1449 (Modified) is:
(k) DO not given
(1) 0

given for each listed item

(m) H

given for only non-English language
listed item(s) [Required]

(n) 0

is in the form of an English language
copy of a Search Report from a foreign
patent office, issued in a counterpart
application, which refers to the
relevant portions of the references
[copy attached].

The Examiner is reminded that a "concise
explanation of the relevance" of the submitted items
"may be nothing more than identification of the
particular figure or paragraph of the patent or
publication which has some relation to the claimed
invention," MPEP § 609.
While the information and references disclosed
in this Information Disclosure Statement may be
"material" pursuant to 37 CFR § 1.56, it is not
intended to constitute an admission that any patent,
publication or other information referred to therein

PATENTS IDS.PARG

Rev. 02/20/98

HOL-MIN_146911

Appx40380

922

•
PATENT
-4is "prior art" for this invention unless specifically
designated as such.
In accordance with 37 CFR § 1.97(g), the filing
of this Information Disclosure Statement shall not be
construed to mean that a search has been made or that
no other material information as defined in 37 CFR
§ 1.56(a) exists.

It is submitted that the

Information Disclosure Statement is in compliance
with 37 CFR § 1.98 and MPEP § 609 and the Examiner is
respectfully requested to consider the listed
references.

[c]

The Commissioner is hereby authorized to charge
our Deposit Account No. 12-1420 for any fees
required in connection with the filing of this
Information Disclosure Statement.

A duplicate

copy of this Notice is enclosed for this
purpose.

In particular, in the event that an

Office Action has crossed in the mail with this
Information Disclosure Statement, the
Commissioner is authorized to charge the abovenamed deposit account for any fees required
pursuant to CFR §§ 1.17(p) or 1.17(i)(1).
Respectfully submitted,
LIMBACH & LIMBACH L.L.P.

Dated:

10-10-q

Our File:

6A.ggb4Y172 ,04 —
Kathleen A. Frost
Reg. No. 37,326
Tel. No. 415/433-4150

By:

ENVS-220

PATEN TSUDS.MR0

Rev. 02/20/98

HOL-MIN_146912

Appx40381

923

•

,-•`"*"

UNITED STA
TM ENT OF COMMERCE
Patent and Tre
Ottic
•
address: Gomm ssi
TENTS AND TRADEMARKS
Washington, D.C. 20231

4t•

--""

APPUCATON NUMSen

FIRSTNMEDMPLICANT

RUNGOAll

09/103,072

06/23/98

AITY.000017 N0.'

TRUCKAI

ENVS-220

Q1131 / 0621
KATHLEEN A FROST
LIMBACH & LIMBACH
2001 FERRY BUILDIN6
SAN FRANCISCO CA 94111

Aer1/4" -1,

POPERMASER

3762
DATE MAILED:

AdO3 31GV11VAV IS39

06/21/99

This is a communication from the examiner In charge of your application.
COMMISSIONER OF PATENTS AND TRADEMARKS
OFFICE ACTION SUMMARY

r

ponsive to communications) filed on

12-S

❑ ,,This action is FINAL
L.; Since this application is in condition for allowance except for formal matters, prosecution as to the merits Is
accordance with the practice under &parte Quayle, 1935 D.C. 11; 453 O.G. 213.

closed in

A shortened statutory period for response to this action is set to expire
month(s), or thirty days,
whichever Is longer, from the mailing date of this communication. Failure to respond
▪ within the period for response will cause
the application to become abandoned. (35 U.S.C. § 133). Extensions of time may be obtained under the provisions of 37 CFR
1.136(a).
Disposition of Claims
ErSaim(s)
Of the above, claim(s)
El Claim(s)
1=4"-Craim(s)
Er -Erims)
12 Claim(s)

L.,--11 e - 11,1(., t -

1 — hi t
`g -1 ) I I' I t'1 # 7,4

is/are pending in the application.
is/are withdrawn from consideration.
is/are allowed.
is/are rejected.
7-3./i-- 3 1
is/are objected to.
are subject to restriction or election requirement.

Application Papers
See the attached Notice of Draftsperson's Patent Drawing Review, P10-948.
is/are objected to by the Examiner.
The drawing(s) filed on
is 0 approved
The proposed drawing correction, filed on
The specification is objected to by the Examiner.
The oath or declaration is objected to by the Examiner.

I~
CD
O
cl
❑

disapproved.

Priority under 35 U.S.C. § 119
El Acknowledgment is made of a claim for foreign priority under 35 U S.C. § 119(a)-(d):
0

Au El some 0

None

of the CERTIFIED copies of the priority documents have been

❑ received.
El received in Application No. (Series Code/Serial Number)
0 received in this national stage application from the International Bureau (PCT Rule 17.2(a)).
*Certified copies not received:
❑

Acknowledgment is made of a claim for domestic priority under 35 U.S.C. 5 119(e).

Attachment (a)
=
•

❑

Notice of Reference Cited, PTO-892

123 Information Disclosure Statement(s), PTO-1449, Paper No(s).
O

ti

Interview Summary, PTO-413

lalqiitice of Draftperson's Patent Drawing Review. PTO-948
O

Notice of Informal Patent Application, P10-152
-SEE OFFICE ACTION ON THE FOLLOWING PAGES-

I. •
HOL-MIN_146913

Appx40382

924

Application/Control Number: 09/103,072

Page 2

Art Unit: 3762

DETAILED ACTION

Drawings
1.

Since allowable subject matter has been indicated, applicant is encouraged to submit

formal drawings in response to this Office action. The early submission of formal drawings will
permit the Office to review the drawings for acceptability and to resolve any informalities
remaining therein before the application is passed to issue. This will avoid possible delays in the
issue process.

Claim Rejections - 35 USC § 102
2.

'The following is a quotation of the appropriate paragraphs of 35 U.S.C. 102 that form the

basis for the rejections under this section made in this Office action:
A person shall be entitled to a patent unless -(e) the invention was described in a patent granted on an application for patent by another filed in the United
States before the invention thereof by the applicant for patent, or on an international application by another who
has fulfilled the requirements of paragraphs (1), (2), and (4) of section 371(c) of this title before the invention
thereof by the applicant for patent.

HOL-MIN_146914

Appx40383

925

•4

Application/Control Number: 09/103,072

Page 3

Art Unit: 3762

3.

Claims 1, 3, 8, 16, 22, 25 and 26 are rejected under 35 U.S.C. 102(e) as being anticipated

by Stern et al '470.
Stern et al '460 discloses the invention substantially as claimed including an expansible
-T--------_____
member constructed of open-cell, porous material which do to its structure will act to absorb
e"-- - , ........„........

moisture when this surface is not coated with a paste or gel.
4.

Claim 31 is rejected under 35 U.S.C. 102(e) as being anticipated by Edwards.
mechanism (12), an electrode
Edwards discloses an elongate member (15), a lc eyloyment
___________

array (40), a sheath (14), a handle (16), a limiting means (20, 22, 23, 24) and a source of RF
energy is supplieol to the electrodes (column 4, line 46).

Claim Rejections - 35 USC § 103
5.

The following is a quotation of 35 U.S.C. 103(a) which forms the basis for all obviousness

rejections set forth in this Office action:
(a) A patent may not be obtained though the invention is not identically disclosed or described as set forth in
section 102 of this title, if the differences between the subject matter sought to be patented and the prior art are
such that the subject matter as a whole would have been obvious at the time the invention was made to a person
having ordinary skill in the art to which said subject matter pertains. Patentability shall not be negatived by the
manner in which the invention was made.

6.

Claims 2, 9-14, 18-22 and 27-30 are rejected under 35 U.S.C. 103(a) as being

unpatentable over Stern et al '470.
Stem et al '470 discloses the invention substantially as claimed except for the fluid
permeable member including a variety of fabrics, the step of measuring the length and width of the
organ being treated and width measurment means. The material used in the construction of the
...._......-.0. '

HOL-MIN_146915

Appx40384

926

•

;

Page 4

Application/Control Number: 09/103,072
Art Unit: 3762

permeable member would have been an obvious design choice in the absence of any new or
unobvious results, the material being used being dependent upon its absorption properties and
biocompatibility with the body. It would be obvious to one of ordinary skill in the art to survey
the organ being treated as to its size, shape etc. as a preliminary step in the treatment proceedure.
Measurment means is accomplished by comparing the dimensions of the organ to the known
measurments of the treatment mechanism.
7.

Claims 4, 23 and 26 are rejected under 35 U.S.C. 103(a) as being unpatentable over Stern

et al '470 in view of Chin (WO 95/07664).
Stern et al. '470 discloses the invention substantially as claimed except for the use of
spring members to assist in the deployment of the electrode carrying member. Chin discloses
spring members (50, 52) which assist in the deployment of the balloon (10) into proper
configuration in the uterus during organ ablation. It would have been obvious to one of ordinary
skill in the art to provide similar additional support means in the balloon structure of Stern et al.
In order to assist in the proper placement of the device in the uterus for the ablation proceedure.

Allowable Subject Matter
8.

Claims 5-7, 15, 17 and 24 are objected to as being dependent upon a rejected base claim,

but would be allowable if rewritten in independent form including all of the limitations of the base
claim and any intervening claims.

HOL-MIN_146916

Appx40385

927

Application/Control Number: 09/103,072

Page 5

Art Unit: 3762

9.

The following is a statement of reasons for the indication of allowable subject matter:
The prior art of record does not teach openings in elements of the device for actively

withdrawing moisture from the treatment site.

Conclusion

Any inquiry concerning this communication or earlier communications from the examiner
should be directed to Kent Gring whose telephone number is (703) 308-2214. The examiner can
normally be reached on Monday - Friday from 9:00 a.m. to 5:00 p.m.
If attempts to reach the examiner by telephone are unsuccessful, the examiner's supervisor,
Corrine McDermott, can be reached on (703) 308-2111. The fax phone number for the
organization where this application or proceeding is assigned is (703) 305-3590.
Any inquiry of a general nature or relating to the status of this application or proceeding
should be directed to the receptionist whose telephone number is (703) 308-0858.

Kent Gring
June 18, 1999

CORRINE MeDERMOTT
PRIMARY EXAMINER

HOL-MIN_146917

Appx40386

928

Form PTO 948 (Rev. 848)

U.S. DEPARTMENT OF COMMERCE • Patent and Trademark Office

Application No.
a

NOTICE OF DRAFTSPERSON'S
PATENT DRAWING REVIEW

RdO3 319V1IVAV1S38

The drawings) filed (insert date
A. CD approved by the Drafisperson under 37 CFR 1.84 or 1.152.
objected to by the Draftsperson under 37 CFR 1.84 or 1.152 for the reasons indicated below. The Examiner wilt require
B.
sion of new, corrected drawings when necessary. Corrected drawing must be sumined according to the instructions on the back of this notice.

I. DRAWINGS: 37 CF12.1.84(a): Acceptable categories of drawings:
Black ink. Color •
Color drawings are not acceptable u petitort is granted.
Fig(s)
Pencil and non black ink not permitted. Fig(s)
2. PHOTOGRAPHS. 37 CFR 1.84 (b)
I fulttone sea is required. Fig(s)
Photographs not properly mounted (must use brystol board or
photographic doebldweighi paper). Fig(s)
Poor quality (half tone). Fig(s)
3. TYPE OF PAPER. 37 CFR 1.84(e)
Paper not flexible, strong, whits, sod durable.
Fig(s)
Erasures: alterations, ovenvritings:intedinedions.
folds, copy machine marks not accepted. Eig(s)
Mylat, velum paper is riot acceptable (too thin).
Fig(s)
4. SIZE Of PAPER. 37 CFR 1.84(1): Acceptable sizes:
21.0 cm by 29.7 cm (DIN size A4)
21.6 cm by 27.9 an (8 1/2 II inches)
All drawing sheets nit the same size.
Sheet(s)
Drawings sheets not an acceptable size. Pigs)
5. MARGINS. 37 CFR I NW: Acceptable margins:
Top 2.5 cm Left 2.5cm Right 1.5 con Bottom 1.0 cm
SIZE: A4 Size
Top 2.5 cm Left 2.5 cm Right 1.5
SIZE: 81/2,* 11
Ma
acceptable. Fig
Right (R)
Bottom (B)
6. VIEWS. 37 CFR 1.84(h)
REMINDER. Specification may require tevision to
correspond to drawing changes.
Partial views. 37 CFR 1.84(h)(2)
Brackets needed to show figure as one entity.
Fig(s)
Views not labeled separately or properly.
Fig(s)
Enlarged v
labeled separately or properly.
Fig(s)
7. SECTIONAL VIE . 37 CFR 1.84 (h )
Hatching not Indicated for sectional portions of an object.
Fig(s)
Sectional designation should be noted with Arabic or
Roman members. Fig(s)

8. ARRANGEMENT OF VIEWS. 37 CFR 1,84(i)
•
Words do not appear on a horizontal. left4o.righ fashion
when page is either upright or turned so that the top
becomes the right side, czar for graphs. fig(s)
9. SCALE 37 CFR 1.84(k)
Scale not large enough to show mechanism without
crowding when drawing is reduced in size to two.thirds in
reproduction.
,
. •.
Fig(s)
•
10. CHARACTER OF LINES, NUMBERS. & LETTERS.
1.84(i)
37
Lines, numbers & tellers not uniformly thick and well
deft
an, durah{c, and black (poor line quality).
Fig(s
.
11. SHADING 31CFR 1
Solid black areas pale. Fig(s)
Solid black shading not *mime. Figs)
Shade lines, pale. rough and Murred. Fig(s)
12. NUMBERS. LETTERS. & REFERENCE CHARACTERS.
37 CFR 1.84(p)
Numbers and reference characters not plain and legible.
Fig(s)
Figure legends are poor. Fig(s)
Numbers and reference characters not oriented in the
same direction as the view. 37 CFR 1.84(pX1)
Fig(s)
English alphabet not used. 37 CFR 1.84(p)(2)
Figs
Numbers, letters sad,reference characters must be at least
.32 cm (1/8 inch) in height. 37 CFR I.84(pX3)
Fig(s)
13. LEAD LINES. 37 CFR 1.84(q)
Lead lines cross each other. Fig(s)
Lead lion missing. Fig(s)
14. NUMBERING OF SHEETS OF DRAWINGS. 37 CFR 1.84(0
Sheds not numbered consecutively, and In Arabic numerals
beginning with number t. Sheet(s)
IS. NUMBERING OF VIEWS. 37 CFR 1.84(u)
Views not numbered consecutively, and in Arabic numerals
beginning with number 1. Fig(s)
16. CORRECTIONS. 37 CFR 1.84(w)
Correction not made from prior PT0.948
dated
17. DESIGN DRAWINGS. 37 CFR 1.152
Surface shading shown as appropriate. Fig(s)
Solid black shading not used for color contrast.
Figs)

COMMENTS

DATE

Dl/,

TELEPHONE NO.

ATTACHMENT TO PAPER NO.

HOL-MIN_146918

Appx40387

929

0

AdO3 319VIWAY 1339

Attachment-

The drawings submitted with this application,
were declared informal by the applicant.
Acordingly they have not been reviewed by a
draftsperson at this time. When formal drawings
are submitted, the draftsperson will perform a
review.
Direct any inquires concerning drawing review to
the Drawing Review Branch (703) 305-8404.

.

Substitute PTO-948

HOL-MIN_146919

Appx40388

.•

930

PATENT
- 5Sheet

F

AO-14f;

fied)
p

7-80)

to 1 t 10

.r

U.S Dept. of Commerce Atty Docket No.
Patent and Trademark Office ENVS-220

of

2

Applicant(s)
Csaba Truckai ET AL.

RMATION DISCLOSURE CITATION

ti
several she

1

Serial No.
09/103,072

if necessary)

Filing Date
06/23/98

4'We

Group
3736

U.S. PATENT DOCUMENTS
*Examiner
Initials

z

ii iil

Document Number

AA

1,620,929

Name

Date

03/15/27

Class

Subclass

wallerich

-..,

Piling Date

02/05/25

AB

1,827,306

10/13/31

Chapman et al.

AC

2,190,383

02/13/40

Newman

128

401

08/29/36

AD

2,466,042

04/05/49

Reich et al.

128

401

08/26/47

09/14/25

AE

3,645,285

02/29/72

Majzlin

128

303.13

06/25/83

AF

3,840,016

10/08/74

Lindemann

128

303.17

03/07/73
12/01/72

AG

3,924,628

12/09/75

Droegemueller et el.

128

303.1

All

3,948,270

04/06/76

Hasson

128

348

10/15/74

AI

4,057,063

11/08/77

Gielea et al.

128

303.17

02/27/76

AJ

4,601,698

07/22/86

Moulding, Jr.

604

55

09/17/84

AK

4,960,133

10/02/90

Mewson

128

784

11/21/88

AL

4,662,383

05/05/87

Sogawa et al.

128

784

09/23/83

AM

4,676.258

06/30/87

Inokuchi et al.

128

804

06/05/86

AN

4,832,048

05/23/89

Cohen

128

786

10/29/87

AO

4,865,047

09/12/89

Chou et al.

128

784

06/30/88

AP

4,949,718

08/21/90

Neuwirth et al.

128

401

09/09/88

AQ

4,961,435

10/09/90

Kitagawa et al.

128

788

10/17/88

AR

4,979,948

12/25/90

Geddes et al.

606

33

04/13/89

AS

5,057,106

10/15/91

Kasevich et al.

606

33

07/09/90

AT

5,084,044

01/28/92

Quint

606

27

07/14/89

AU

5,105,808

04/21/92

Neuwirth et al.

128

401

08/09/90

AV

5,147,353

09/15/92

Everett

606

15

03/23/90

AW

5,159,925

11/03/92

Neuwirth et al.

128

401

01/28/91

AI

5,186,181

02/16/93

Pranconi et al.

128

804

07/27/90

I

-....-

IV

AY

5,188,122

02/23/93

Phipps et al.

128

788

06/20/90

AZ

5,188,602

02/23/93

Nichols

604

113

06/08/92

SA

5,248,312

09/28/93

1Langberg

606

28

06/01/92

Examiner

Date Considered
(:? VI '"

I. i IS hi
9 144 / ° /
• Examiner: Initial if reference considered, whether or not citation is in conformance with MPEP 609; Draw line
through citation if not in conformance and not considered. Include copy of this form with next communication to
applicant.

PATENTIMDS.MRG

Rev. 02/20/98

HOL-MIN_146920

Appx40389

931

•

PATENT

- 7Sheet
U.S Dept. of Commerce Atty Docket No.
Patent and Trademark Office ENVS-220

FORM PTO-1449 (Modified)
(Rev. 7-80)

(Us,

Piling Date
06/23/98

several'ih ets if necessary)

flCt Q g
L4
49

,Bun

of

2

Applicant(s)
Csaba Truckai ET AL.

INFORMATION DISCLOSURE CITATION

F3

2

Serial No.
09/103,072

.3%

Group 3736

G
U.S. PATENT DOCUMENTS

TRA105

*Examiner
Initials

Document Number'

Date

A n Subclass

Name

Piling Date
-

BB

607798

Stern

05/01/92

5.277.201

01/11/94

BC

5,308,327

05/03/94

Heaven et al.

604

96

11/25/91

BD

5,334,193

08/02/94

Nardella

606

41

11/13/92

BE

5,433,708

07/18/95

Nichols et al.

604

113

06/07/93

BF

5,437.629

08/01/95

Goldrath

604

21

04/14/94

DO

5,443,470

08/22/95

Stern et al.

607

98

04/14/93

NH

5,364,393

11/15/94

Auth et al. (abstract only)

606

34

12/30/93

BI

5,505,730

04/09/96

Edwards

606

41

06/24/94-

I

1

V'

8.7

5,797,903

08/25/98

Swanson et al.

606

34

04/12/96

BX

4,691,703

09/08/87

Auth et al. (abstract only)

606

31

04/25/86

BL

4.582,057

04/15/86

Auth et al. (abstract only)

606

31

11/21/83

BM

4,532,924

08/06/e5

Auth et al.

606

50

04/30/82

BN

4,492,231

01/08/85

Auth (abstract only)

606

42

09/17/82

BO

4.449,528

05/22/84

Auth et al. (abstract only)

606

31

07/20/81

FOREIGN PATENT DOCUMENTS
*Examiner
Initials

c

K

o')

V

Document Number

Date

Country

Class

Subclass

Translation
YES
NO

BP

WO 92/19145

11/12/92

PCT

A61B

BQ

WO 94/07445

04/14/94

PCT

A61F

X

BR

0584930A1

03/02/94

EPO

A61B

X

BS

WO 95/07664

03/23/95

PCT

A61B

X

ST

WO 95/10326

04/20/95

PCT

A61N

X

BU

NO 94/10948

05/26/94

PCT

A61F

X

BV

NO 94/23794

10/27/94

PCT

A61N

X

.......,

X

SW

WO 95/05869

03/02/95

PCT

A61N

x

BX

WO 95/04385

02/09/95

PCT

H010

X

Examiner

Date Considered

a,...,r/„....---c-= v.%..--1
fine

lxv., I

l di

el

• Exa
Initial if reference considered, whether or not citation is in conformance with MPEP 609; Draw line
through citation if not in conformance and not considered. Include copy of this form with next communication to
applicant.

PaTENTFIDS.MRG

02/20/98

HOL-MIN_146921

Appx40390

932

•

PATENT

-1IN THE UNITED STATES PATENT AND TRADEMARK OFFICE

dr?

1

In re Patent Application of

Group Art Unit: 3736

CSABA TRUCKAI , et al.

Examiner: Gring, N

Application No. 09/103,072

RESPONSE TO OFFICIAL
ACTION MAILED JUNE 21, 1999

Filed: June 23, 1998
For:

MOISTURE TRANSPORT SYSTEM FOR 2001 Ferry Building
San Francisco, CA 94111
CONTACT ELECTROCOAGULATION
(415) 433-4150
CERTIFICATE OF MAILING
I hereby certify that this correspondence is being deposited
with the United States Postal Service as first class mail in
an envelope addressed to: , Assistant Commissioner for
Patents, Washington, DC 20231, on December 21, 1999.

Assistant Commissioner for Patents
Washington, DC 20231

t LIMBACH LIP
LIMBACt
i
By:

Date: 12/21/99

,tal .

Pat Gmble

rn
Sir:

r"

c-)
Applicants make the following amendments and remarks in response to thcf,

2:g

fn
.4

official action mailed June 21, 1999:

1'1

C=,

rn

rn
rn

c=,

0
In the Claims:
Please amend Claims 5-7, 15, 17 and 24:
5. (AMENDE

A method of ablating and/or coagulating tissue,

comprising t e steps of: [The method of claim 4 wherein each
flexure includ s]
(a) providing an a ation device including an expandable electrode
array carried by n elongate tubular member and a pair of elongate
12/29/1999 DORM 00000077 09103072
02 FC:203
03 FC:202

3182:nures wherein ach flexure includes at least one opening. the

Repin. Ref: 12/29/1999 CVORACHA 0017531000
DAB:121420 Hame/Humber:09103072
FC: 704

$5.00 CR

Rev. 09/15/99
H 0L-M IN_l 46922

Appx40391

933

0

.(9-/)373

PE
LIMBACH & LIMBACH L.L.P.
2001 Ferry Building
San Francisco, CA 94111
141514334150

)t
tEt I 1._VA
4t 7

14491TROF
In re Patent Application of: Csaba Truckai et al.

Attorney Docket No. ENVS-220

Application No.: 09/103,072
Filed:

June 23, 1998

For:

MOISTURE TRANSPORT SYSTEM FOR CONTACT ELECTROCOAGULATION

Assistant Commissioner for Patents
Washington, D.C. 20231
Sir:
Transmitted herewith is an amendment in the above-identified application.
The fee has been calculated as shown below.
(Cot. 1)

(Col. 2)

(Col. 3)

CLAIMS •
REMAINING
AFTER
AMENDMENT

HIGHEST
NO.
PREVIOUSLY
PAID FOR

PRESENT
EXTRA

RATE

ADDITIONAL
FEE
•
in
n
m

TOTAL

• 33

MINUS

• • 31

= 2

x 18 =

$P6

INDEP.

• 11

MINUS

• .• 3

.... 8

x 78 =

S 624
c•- )
rn

FIRST PRESENTATION OF MULTIPLE DEP CLAIM

+260 =

-A
77

TOTAL
Small Entity 50% Filing Fee Reduction (if applicable) '

• •

•

1.
2.

P1
O

S 670.
S 335.6a

If the entry in Cot. 1 is less than the entry in Col. 2, write "0" in Col. 3.
If the 'Highest Number Previously Paid For" IN THIS SPACE is less then 20. write "20* in this space.
If the "Highest Number Previously Paid Fos" IN THIS SPACE is less than 3. write -r in this space.
The "Highest Number Previously Paid For" (Total or Independent is the highest number found from the
equivalent box in Col. I of a prior amendment or the number of claims originally filed.)

No additional fee is required.
X

A check in the amount of 5770.00 is attached to cover additional claims fee and three month
extension of time.
Please charge any additional fees, including any fees necessary for extensions of time, or credit
overpayment to Deposit Account No. 12-1420.

3.

A duplicate copy of this sheiliFiiiiclosed.

4.

x

Petition for extension of time. The undersigned attorney of record hereby petitions for an
extension of time pursuant to 37 C.F.R. 4 1.136(a), as may be required, to file this response.
LIMBACH & LIMBACH L.L.P.

Dated: December 21, 1999

By:
Kathleen A. Frost
Registration No. 37,326
Attorneys for Applicant(s)

CERTIFICATE OF MAILING
I hereby certify that this correspondence is being deposited with the United States Postal Service as first class mail in an
envelope addressed to: Assistant Commissioner for Patents. Washington, D.C. 20231, on December 21, 1999.

• A

71 t 000

00.

HOL-MIN_146923

Appx40392

934

PATENT
-2electr e array including a fluid permeable elastic member having
insula ng regions and conductive regions thereon;
(b) positio ing the electrode array in contact with tissue to be ablated
and mo ing the array to an expanded condition by expanding the
flexures;
(c) deliverin = RF energy through the array to the tissue to cause the
tissue to d hydrate; and
(d) permitting oisture generated during the dehydration of step (c) to
pass into the electrode carrying member and away from the_tissue
and allowin at least a portion of the moisture to pass through the
openings in th flexures.

6. (AMENDED)

method of ablatin and/or coa ulatin tissue

comprising the s -ps of: [The method of claim 1 wherein step (d)
includes]
(a) providing an ablati n device including an electrode array carried by
an elongate tubular ember, the electrode array including a fluid
permeable elastic me ber having insulating regions and conductive
regions thereon;
(b) positioning the electrod; array in contact with tissue to be ablated;
(c) delivering RF energy thru ugh the array to the tissue to cause the
tissue to dehydrate; and
(d) permitting moisture gener ed during the dehydration of step (c) to
pass into the electrode ca

ing member and away from tissue and

Rev. 09/15/99
HOL-MIN_146924

Appx40393

935

PATENT
-3itting at least a portion of the moisture to pass from the array
int the tubular member.

7. (AM

DED) A method of ablating and/or coagulating tissue,

compris ng the steps of: [The method of claim 3 wherein step (d)
includes 'e step of]
(a) providing

ablation device including an expandable electrode

array carried by an elongate tubular member, the electrode array
including a fl 'd permeable elastic member having insulating
regions and con a uctive regions thereon;
(b) positioning the e ctrode array in contact with tissue to be ablated
and moving the

av to an expanded condition;

(c) delivering RF ener v through the array to the tissue to cause the
tissue to dehydrate;

d

(d) permitting moisture g nerated during the dehydration of\ step (c) to
pass into the electrode arrying member and away from the tissue,
including applying sucti n to draw the moisture through the tubular
member.

15. (AMEND D) A method of ablating and/or coagulating tissue,
comprising e steps of: [The method of claim 1 including the step
of]
(a) providing an a lation device including an electrode array carried by
an elongate tub filar member, the electrode array including a fluid

Rev. 09/15/99
HOL-MIN_146925

Appx40394

936

PATENT
-4perleable elastic member having insulating regions and conductive
regions thereon;
(b) positioning the electrode array into contact with tissue to be ablated;
(c) delivering RF energy through the array to the tissue to cause the
tissue to.dehydrate;
(d) permitting moisture generated during the dehydration of step (c) to
pass into the electrode carrying member and away from the tissue
and
1
applying,suction through the tubular member to draw the tissue
into contact with the electrode array.

17. (A ENDED) An ablation and/or coagulation apparatus for use in
deliv ring energy to tissue for ablation, the apparatus comprising:
[The a • lation and/or coagulation apparatus of claim 16 further
includi g an elongate tube having at least one opening adjacent to
the arra and a vacuum source fluidly coupled to the elongate tube]
an

t ode array carried by an elongate member, the array

including

perme le elastic member having insulating and

conductive regi ns thereon, the electrode array configured to permit
moisture generat

during ablation to pass actively and/or passively into

the electrode arra and away from underlying tissue;
a source of adio frequency energy electrically coupled to the
conductive regions f the array;

Rev. 09/15/99
HOL-MIN_l 46926

Appx40395

937

PATENT
-5an elongate tube having at least one opening adjacent to the
array;

cLA

source fluidly coupled to the elongate tube.

24. (AM NDED) An ablation and/or coagulation apparatus for use in
delive ing energy to tissue for ablation, the apparatus comprising:
[The ap i aratus of claim 23 wherein the flexures include at least one
fluid ope ing]
an electro e array carried by a deflecting mechanism moveable
between a retracte, position and an expanded position wherein the
deflecting mechan'

includes a pair of elongate flexures that include at
the array including a fluid permeable elastic

least one fluid o
member having i

tin

d conductive regions thereon, the electrode

array configured to pe

it moisture generated during ablation to pass

actively and/or passive

into the electrode array and away from underlying

tissue;
a source of radio requencv energy electrically coupled to the
conductive regions of the nay.

Please add new Claims 32 and 33:

--32.

(NEW) A method of ablati

d/or c

ating tissue,

comprising the steps of:
(a) providing an ablation dev.
an elongate member, the electr
fabric member having ins ating regio

"lectrode array carried by
g a fluid permeable metallized
nductive regions thereon;
Rev. 09/15/99
HOL-MIN_146927

Appx40396

938

•

PATENT
-6-

(b) positioning the electrode array in contact with tissu
ay to the

(c) delivering RF energy through ti

be ablated;

ue to cause the

tissue to dehydrate; and
(d) permitting moisture g crated
pass into the electrode carryin membe

—33.

(NEW)

ablat

delivering energy to tics of
an electrode arr•
fluid permeable me

the dehydration of step (c) to

away from the tissue.

and/or coagul tion apparatus for use in

ablation, the app atus comprising:

arried by an elong • e member, the array including a
d fabric mem

regions thereon, e el trode arr
during ablati • to pass

1111

aving insulating and conductive

configured to permit moisture generated

e y and/or passively into the electrode array and

away fro underlying t sue;
a source of radio frequency energy electrically coupled to the conductive
re • ns of the array.--

REMARKS
Claims 5-7, 15, 17, and 24 have been amended. New Claims 32 and
33 are added. Claims 1 — 33 are now pending.

I. Prior Art Rejections
A. Rejections Under U.S.C. §102
Claims 1, 3, 8, 16, 22, 25 and 26 have been rejected under 35 U.S.C.
§102 as being anticipated by Stem et al, U.S. Patent 5,433,470.
Applicants respectfully submit that the Stem reference fails to
disclose or fairly suggest the step of permitting moisture generated
during the dehydration of tissue to pass into an electrode carrying
member and away from the tissue, as recited in Claims 1, 3 and 8. The
Rev. 09/15/99
HOL-MIN_l 46928

Appx40397

939

PATENT
-7open-cell, porous material mentioned at Stern Cot. 5, lines 47-53 is
described as being filled with gel or foam, which is critical to the Stern
device's ability to deliver energy to the underlying tissue. The reference
appears to include no mention or suggestion for permitting, either
actively or passively, moisture to pass into the material and away from
the tissue.
Likewise, there is no disclosure in Stern of a fluid permeable elastic
member configured to permit moisture generated during ablation to pass
into the electrode carrying member and away from underlying tissue, as
is recited in Claims 16, 22, 25 and 26. For this reason, Claims 1, 3, 8,
16, 22, 25 and 26 are not anticipated by Stern.
Claim 31 stands rejected as being anticipated by Edwards.
However, as far as Applicants can see Edwards lacks teaching of
"limiting means for selectively limiting lateral expansion of the
deployment mechanism and for selectively limiting longitudinal
extension of the array from the sheath." Edwards' switch 20 rotates the
viewing optics. Switch 21 controls movement of sleeve 14. Switch 22
causes hinge 18 to pivot the balloon 12. Switch 23 controls RF delivery.
Switch 24 controls flow of electrolytic solution. As far as Applicant
can see, there is no mechanism that allows longitudinal extension of
Edwards' electrode from the sheath to be selectively limited so as to be,
for example, commensurate with the measured length of a patient's
uterus. Accordingly, Claim 31 is not anticipated by Edwards.

Rev. 09/15/99
HOL-MIN_l 46929

Appx40398

940

PATENT
-8B. Rejections Under U.S.C. § 103
Claims 2, 9-14, 18-22 and 27-30 have been rejected as being
made obvious by Stem.
As discussed, Stem fails to teach of the step of permitting
moisture generated during the dehydration of tissue to pass into an electrode
carrying member and away from the tissue, as is recited in Claims 2, 9-14.
It also fails to teach the use of a fluid permeable elastic member configured
to permit moisture generated during ablation to pass into the electrode
carrying member and away from underlying tissue, as is recited in Claims
18-22 and 27-30. Moreover, Applicants can find no suggestion for
modifying the Stern method/apparatus to utilize the recited steps/features.
Thus Claims 2, 9-14, 18-22 and 27-30 are not made obvious by the
teachings of Stern.
With respect to Claims 2, 12 - 14, 18-21, an additional basis for
the patentability of the claims resides in the recitation of metallized
fabric in the array. Applicants can find no fair suggestion for the
utilization of a metallized fabric in the Stern device, and respectfully
submit that one of skill in the art would not have considered the
metallized fabric to be an obvious design choice on the Stern device.

C Rejection based on Stern in View of Chin
Claims 4, 23 and 26 have been rejected as being made obvious by
Stern in view of Chin. As discussed, Stem fails to teach of the step of
permitting moisture generated during dehydration to pass into an electrode

Rev. 09/15/99
HOL-MIN_146930

Appx40399

941

.

•

PATENT
-9carrying member and away from the tissue, as is recited in Claim 4, and it
lacks any teaching of the use of a fluid permeable elastic member
configured to permit moisture generated during ablation to pass into the
electrode carrying member and away from underlying tissue, as is recited in
Claims 23 and 26. These teachings are likewise missing from Chin, which
discloses the use of an inflatable balloon that is filled with heated liquid and
used for thermal ablation.
Thus, Claims 4, 23 and 26 are not made obvious by the combined
teachings of these references.

II.

Allowable Subject Matter
Applicants note with appreciation the Examiner's indication that

Claims 5-7, 15, 17, and 24 would be allowable if rewritten in
independent form. These claims are now independent of the rejected
base claims and their allowance is respectfully requested.

III.

New Claims 32 and 33
New Claims 32 and 33 recite the use of metallized fabric and

thus are allowable on this basis.

IV.

Conclusion
For the foregoing reasons, Applicants respectively submit that

Rev. 09/15/99
HOL-MIN_146931

Appx40400

942

•

•

PATENT

- 10 -

the application is in condition for allowance. Early reconsideration and
allowance of the claims is respectfully requested.

Respectfully submitted,
LIMBACH & LIMBACH L.L.P.

Dated: 12,2t --cr

By:

6JQt ___615vofd—'
Kathleen A. Frost.
Reg. No. 37,326
Attorneys for Applicant(s)

Attorney Docket No. ENVS-220 []

Rev. 09/15/99
HOL-MIN_146932

Appx40401

943

This page intentionally left blank.

944

• •

•

le<iiAN

UNITED STA L DEPARTMENT OF COMMERCE
Patent and Trad mark Offic

r-T

Address:

APPUCATION NO.

09/103,072

FILING DATE

06/23/98

r-

COMMISSIONER OF PATENTS AND TRADEMARKS
Washington, D.C. 20231.

FIRST NAMED INVENTOR

ATTORNEY DOCKET NO.

TRUCKAI

ENVS-220
EXAMINER

QM32/1003
LAM, A

KATHLEEN A FROST
LIMBACH & LIMBACH
2001 FERRY BUILDING
SAN FRANCISCO CA 94111

ART UNIT

PAPER NUMBER

12-

37A:1
DATE MAILED;

I

10/03/00

Please find below and/or attached an Office communication concerning this application or
proceeding.
Commissioner of Patents and Trademarks

PTO 00C (Ray 2/95)

1- Filo Copy

U.S.GPO 2000 485-168/25288

HOL-MIN_l 46944

Appx40413

945

Office Action Summary

Application No.

Applicant(s)

09/103,072

TRUCKAI ET AL.

Examiner

Art Unit

Ann Y. Lam

3763

— Th MAILING DATE of this communication appears on the cover sheet with the correspondence address -Period for Reply
A SHORTENED STATUTORY PERIOD FOR REPLY IS SET TO EXPIRE 3 MONTH(S) FROM
THE MAILING DATE OF THIS COMMUNICATION.
Extensions of time may be available under the provisions of 37 CFR 1.136 (a). In no event, however, may a reply be timely filed
after SIX (6) MONTHS from the mailing date of this communication.
If the period for reply specified above is less than thirty (30) days, a reply within the statutory minimum of thirty (30) days will
be considered timely.
If NO period for reply is specified above, the maximum statutory period will apply and will expire SIX (6) MONTHS from the mailing date of this
communication.
- Failure to reply within the set or extended period for reply will, by statute, cause the application to become ABANDONED (35 U.S.C. g 133).

Status
1)0

Responsive to communication(s) filed on 21 December 1999 .
2b)E] This action is non-final.

2a)Z This action is FINAL.
3)❑

Since this application is in condition for allowance except for formal matters, prosecution as to the merits is
closed in accordance with the practice under Ex parte Quayle, 1935 C.D. 11, 453 O.G. 213.

Disposition of Claims
4)Z Claim(s) 1-33 is/are pending in the application.
4a) Of the above claim(s)

is/are withdrawn from consideration.

5)Z Claim(s) 5-7,15,17,24 and 31 is/are allowed.
6)2] Claim(s) 1-4,8-14,16,18-23,25-30,32 and 33 is/are rejected.
7)0 Claim(s)

is/are objected to.

8)D Claims

are subject to restriction and/or election requirement.

Application Papers
9)0 The specification is objected to by the Examiner.
10)0 The drawing(s) filed on

is/are objected to by the Examiner.

11)0 The proposed drawing correction filed on

is: a)0 approved b)D disapproved.

12)0 The oath or declaration is objected to by the Examiner.
Priority under 35 U.S.C. § 119
13)0 Acknowledgment is made of a daim for foreign priority under 35 U.S.C. § 119(a)-(d).
ak] All b)0 Some * c)E] None of the CERTIFIED copies of the priority documents have been:
1.0 received.
2.0 received in Application No. (Series Code / Serial Number)
3.0 received in this National Stage application from the International Bureau (PCT Rule 17.2(a)).
" See the attached detailed Office action for a list of the certified copies not received.
14)0 Acknowledgement is made of a claim for domestic priority under 35 U.S.C. & 119(e).
Attachment(s)
14) ❑ Notice of References Cited (1310-892)
15) ❑ Notice of Draftsperson's Patent Drawing Review (PTO-948)
16) El Information Disclosure Statement(s) (PTO-1449) Paper No(s) L .

17) ❑
18) ❑
19) ❑

Interview Summary (PT0-413) Paper No(s).
Notice of Informal Patent Application (PTO-152)•
Other:

U.S. Patent and Trademark Office

PTO-326 (Rev. 3-98)

Office Action Summary

Part of Paper No. 12

HOL-MIN_146945

Appx40414

946

Page 2

Application/Control Number: 09/103,072
Art Unit: 3763

DETAILED ACTION

Claim Rejections - 35 USC § 102
The following is a quotation of the appropriate paragraphs of 35 U.S.C. 102 that
form the basis for the rejections under this section made in this Office action:
A person shall be entitled to a patent unless (e) the invention was described in a patent granted on an application for patent by another filed in the
United States before the invention thereof by the applicant for patent, or on an international application
by another who has fulfilled the requirements of paragraphs (1), (2), and (4) of section 371(c) of this
title before the invention thereof by the applicant for patent.

Claims 1, 3, 8, 16, 22, 25, 26, 32 and 33 are rejected under 35 U.S.C. 102(e) as
being anticipated by Stern et al., 5,433,470, as described in office action dated June 18,
1999. New claims 32 and 33 are same as claims 1 and 16, respectively, and thus are
rejected for the same reasons as claims 1 and 16.

Claim Rejections - 35 USC § 103
The following is a quotation of 35 U.S.C. 103(a) which forms the basis for all
obviousness rejections set forth in this Office action:
(a) A patent may not be obtained though the invention is not identically disclosed or described as set
forth in section 102 of this title, if the differences between the subject matter sought to be patented and
the prior art are such that the subject matter as a whole would have been obvious at the time the
invention was made to a person having ordinary skill in the art to which said subject matter pertains.
Patentability shall not be negatived by the manner in which the invention was made.

Claims 2, 9-14, 18-22 and 27-30 are rejected under 35 U.S.C. 103(a) as being
unpatentable over Stern et al '470, as described in office action dated June 18, 1999.

HOL-MIN_146946

Appx40415

947

Page 3

Application/Control Number: 09/103,072
Art Unit: 3763

Claims 4, 23 and 26 are rejected under 35 U.S.C. 103(a) as being unpatentable
over Stern et al. '470 in view of Chin (WO 95/07664) as described in office action dated
June 18, 1999.
Response to Arguments
Applicant's arguments filed December 21, 1999 have been fully considered but
they are not persuasive. Stern '470 discloses the open-cell, porous material as capable
of permitting fluid to pass into it, see column 5, lines 47-53. The porous material is the
fluid permeable elastic member. As to Edwards, 5,505,730,

Allowable Subject Matter
Claims 5-7, 15, 17, 24 and 31 are allowed.

Conclusion
THIS ACTION IS MADE FINAL. Applicant is reminded of the extension of time
policy as set forth in 37 CFR 1.136(a).
A shortened statutory period for reply to this final action is set to expire THREE
MONTHS from the mailing date of this action. In the event a first reply is filed within
TWO MONTHS of the mailing date of this final action and the advisory action is not
mailed until after the end of the THREE-MONTH shortened statutory period, then the
shortened statutory period will expire on the date the advisory action is mailed, and any
extension fee pursuant to 37 CFR 1.136(a) will be calculated from the mailing date of

HOL-MIN_146947

Appx40416

948

Page 4

Application/Control Number: 09/103,072
Art Unit: 3763

the advisory action. In no event, however, will the statutory period for reply expire later
than SIX MONTHS from the mailing date of this final action.
Any inquiry concerning this communication or earlier communications from the
examiner should be directed to Ann Y. Lam whose telephone number is (703) 3065560. The examiner can normally be reached on T-F 8-6:30.
If attempts to reach the examiner by telephone are unsuccessful, the examiner's
supervisor, Seidel Richard can be reached on (703)305-3009. The fax phone numbers
for the organization where this application or proceeding is assigned are (703)305-3590
for regular communications and (703)306-4520 for After Final communications.
Any inquiry of a general nature or relating to the status of this application or
proceeding should be directed to the receptionist whose telephone number is (703)3080858

A
September 29, 2000

44_°,
0
6
p rondly Examiner

saran APInciSriMbi d -

HOL-MIN_146948

Appx40417

949

This page intentionally left blank.

950

PATENT
- 1IN THE UNITED STATES PATENT AND TRADEMARK OFFICE
In re Patent Application of

Group Art Unit: 3763

CSABA TRUCKAI , et al.

Examiner: LAM, A

Application No. 09/103,072

PRELIMINARY AMEN DMEN
RESPONSIVE TO FINAL ACTION
MAILED OCTOBER 3, 2000

Filed: June 23, 1998
For:

MOISTURE TRANSPORT SYSTEM
FOR CONTACT
ELECTROCOAGULATION

121 Spear Street, Suite 290
San Francisco, CA 94105
(415) 512-1312
CERTIFICATE OF EXPRESS MAIL
I hereby certify that this correspondence is being
deposited with the United States Postal Service
"Express Mail Post Office to Addressee": Express
Mail Label No. EL816893930US addressed to:
Commissioner for Patents, Washington, DC 20231,
on March 5, 2001.
STALLMAN & ;.LLOCK LLP

Commissioner for Patents
Washington, DC 20231

3/5/01

By:

G

rgia Sti

Sir:
Applicants submit this preliminary amendment in connection with the CPA
application filed herewith. The CPA application is filed to permit consideration of
a supplemental Information Disclosure Statement being submitted in order to
disclose new references submitted in a Request for Reexamination filed against
Applicants' U.S. Patent 5,769,880 (of which the present application is a CIP). To
date two such Requests have been filed against the '880 patent. Copies of the
Requests are also listed on the IDS and enclosed herewith.
In the Claims
Please cancel Claims 1-4, 8-14, 16, 18-23, 25-30, 32 and 33.
Please add new Claims 34 - 108:

HOL-MIN_146960

Appx40429

951

NT
--34. The

ethod of claim 5 wherein the fluid permeable elastic member

includes Met Ilized fabric.
35.

The method of claim 5, wherein step (d) includes the step of applying

suction to draw the moisture through the tubular member.
36.

The method of claim 5 wherein step (b) includes the step of causing the

electrode array to conform to the shape of the tissue surface.
37.

The method of claim 5 wherein the method further includes the step of
(e) monitoring impedance using the electrode array and automatically

terminating the flow of current into the tissue once impedance has approximately
reached a predetermined level.
38.

The

wherein the

ethod of claim 5 wherein the tissue to be ablated is within an organ,
ethod further includes the step of measuring the approximate

length and wi th of the organ and wherein step (c) includes the steps of selecting
an ablation po er corresponding to the measured length and width and
delivering the F energy to the tissue at approximately the selected power.
39.

The method of claim 38 wherein the step of measuring the approximate

width of the organ includes the step of expanding the flexures to an expanded
condition and deriving the approximate width 'of the uterus from the relative
positions of the flexures in the expanded condition.
40.

The method of claim 39 wherein step (c) further includes selecting an

ablation power which is proportional to the measured length times the measured
width.
41.

The method of claim 34 wherein the metallized fabric includes yarns of

elastic material and yarns of inelastic material.

HOL-MIN_146961

Appx40430

952

•

•

42.

PATENT
:3
The method of claim 41 wherein the metallized fabric includes yarns of

spandex and nylon.
43.

The me hod of claim 5 wherein the array material has elasticity in a

transverse dire tion and in a longitudinal direction and wherein the elasticity in
the transverse (rection is greater than the elasticity in the longitudinal direction.
44.

The method of claim 5 wherein at least one of the flexures includes an

electrically conductive region in contact with a conductive region of the electrode
array.
45.

The

ethod of claim 6 wherein the fluid permeable elastic member

includes me llized fabric.
46.

The method of claim 6, wherein step (d) includes the step of applying

suction to draw the moisture through the tubular member.
47.

The method of claim 6 wherein step (b) includes the step of causing the

electrode array to conform to the shape of the tissue surface.
48.

The method of claim 6 wherein the method further includes the step of
(e) monitoring impedance using the electrode array and automatically

terminating the flow of current into the tissue once impedance has approximately
reached a predetermined level.
49.

The 7thod of claim 6 wherein the tissue to be ablated is within an organ,

wherein the r• thod further includes the step of measuring the approximate
length and wid h of the organ and wherein step (c) includes the steps of selecting
an ablation po

r corresponding to the measured length and width and

delivering the Rl energy to the tissue at approximately the selected power.
50.

The method of claim 49 wherein the providing step provides the electrode

array to be carried by a pair of elongate flexures, and wherein the step of

HOL-MIN_146962

Appx40431

953

PATENT
- 4measuring the approximate width of the organ includes the step of expanding the
flexures to an expanded condition and deriving the approximate width of the
uterus from the relative positions of the flexures in the expanded condition.
51.

The method of claim 50 wherein step (c) further includes selecting an

ablation power which is proportional to the measured length times the measured
width.
52.

The method of claim 45 wherein the metallized fabric includes yarns of

elastic material and yarns of inelastic material.
53.

The method of claim 52 wherein the metallized fabric includes yarns of

spandex and nylon.
54.

Th method of claim 6 wherein the array material has elasticity in a

transverse direction and in a longitudinal direction and wherein the elasticity in
the transve se direction is greater than the elasticity in the longitudinal direction.
55.

The method of claim 6 wherein the array is expandable and wherein step

(b) further includes the step of moving the array to an expanded condition.
56.

The method of claim 55 wherein the array is carried by a pair of elongate

flexures and wherein the step of moving the array to the expanded condition
includes the step of expanding the flexures.
57.

The method of claim 56 wherein at least one of the flexures includes an

electrically conductive region in contact with a conductive region of the electrode
array.
58.

The me\ hod of claim 7 wherein the fluid permeable elastic member

includes metall ed fabric.
59.

The method of claim 7, wherein the step of applying suction further

includes applying suction to draw tissue into contact with the electrode array.

HOL-MIN_146963

Appx40432

954

60.

PATENT
- 5The method of claim 7 wherein step (b) includes the step of causing the

electrode array to conform to the shape of the tissue surface.
61.

The method of claim 7 wherein the method further includes the step of
(e) monitoring impedance using the electrode array and automatically

terminating the flow of current into the tissue once impedance has approximately
reached a predetermined level.
62.

The

wherein the

ethod of claim 7 wherein the tissue to be ablated is within an organ,
ethod further includes the step of measuring the approximate

length and wid h of the organ and wherein step (c) includes the steps of selecting
an ablation po er corresponding to the measured length and width and
delivering the R energy to the tissue at approximately the selected power.
63.

The method of claim 62 wherein the providing step provides the electrode

array to be carried by a pair of elongate flexures, and wherein the step of
measuring the approximate width of the organ includes the step of expanding the
flexures to an expanded condition and deriving the approximate width of the
uterus from the relative positions of the flexures in the expanded condition.
64.

The method of claim 63 wherein step (c) further includes selecting an

ablation power which is proportional to the measured length times the measured
width.
65.

The method of claim 58 wherein the metallized fabric includes yarns of

elastic material and yarns of inelastic material.
66.

The method of claim 65 wherein the metallized fabric includes yarns of

spandex and nylon.
67.

Th method of claim 7 wherein the array material has elasticity in a

transverse direction and in a longitudinal direction and wherein the elasticity in
the transve se direction is greater than the elasticity in the longitudinal direction.

HOL-MIN_146964

Appx40433

955

68.

PATENT •
-6The method of claim 7 wherein the array is expandable and wherein step

(b) further includes the step of moving the array to an expanded condition.
69.

The method of claim 68 wherein the array is carried by a pair of elongate

flexures and wherein the step of moving the array to the expanded condition
includes the step of expanding the flexures.
70.

The method of claim 69 wherein at least one of the flexures includes an

electrically conductive region in contact with a conductive region of the electrode
array.
71.

The

ethod of claim 15 wherein the fluid permeable elastic member

includes met llized fabric.
72.

The method of claim 15, wherein step (d) includes the step of applying

suction to draw the moisture through the tubular member.
73.

The method of claim 15 wherein step (b) includes the step of causing the

electrode array to conform to the shape of the tissue surface.
74.

The method of claim 15 wherein the method further includes the step of
(e) monitoring impedance using the electrode array and automatically

terminating the flow of current into the tissue once impedance has approximately
reached a predetermined level.
75.

The method of claim 15 wherein the tissue to be ablated is within an

organ, herein the method further includes the step of measuring the
approxi ate length and width of the organ and wherein step (c) includes the
steps of s letting an ablation power corresponding to the measured length and
width and elivering the RF energy to the tissue at approximately the selected
power.

HOL-MIN_146965

Appx40434

956

76.

PATENT
- 7Th method of claim 15 wherein the step of measuring the approximate

width of the organ includes the step of expanding the flexures to an expanded
condition an deriving the approximate width of the uterus from the relative
positions of tl
77.

flexures in the expanded condition.

The met od of claim 15 wherein step (c) further includes selecting an

ablation power w ich is proportional to the measured length times the measured
width.
78.

The method of claim 71 wherein the metallized fabric includes yarns of

elastic material and yarns of inelastic material.
79.

The method of claim 78 wherein the metallized fabric includes yarns of

spandex and nylon.
80.

The me od of claim 15 wherein the array material has elasticity in a

transverse dire :on and in a longitudinal direction and wherein the elasticity in
the transverse di ection is greater than the elasticity in the longitudinal direction.
81.

The method of claim 15 wherein the array is expandable and wherein step

(b) further includes the step of moving the array to an expanded condition.
82.

The method of claim 81 wherein the array is carried by a pair of elongate

flexures and wherein the step of moving the array to the expanded condition
includes the step of expanding the flexures.
83.

The method of claim 15 wherein at least one of the flexures includes an

electrically conductive region in contact with a conductive region of the electrode
array.
84.

The appar

includes metalliz

of claim 17 wherein the fluid permeable elastic member
IC.

HOL-MIN_146966

Appx40435

957

PATENT
- 885. The appar tus of claim 84 wherein the metallized fabric includes yarns of
elastic materia and yarns of inelastic material.
86.

The appa atus of claim 84 wherein the metallized fabric includes yarns of

spandex and nyl
87.

The appar tus of claim 17 wherein the array has elasticity in a transverse

direction and in a longitudinal direction and wherein the elasticity in the
transverse directio is greater than the elasticity in the longitudinal direction.

88.

The apparatus of claim 17 wherein the electrode array is carried by a

deflecting mechanism

oveable between a retracted position and an expanded

position.
89.

The apparatus o claim 88 wherein the deflecting mechanism includes a

pair of elongate flexure
90.

The apparatu

aim 88 wherein the deflecting mechanism includes

electrically conducti

ns elec

ally coupled to conductive regions of the

electrode array.
91.

The apparatus of cla

89 wherein the flexures include

electrically conductive regio s electrically coupled to conductive regions of the
electrode array.
92.

The apparatus of clai

17 further comprising:

width measurement m=ans for measuring the approximate width of the
organ.
93.

The apparatus of claim

further comprising:

length measurement me ns for measuring the approximate length of the
organ.

HOLMIN_l 46967

Appx40436

958

94.

PATENT
- 9The ap aratus of claim 92 further comprising means for determining an

ablation power sing the measured approximate width.
95.

The appa atus of claim 93 further comprising means for determining an

ablation power u ng the measured approximate width and length.
96.

The apparat s of claim 92, wherein the measurement means includes a

pair of elongate flex res, the flexures carrying the electrode array.
97.

The apparatu of claim 24 wherein the fluid permeable elastic member

includes metallized fa ric.
98.

The apparatus o claim 97 wherein the metallized fabric includes yarns of

elastic material and yarn of inelastic material.
99.

The apparatus of c im 97 wherein the metallized fabric includes yarns of

spandex and nylon.
100.

The apparatus of cla

direction and in a longitu
transverse direction is

102.

24 wherein the array has elasticity in a transverse
irection and wherein the elasticity in the
than the elasticity in the longitudinal direction.

The apparatus of claim '4 wherein the deflecting mechanism includes

electrically conductive regions lectrically coupled to conductive regions of the
electrode array.
103.

The apparatus of claim 2 wherein the flexures include

electrically conductive regions electrically coupled to conductive regions of the
electrode array.
104.

The apparatus of claim 24 fkrther comprising:
width measurement means

r measuring the approximate width of the

organ.

HOL-MIN_146968

Appx40437

959

PATENT
105.

- 10The ap aratus of claim 104 further comprising:
length

easurement means for measuring the approximate length of the

organ.
106.

The appa atus of claim 104 further comprising means for determining an

ablation power us ng the measured approximate width.
107.

The app

ablation power
108.

s •f claim 105 further comprising means for determining an
the measured approximate width and length.

The apparatus of claim 104, wherein the width measurement means

includes the elongate exures.-REMARKS
Claims 1-4, 8-14, 16, 18-23, 25-30, 32 and 33 are cancelled. Applicants
reserve the right to resubmit these or similar claims in a continuation application.
Claims 5-7, 15, 17, 24 and 31 remain in the case. These claims were
allowed in the Final Office Action mailed October 3, 2000.
Claims 34 - 108 are new. Claims 5-7, 15, 17, 24, 31 and 34 - 108 are now
pending.
All of the new claims are dependent on an allowed claim. Specifically:
Claims 34 - 44 are dependent on Claim 5.
Claims 45 - 57 are dependent on Claim 6.
Claims 58 - 70 are dependent on Claim 7.
Claims 71 - 83 are dependent on Claim 15.
Claims 84 - 96 are dependent on Claim 17.
Claims 97 - 108 are dependent on Claim 24.
Support for the subject matter in each of the new claims is found in the
original claims and disclosure.

HOLMIN_l 46969

Appx40438

960

PATENT

-11Given that all new claims are dependent on an allowed claim, allowance of
all claims is requested.
Respectfully submitted,
STALLMAN & POLLOCK L.L.P.

Dated: •9)

-5- 2,00

By:
Kathleen A. Frost
Reg. No. 37,326
Attorneys for Applicant(s)

Attorney Docket No. ENVS-220

HOLMIN_146970

Appx40439

961

•

4

UNITED STA411,DEPARTMENT OF COMMERCE
United States Patent and Trademark Office
Address:

APPLICATION NO.

1 FILING DATE

09/10.1,0/4

E

I

06/23/98

KATHLEEN A. FROST
STALLMAN & POLLOCK LLP
121 SPEAR STREET
SUITE 290
SAN FRANCISCO CA 94105

COMMISSIONER OF PATENTS AND TRADEMARKS/
Washington, D.C. 20231

FIRST NAMED INVENTOR

I

0

ATTORNEY DOCKET NO.

TRUCKAI

ENVS-220
EXAMINER

QM12/0522

LAM,A
ART UNIT

3763
DATE MAILED:

PAPER NUMBER

lit

05/22/01

Please find below and/or attached an Office communication concerning this application or
proceeding.
Commissioner of Patents and Trademarks

1- Flio Copy

PTO-90C ;Pc. 11!001

HOL-MIN 146971

Appx40440

962

Applicant(s)

Application N .

TRUCKAI ET AL.

09/103,072

Offic Action Summaty

Examiner

Art Unit

Ann Y. Lam

3763

-- The MAILING DATE of this communication appears on the cover sheet with the correspondence address -Period for Reply
A SHORTENED STATUTORY PERIOD FOR REPLY IS SET TO EXPIRE 1 MONTH(S) FROM
THE MAILING DATE OF THIS COMMUNICATION.

- Extensions of time may be available under the provisions of 37 CFR 1.136 (a). in no event, however, may a reply be timely filed
after SIX (6) MONTHS from the mailing date of this communication.
- If the period for reply specified above is less than thirty (30) days, a reply within the statutory minimum of thirty (30) days will be considered timely.
- If NO period for reply is specified above, the maximum statutory period will apply and will expire SIX (6) MONTHS from the mailing date of this communication.
- Failure to reply within the set or extended period for reply will, by statute, cause the application to become ABANDONED (35 U.S.C. § 133).
- Any reply received by the Office later than three months after the mailing date of this communication, even if timely filed, may reduce any
earned patent term adjustment. See 37 CFR 1.704(b).

Status
1)Eg
2a)0
3)0

Responsive to communication(s) filed on 05 March 2001.
2b)0 This action is non-final.

This action is FINAL.

Since this application is in condition for allowance except for formal matters, prosecution as to the merits is
closed in accordance with the practice under Ex parte Quayle, 1935 C.D. 11, 453 O.G. 213.

Disposition of Claims
4)0 Claim(s) 5-7.15,17,24,31 and 34-108 is/are pending in the application.
is/are withdrawn from consideration.

4a) Of the above claim(s)
5)0 Claim(s)

is/are allowed.

6)0 Claim(s)

is/are rejected.

7)0 Claim(s)

is/are objected to.

8)0 Claims 5-7. 15. 17. 24. 31 and 34-108 are subject to restriction and/or election requirement.
Application Papers
9)0 The specification is objected to by the Examiner.
10)0 The drawing(s) filed on

is/are objected to by the Examiner.

11)0 The proposed drawing correction filed on

is: a)0 approved b)0 disapproved.

12)0 The oath or declaration is objected to by the Examiner.
Priority under 35 U.S.C. 1119
13)0 Acknowledgment is made of a claim for foreign priority under 35 U.S.C. 119(a)-(d) or (f).
8)0 All b)0 Some * c)0 None of:
1.0 Certified copies of the priority documents have been received.
2.0 Certified copies of the priority documents have been received in Application No.

.

3.0 Copies of the certified copies of the priority documents have been received in this National Stage
application from the International Bureau (PCT Rule 17.2(a)).
* See the attached detailed Office action for a list of the certified copies not received.
14)0 Acknowledgement is made of a claim for domestic priority under 35 U.S.C. § 119(e).

Attachments)
15) ❑ Notice of References Cited (P10-892)
16) ❑ Notice of Draftsperson's Patent Drawing Review (P10-948)
17) ❑ Information Disclosure Statement(s) (PT0-1449) Paper No(s)

18) ❑
19) ❑
20) ❑

Interview Summary (PTO-413) Paper No(s).
Notice of Informal Patent Application (PTO-152)
Other:

U.S. Patent and Trademark Office

PTO-326 (Rev. 01-01)

Office Action Summary

Part of Paper No. 17

HOL-MIN_146972

Appx40441

963

• Application/Control Number: 09/103,072

Page 2

Art Unit: 3763
DETAILED ACTION

Election/Restrictions
Restriction to one of the following inventions is required under 35 U.S.C. 121:
I.

Claims 5-7, 15, 84-108, drawn to a method of ablating and/or coagulating
tissue, classified in class 604, subclass 509.

II.

Claims 31, 34-83, 17 and 24, drawn to an apparatus for ablating and/or
coagulating, classified in class 607, subclass 101.

Inventions I and II are related as product and process of use. The inventions can
be shown to be distinct if either or both of the following can be shown: (1) the process
for using the product as claimed can be practiced with another materially different
product or (2) the product as claimed can be used in a materially different process of
using that product (MPEP § 806.05(h)). In the instant case, the product as claimed can
be used in a materially different process of using that product, such as using the product
to determine the length and width of an organ for medical treatment purposes other than
to select an ablation power which is proportional to the measured length times the
measured width.
Because these inventions are distinct for the reasons given above and have
acquired a separate status in the art as shown by their different classification, restriction
for examination purposes as indicated is proper.

HOL-MIN_146973

Appx40442

964

Page 3

-"` Application/Control Number: 09/103,072
Art Unit: 3763
Because these inventions are distinct for the reasons given above and the

search required for Group I is not required for Group II, restriction for examination
purposes as indicated is proper.

Conclusion

Any inquiry concerning this communication or earlier communications from the
examiner should be directed to Ann Y. Lam whose telephone number is (703) 3065560. The examiner can normally be reached on T-F 8-6:30.
If attempts to reach the examiner by telephone are unsuccessful, the examiner's
supervisor, Richard Seidel can be reached on (703)308-5115. The fax phone numbers
for the organization where this application or proceeding is assigned are (703)305-3590
for regular communications and (703)306-4520 for After Final communications.
Any inquiry of a general nature or relating to the status of this application or
proceeding should be directed to the receptionist whose telephone number is (703)3080858.

ANKTUAN T. NGUYEN
PRIMARY 7IIINBR

A.L
Ma 20, 2001

HOL-MIN_l 46974

Appx40443

965

PATENT
- IIN THE UNITED STATES PATENT AND TRADEMARK OFFICE

lca—C1/
r-

LlJ

o

CNJ

In re Patent Application of

Group Art Unit: 3763

CSABA TRUCKAI , et al.

Examiner: LAM, A

Application No. 09/103,072

RESPONSE TO RESTRICTIOCC
REQUIREMENT MAILED
MAY 22, 2001

Filed: June 23, 1998
For:

MOISTURE TRANSPORT SYSTEM
FOR CONTACT
ELECTROCOAGULATION

121 Spear Street, Suite 290
San Francisco, CA 94105
(415) 512-1312

Dated:

By
mg

Sir:
Applicants request that the Patent and Trademark Office withdraw the
Restriction Requirement mailed May 22, 2001.
This application isa CPA application filed to permit consideration of a
supplemental Information Disclosure Statement. Before the CPA was filed,
Claims 5-7, 15, 17, 24 and 31 were allowed in the Final Office Action mailed
October 3, 2000. These claims have been pending for nearly three years - since
the application was filed in June 1998 - and were addressed in a substantive
office action in June 1999 before they were indicated allowable in October 2000.
Thus, search and examination of both method and apparatus claims has already
been conducted by the Examiner. For this reason, it would not unduly burden the
PTO to have these claims remain pending in the case.

HOL-MIN_146975

Appx40444

CC
LLI
FLLI

CERTIFICATE OF MAILING
I hereby certify that this correspondence is being
deposited with the United States Postal Service as
First Class Mail in an envelope, addressed to:
Commissioner for Patents, Washington, DC 20231
on June 5, 2001.
PO LOCK LLP
STALL

Commissioner for Patents
Washington, DC 20231

0
C•3

966

t

PATENT
41'4"

`4'r4 rg i c.cY

- 2The addition of new Claims 34-108 does not present additional burden, in

that ach of th new claims is d pend nt on a claim that has b

n allow d.

Specifically:

Claims 34 - 44 are dependent on Claim 5.

RECEIVED,

Claims 45 - 57 are dependent on Claim 6.
Claims 58 - 70 are dependent on Claim 7.

JUN 11 2001

Claims 71 - 83 are dependent on Claim 15.

TECHNOLOGY CENTER R3700

Claims 84 - 96 are dependent on Claim 17.
Claims 97 - 108 are dependent on Claim 24.

Given that Claims 5-7, 15, 17, 24 and 31 have been allowed, and further
given that each of Claims 34-108 is dependent on an allowed claim, Applicant
respectfully requests withdrawal of the Restriction Requirement.
In the event the Restriction Requirement is not withdrawn, Applicant
provisionally elects the method claims, Claims 5-7, 15, 84-108;with traverse.
Respectfully submitted,
STALLMAN & POLLOCK L.L.P.

Dated:

(i---'"71-0 t

By:

-7 c;14
Kathleen A. Frost
Reg. No. 37,326
Attorneys for Applicant(s)

Attorney Docket No. ENVS-220

HOL-MIN_146976

Appx40445

967

BEST961ABLE
APPLICATION NO.

09/103;072

Ve
r-7:4

UNITED STAT1FPARTMENT OF COMMERCE
United. States Pa nt and Trademark Office

COM 400

FILING DATE

I

06/23/98

Address:

COMMISSIONER OF PATENTS AND TRADEMARKS
Washington, D.C. 20231

FIRST NAMED INVENTOR

ATTORNEY DOCKET NO.

TRUCKAI

2
ENV ;-2'2Ii
EXAMINER

KATHLEEN A. FROST
STALLMAN & POLLOCK LLP
14.SPEAR STREET
SUITE 290
SAN FRANCISCO CA 94105

OM32/0829
AM_ A
ART.UNIT

3763
DATE MAILED:

PAPER NUMBER

08/29/01

Please find below and/or attached an Office communication concerning this application or
proceeding.
Commissioner of Patents and Trademarks

•

PT0•110C (Rev.11/00)

i.

Copy

•

HOL-MIN_l 46977

Appx40446

968

tJ

Offic Action Summary

Application N

Applicant(s)

09/103,072

TRUCKAI ET AL.

Examiner

Art Unit

3763
Ann Y. Lam
— The MAILING DATE of this communication app ars on the coy r sheet with th correspondence address -Period for Reply
A SHORTENED STATUTORY PERIOD FOR REPLY IS SET TO EXPIRE 2 MONTH(S) FROM
THE MAILING DATE OF THIS COMMUNICATION.
- Extensions of time may be available under the provisions of 37 CFR 1.136(a). In no event, however, may a reply be timely filed
after SIX (6) MONTHS from the mailing date of this communication.
If the period for reply specified above is less than thirty (30) days, a reply within the statutory minimum of thirty (30) days will be considered timely.
If NO period for reply is specified above, the maximum statutory period will apply and will expire SIX (6) MONTHS from the mailing date of this communication.
- Failure to reply within the set or extended period for reply will, by statute, cause the application to become ABANDONED (35 U.S.C. § 133).
- Any reply received by the Office later than three months after the mailing date of this communication, even if timely filed, may reduce any
earned patent term adjustment. Soo 37 CFR 1.704(b).

Status
1)Z
2a)0

Responsive to communication(s) filed on 05 March 2001 .
2b)IZ This action is non-final.

This action is FINAL.

3)E1 Since this application is in condition for allowance except for formal matters, prosecution as to the merits is
closed in accordance with the practice under Ex parse Quayle, 1935 C.D. 11, 453 O.G. 213.
Disposition of Claims
4)Z Claim(s) 5-7.15.17.24.31 and 34-108 is/are pending in the application.
4a) Of the above claim(s) 1-4,8-14,16,18-23,25-30,32 and 33 is/are withdrawn from consideration.
5)Z Claim(s) 5-7.15 and 34-83 is/are allowed.
6)0 Claim(s)

is/are rejected.

7)0 Claim(s)

is/are objected to.

8)Z Claim(s) 5-7.15,17,24,31 and 34-108 are subject to restriction and/or election requirement.
Application Papers
9)0 The specification is objected to by the Examiner.
10)0 The drawing(s) filed on

is/are: akj accepted or b)0 objected to by the Examiner.

Applicant may not request that any objection to the drawing(s) be held in abeyance. See 37 CFR 1.85(a).

11)0 The proposed drawing correction filed on

is: a)0 approved b)❑ disapproved by the Examiner.

If approved, corrected drawings are required in reply to this Office action.
12)0

The oath or declaration is objected to by the Examiner.

Priority under 35 U.S.C. §§ 119 and 120
13)0 Acknowledgment is made of a claim for foreign priority under 35 U.S.C. § 119(a)-(d) or (f).
a)0 All b)0 Some * c)0 None of:
1.0 Certified copies of the priority documents have been received.
2.0 Certified copies of the priority documents have been received in Application No.
3.0 Copies of the certified copies of the priority documents have been received in this National Stage
application from the International Bureau (PCT Rule 17.2(a)).
* See the attached detailed Office action for a list of the certified copies not received.
14)0 Acknowledgment is made of a claim for domestic priority under 35 U.S.C. § 119(e) (to a provisional application).
a) ❑ The translation of the foreign language provisional application has been received.
15)D Acknowledgment is made of a claim for domestic priority under 35 U.S.C. §§ 120 and/or 121.
Attachment(s)
1) Z
2) Z
3)

(z)

Notice of References Cited (PTO-892)
Notice of Draftsperson's Patent Drawing Review (P10-948)
Information Disclosure Statement(s) (PTO-1449) Paper No(s) 16 .

4) ❑
5) ❑
6) ❑

Interview Summary (PTO-413) Paper No(s).
Notice of Informal Patent Application (PTO-152)
Other:

U.S. Patent and Trademark Office

P10-326 (Rev. 04-01)

Office Action Summary

Part of Paper No. 19

HOL-MIN_146978

Appx40447

969

Page 2

Application/Control Number: 09/103,072
Art Unit: 3763
DETAILED ACTION
Election/Restrictions
Applicant's election with traverse of the method claims, in Paper No. 18 is

acknowledged. The traversal is on the ground(s) that search and examination of both
method and apparatus claims has already been conducted by the Examiner before the
CPA was filed, and that the new claims are dependent on a claim that has been
previously allowed. Thus Applicant alleges that it would not unduly burden the PTO to
have these claims remain pending in the present case. This is not found persuasive
because a CPA requires further search and consideration of all the claims, even if they
have been previously searched, considered and allowed. Moreover, the method claims
and the apparatus claims are directed to different embodiments of Applicant's invention,
and thus a search of the method claims does not require a search in all the same
classes and subclasses as would be required for the apparatus claims. The
requirement is still deemed proper and is therefore made FINAL.
Furthermore, Applicant elected the method claims in Paper No. 18, but indicated
that the method claims are Claims 5-7, 15, and 84-108, see page 2, line 14, of
Applicant's response. Examiner would like to point out that this is incorrect, and that the
method claims are actually Claims 5-7, 15 and 34-83.

Allowable Subject Matter
Claims 5-7, 15 and 34-83 are allowed.

HOL-MIN_146979

Appx40448

970

Page 3

Application/Control Number: 09/103,072
Art Unit: 3763
Conclusion

This application is in condition for allowance except for the following formal
matters:
Claims 17, 24, 31 and 84-108, as being directed to non-elected claims with
traverse in Paper number 18, must be canceled by Applicant before the method claims
may be allowed.
Prosecution on the merits is closed in accordance with the practice under Ex
parte Quayle, 1935 C.D. 11, 453 O.G. 213.
A shortened statutory period for reply to this action is set to expire TWO
MONTHS from the mailing date of this letter.
Any inquiry concerning this communication or earlier communications from the
examiner should be directed to Ann Y. Lam whose telephone number is (703) 3065560. The examiner can normally be reached on T-F 8-6:30.
If attempts to reach the examiner by telephone are unsuccessful, the examiner's
supervisor, Richard Seidel can be reached on (703)308-5115. The fax phone numbers
for the organization where this application or proceeding is assigned are (703)305-3590
for regular communications and (703)306-4520 for After Final communications.

A.L.
,
August 25, 2001
ANHTUAN T. NGUYEN
PRIMA?' EX7INER
---2„—7 ,c)

HOL-MIN_l 46980

Appx40449

971

09/103,072

Applicant(s)/Patent Under
Reexamination
TRUCKAI ET AL.

Examiner

Art Unit

Ann Y. Lam

3763

Application/Control No.

Notic of R f renc s Cit d

Page 1 of 1

U.S. PATENT DOCUMENTS
Document Number

*

Country Code-Number-land Code

A

US-6,159,207

B

US-

C

US-

D

US-

E

US-

F

US-

G

US-

H

US-

I

US-

j

US-

K

US-

I

US-

M

US-

Date
mm.yyyy
124000

Classification

Name

606

Yoon

41

FOREIGN PATENT DOCUMENTS
Document Number
Country code-Number-Kind Code

*

Date
MM-YYYY

Country

Classification

Name

N
0

P
0
R
S
T
NON-PATENT DOCUMENTS

*

Include as applicable: Author, Title Date, Publisher, Edition or Volume, Pertinent Pages)

U
V

W

X
'A copy of this reference is not being furnished with this Office action. (See MPEP § 707.05(a)4
Dates in MM-YYYY format are publication dates. Classifications may be US or foreign.
U.S. Patent and Tnadernask Mae

P10.892 (Rev. 01-2001)

Notice of References Cited

Part of Paper No. 19

HOL-MIN_146981

Appx40450

972

III

•

.

SERIAL NO.

ATTY DOCKET NO.

P E'

L6

INFORMATION DISCLOSURE CIT •
(Use several sheets if necessary)

ENVS-22
0

09/103,072

Csaba Truckai

14A0 0 5 2001

GROUP

FILING
.4

•••
'EXAMINER

DOCUMENT NUMBER

• U.S. P

June 23, 1998
A
..,r
- T DOCUMENTS

DATE

NAME

3763

CLASS

SUBCLASS

FILING DATE
IF APPROPRIATE

INITIAL

42' 4

A

8/25/98

5,797,903

Swanson et al.

606

34

4/12/96

..
1

p i

B

5,879,348

3/9/99

Owens et al.

606

41

4/12/96

c

5,891,136

4/6/99

McGee et aL

606

41

4/8/96

5,078,717 •

7/7/92

Parins et al.

606

48

9/10/90

e

ci
c...)

cp
1. ->
f..".__-...-

--7-1

=
co
cm
a:a

(-)
_
.--.•1
D

.7...
..c)

FOREIGN PATENT DOCUMENTS
DOCUMENT NUMBER

DATE

COUNTRY

CLASS

TRANSLATION

SUBCLASS

NO

YES

OTHER DOCUMENTS

(Including Author, Title, Date, Pertinent Pages, Etc.)

D. E. Haines and A. F. Verow, Observations on Electrode-Tissue Interface Temperature and Effect on Electrical Inpenclance
E

During Radiofrequency Ablation of Ventricular Myocardium. Circulation Vol. 82, No. 3, Sept. 1990

Abstracts Fron the 67th Scientific Sessions Dallas Convention Center Dallas, Texas November 14-17, 1994. Circulation

F

EXAMINER

Vol. 90, No. 4, Part 2, October 1994

DATE CONSIDERED

(ft n -z--

*EXAMINE . nitial if referen considered, whether or not citation is in conformance with MPE 60 : Draw line through citation if not in conformance and not
considered. Include copy of this form with next communication to applicant.

Form PTO-A820
(als form P10-1449)

PO9C/REVO3

Patent and Trademark Offlee • U.S. DEPARTMENT OF COMMERCE

PAGE

1

OF

H OL- M I N_146982

Appx40451

2

973

•

Docket Number (Optional)

-

IP
.

INFORMATION DISCLOSURE C1T

a

‘ P E

vCI

ION

(Use several sheets if necessary)

MAR 0

sn

5

Application Number

09/103,072

ENVS-22110
pplicant(s)

saba Truckai
Group Art Unit

ing Date

3763
,,.-.
..
• .et itle, Date, Pertinent Pages, Etc.)
OTHER DOCUMENTS
q • :\';--''
W. M. Jackman et al. Radiofrequency Current Directed Across the Mitral Anulus with a Bipolar Epicardial-Endocardial
Catheter Electrode Configuration in Dogs. Circulation Vol. 78, No. 5, November 1988.
June 23, 1998

•

, •EXAMINER
D1171AL

1

'

4
(Met!

G
First Request for Reexamination of U. S. 5,769,880, Reexamination Control Number 90/005,435
II

,./

Second Request for Reexamination of U. S. 5,769,880, Reexamination Control Nuimber 90/005,866

•
•

.

•

.

•

•

L

'
•

6
c....)
....:

c )
C)

-.7"
.
7-.7

-,3.13
iarl
c)

:21"
Ti
....._

L..)

1 71
.0-`

73

gil

CD

c.)

•

C.)
=

••

•

•
•

•

EXAMINER

DATE CONSIDERED
--t—

•EXAMINER: Initial if cit on considered, whether or not citation:is in conformance with N1PEP Section 609; Draw line through citation if not in conformance and
not considered. Include copy of this form with next communication to applicant.
P09EURE)/04
SHEET

2

OF

HOL-MIN_l 46983

Appx40452

2

974

P
MAR 0 7 201

- 1THE UNITED STATES PATENT AND TRADEMARK OFF
Group Art Unit: 3763

atent Application of
CSABA TRUCKAI , et al.

Examiner: LAM, A

Application No. 09/103,072

RESPONSE TO OFFICE ACTION

Filed: June 23, 1998
For:

MOISTURE TRANSPORT SYSTEM
FOR CONTACT
ELECTROCOAGULATION

121 Spear Street, Suite 290
San Francisco, CA 94105
(415) 512-1312
CERTIFICATE OF MAILING
I hereby certify that this correspondence is being
deposited with the United States Postal Service as
First Class Mail in an envelope, addressed to:
Commissioner for Patents, Washington, DC 20231
on February 28, 2002.
STALLMAN & POLLOCK LLP

Commissioner for Patents
Washington, DC 20231

Dated:

21

0 2-By:
Janet Chan

Sir:
Applicant makes the following amendments and remarks in response to
the Official Action mailed August 29, 2001.
In the Claims
Please cancel Claims 17, 24, 31 and 84-108 without prejudice.
REMARKS
I.

Cancellation of Claims 17, 24, 31 and 84-108

Claims 5-7, 15 and 34-83 were allowed in the Official Action mailed
August 29, 2001. In view of the cancellation of Claims 17, 24, 31 and 84-108,
only allowed claims remain in the case. Since only allowed claims remain in the
case, Applicants respectfully request issuance of a Notice of Allowance.

HOL-MIN_146984

Appx40453

975

This page intentionally left blank.

976

•

PATENT
- 2-

II.

IDS Filed March 5, 2001

Applicant requests acknowledgment of the IDS filed (with copies of
4•
' 7*
references) on March 5, 2001. A copy of that IDS is attached.
1 4r,
-(493

III.

cFtirF

New IDS

A Supplemental Information Disclosure Statement is attached for the

<,
'Y
u>
0

Examiner's consideration.
Respectfully submitted,
STALLMAN & POLLOCK L.L.P.

Dated: 6,0/ 00,Al.) 2 Z 1002-.

By: r92-tbt-9A ---1$10
Kathleen A. Frost
Reg. No. 37,326
Attorneys for Applicant(s)

Attorney Docket No. ENVS-220

HOL-MIN_l 46986

Appx40455

977

1111111111111111111111111111M11E1,
381)1 1111111111111111111111101
United States Patent

[19]

Stern et al.

[75] Inventors: Roger A. Stern, Cupertino; Vincent
N. Sullivan; Robert L. Marion, both
of San Jose, all of Calif.
Vesta Medical, Inc., Palo Alto, Calif.
The portion of the term of this patent
subsequent to Jan. 11, 2011 has been
disclaimed.

Notice:

[21] Appl. No.: 46,683
[22] Filed:

Continuation-in-part of Ser. No. 877,567, May 1, 1992,
Pat. No. 5,277,201.

A61N 5/00
607/98; 607/99;
607/113; 607/138; 606/32; 606/41
606/27, 28, 32, 33,
[58] Field of Search
606/40, 41, 45, 49; 607/98, 99, 113, 116, 138,
148

[51] Int. CI.6
[52] U.S. CI

[56]

References Cited
U.S. PATENT DOCUMENTS
1,827,306
3,324,847
3,369,549
3,750,653
3,789,829
3,840,016
3,901,224
3,924,628
3,934,580
4,014,988
4,016,270

10/1931
6/1967
2/1968
8/1973
2/1974
10/1974
8/1975
12/1975
1/1976
3/1977
4/1977

Chapman et al. .
Zoumboulis .
Armao .
Simon .
Hassen .
Lindemann .
Bucalo
Droegemueller et al. .
Cournut .
Pharriss et al. .
Pharriss et al. .

(List continued on next page.)
FOREIGN PATENT DOCUMENTS
0115420
0407057
8527331.7
3516830
W087/01276

8/1984
1/1991
9/1985
11/1986
3/1987

European Pat. Off. .
European Pat. Off. .
Germany .
Germany
WIPO .

[45]

Date of Patent: * Aug. 22, 1995

"Hyperthermia Overview Using Microwave Antennas", Invited Lectures, Thomas P. Ryan, M.D. Thermoradiotherapy, C. T. Coughlin, M.D.
"Devices: Replaceing the Roto-Rooter", Trends, Michael Dolan.
(List continued on next page.)
Primary Examiner—Lee S. Cohen
Attorney, Agent, or Firm—Oblon, Spivak, McClelland,
Maier & Neustadt
[57]

Apr. 14, 1993
Related U.S. Application Data

[63]

Patent Number:

OTHER PUBLICATIONS

[54] METHOD AND APPARATUS FOR
ENDOMETRIAL ABLATION

[73] Assignee:

5,443,470

[i

ABSTRACT

An endometrial ablation apparatus and method wherein
an RF current having a frequency of between 250 kHz
and 100 MHz is passed through the entire surface of an
endometrium in order to provide heating of the endometrium. An electroconductive expandable member
such as a balloon is used as the medium for passing the
current and causing the heating of the endometrium.
The temperature of the endometrium is raised to a temperature between 45° C. and 90° C. and preferably not
above 70° for a time sufficient to destroy the cells of the
lining while maintaining the average temperature of the
myometrium at a temperature below approximately 42°
C. The expandable balloon is connected to a power
source which provides the radio frequency power having the desired characteristics to selectively heat the
endometrial lining to the desired temperature. The balloon can be constructed with an electroconductive
elastomer such as a mixture of polymeric elastomer and
electroconductive particles or can be a non-extensible
bladder having a shape and a size, in its fully expanded
form, which will extend the organ and effect contact
• with the endometrial lining to be destroyed. The electroconductive member may consist of a plurality of
electrode area segments having a thermistor associated
with each electrode segment whereby the temperature
from each of said plurality of segments is monitored and
controlled by a feedback arrangement from the thermistors.

607/116

22 Claims, 13 Drawing Sheets

JTX-0018
1:15-cv-01031-JFB-SRF

MS100171139

Appx40629

978

5,443,470
Page 2

U.S. PATENT DOCUMENTS
4,072,147
4,102,342
4,160,455
4,198,981
4,292,960
4,296,760
4,311,154
4,349,033
4,375,220
4,377,168
4,409,993
4,469,103
4,491,131
4,494,539
4,549,533
4,552,127
4,572,190
4,622,972
4,638,436
4,658,836
4,662,383
4,674,481
4,676,258
4,692,452
4,700,701
4,754,752
4,754,757
4,758,592
4,771,778
4,773,899
4,776,349
4,818,954
4,823,812
4,836,189
4,852,579
4,860,752
4,865,047
4,927,413
4,935,003
4,938,217
4,946,440
4,949,718
4,955,377
4,960,109
4,961,435
4,967,765
4,974,587
4,979,948
4,985,027
4,993,430
4,997,653
4,998,930

2/1978
7/1978
7/1979
4/1980
10/1981
10/1981
1/1982
9/1982
3/1983
3/1983
10/1983
9/1984
1/1985
1/1985
10/1985
11/1985
2/1986
11/1986
1/1987
4/1987
5/1987
6/1987
6/1987
9/1987
10/1987
7/1988
7/1988
7/1988
9/1988
9/1988
11/1988
4/1989
4/1989
6/1989
8/1989
8/1989
9/1989
5/1990
6/1990
7/1990
8/1990
8/1990
9/1990
10/1990
10/1990
11/1990
12/1990
12/1990
1/1991
2/1991
3/1991
3/1991

Hett .
Akiyama et al. .
Law .
Sinnreich .
Paglione .
Carlsson et al. .
Sterzer et al. .
Eden .
Matvias .
Rzasa et al. .
Furihata .
Barrett .
Vassiliadis
Zenitani et al. .
Cain et al. .
Schiff .
Azam et al. .
Giebeler, Jr. .
Badger et al. .
Turner .
Sogawa et al. .
Boddie, Jr. et al. .
Inokuchi et al. .
Cerny et al. .
Montaldi .
Ginsburg et al. .
Feucht .
Horrobin et al. .
Mar .
Spears .
Nashef et al. .
Flachenecker et al. .
Eshel et al. .
Allred, III et al. .
Gilstad et al. .
Turner .
Chou et al. .
Hess .
Gainutdinova et al. .
Lele .
Hall .
Newwirth et al. .
Lennox et al. .
Lele .
Kitagawa et al. .
Turner et al. .
Turner et al. .
Geddes et al. .
Dressel
Shimoyama et al. .
Igarashi .
Lundahl .

5,003,991
5,006,119
5,026,959
5,032,124
5,035,694
5,041,089
5,045,056
5,050,597
5,057,106
5,059,191
5,084,044
5,092,841
5,098,429
5,100,388
5,188,122
5,248,312
5,277,201

4/1991
4/1991
6/1991
7/1991
7/1991
8/1991
9/1991
9/1991
10/1991
10/1991
1/1992
3/1992
3/1992
3/1992
2/1993
9/1993
1/1994

Takayama et al. .
Acker et al. .
Ito et al. .
Menton .
Kazprzyk et al. .
Mueller et al. .
Behl .
Daikuzono .
Kasevich et al.
Beyer et al. .
Qunit .
Spears .
Sterzer .
Behl et al. .
Phipps et al.
Langberg
Stern

606/33

607/138
607/113
607/98

OTHER PUBLICATIONS
"Endometrial Ablation", Therapeutic Hysteroscopy:
Indications and Techniques, pp. 148-163, W. W. Babcock et al.
"Uterine Resectoscopes for Endometrial Ablation and
Resection", Karl Storz.
"Treatment of Menorrhagia by Radiofrequency Heating", Int. J. Hyperthermai, 1991, vol. 7, No. 2, 213-220,
M. V. Prior et al.
"Treatment of Functional Menorrhagia by Radiofrequency-Induced Thermal Endometrial Ablation",
The Lancet, Feb. 17, 1990, pp. 374-376, J. H. Phipps et
al.
"Resectoscopes for the Gynecologist", Contemporary
OB/GYN, Philip G. Brooks, M.D., pp. 51-57.
"New Techniques in Operative Hysteroscopy", Audio-Digest Obstetrict/Gynecology, vol. 37, No. 10, May
15, 1990, Bruce McLucas et al.
"New Concepts in Hysteroscopy", Symposium, Contemporary OB/GYN, pp. 84-103, Michael S. Baggish,
M.D. et al.
"Microwave Applicator for Transurethral Hyperthermia of Benign Prostatic Hyperplasia", Int. J. Hyperthermia, 1989, vol. 5, No. 3, 283-296, M. A. Astrahan et
al.
"Endometria Ablatin: An Alterative to Hysterectomy",
The American Journal of Gynecologic Health, vol. V,
No. 3, Thierry G. Vancaillie, M.D.
"A Technique for Combining Microwave Hyperthermia with Intraluminal Brachytherapy of the Oesophagus", Int. J. Hyperthermia, 1989, vol. 5, No. 1, 37-51, N.
A. Astrahan et al.

MSI00171 140

Appx40630

979

U.S. Patent

Aug. 22, 1995

5,443,470

Sheet 1 of 13

6

/

MS100171141

Appx40631

980

U.S. Patent

Aug. 22, 1995

Sheet 2 of 13

5,443,470

FIG. 2

MS100171142

Appx40632

981

U.S. Patent

Aug. 22, 1995

Sheet 3 of 13

5,443,470

MS100171143

Appx40633

ttl, I- L I, 00ISIAI

-uu-u- I110

COMPUTER

Appx40634
120

DIGITAL
I/Q

--114

112

f

RF CONTROL EXTERNAL
RF SOURCE
CONTROL
INTERFACE
Q00
=Z:1

1 FIG. 5 cx,
OVER VOLTAGE I____4
SUPRESSION
/
124

a-o-a140 ,-2000'
142
..-/vvo,...
V"--V1
V
HIGH SPEED
118
ANALOG
MULTIPLIER
RMS-DC
RMS-DC
118
CONVERTERS CONVERTERS
VYMS
Ras VYMS
Y1 ISOLATION
186 ----- AMPLIFIER
A/D
116
CONVERTERS

JOS ,

=1:1111

ISOLATION XFMR
OVER VOLTAGE
RF INPUT OVER CURRENT
RF POWER --: 122
PROTECTION ---BAND PASS
RF b
139
FILTER

RF a

10

1

lualua 'S'I1
S66I `ZZ 'HIV
CI JO t laaqS

I

982

91711-LIMOISIN

ELCTR1
ELCTR2
ELCTR3
ELCTR4
E_CTR5
ELCTR11

Appx40635

130

CONTROL
SOLID STATE SWTICH BANK
1 OF 11
THERM1
THERM2
THERMS
128
THERM4
THERM5
TEMPERATURE
THERM11
MEASSUREMENT
.--0"" .‘' 0
CIRCUITRY
TEMPERATURE
134
CONTROL
MEASSUREMEK
OPTO
OPTO
/ CIRCUITRY
130
132
ISOLATOAS ISOLATOAS

136

RELAYS OR SOIL
STATE SWITCH BANK

RF POWER OUT

11
THERMISTOR
O COMMON

C 1
C 2

C 2

C 1

FIG_ 5 b

' 0 INDIFFEREIff
ELECTRODE CONNECTOR
C 1 1
CONNECTORS TO
C 2
N ELECTRODETHERMISOR PAIRS
1
C 2
138
ISOLATED
1 3
PATIENT
C 2
CONNECTIONS

lualud °S6.11
5661 `ZZ tnV
of Jo S pails

ISOLATION BARRIER

983

984

U.S. Patent

Aug. 22, 1995

Sheet 6 of 13

5,443,470

co
t.r)

MS100171146

Appx40636

985

U.S. Patent

Aug. 22, 1995

5,443,470

Sheet 7 of 13

Via
@
164

L_

--___

-..,

162

,....

---

,..s.

..,

--,

160

...0•*".

@

•••••*".

166

../....

•-,
.........."

.....""."

FIG. 8a

160

I

Via

166

163

164
169

FIG. 8 b

MS100171147

Appx40637

986

U.S. Patent

Aug. 22, 1995

Sheet 8 of 13

5,443,470

MS100171148

Appx40638

987

U.S. Patent

Aug. 22, 1995

Sheet 9 of 13

5,443,470

MS100171149

Appx40639

988

U.S. Patent

Aug. 22, 1995

Sheet 10 of 13

5,443,470

p

\Cie

L_
L_

_._1

ti

MS100171150

Appx40640

989

U.S. Patent

Aug. 22, 1995

Sheet 11 of 13

5,443,470

MS100171151

Appx40641

Z91. I.L I.00ISIN

Appx40642

VT

V REF

210

A2

234

232
233
A2
R8

RF IN

244

ISOLATED
GROUND

FILTER

FILTER

r

r

FILTER

-4-1 FILTER I

MEASUREMENT
SWITCH MATRIX

240
/

249

248

246

COM

3

2

1

220

227

263

261
262

FIG.

226

■
RT3

2 224

222

ELECTRODES

73

lualud °S'fl
S66I `ZZ '211 7
CI Jo ZI PatIS

RE POWER
SWITCH MATRIX

990

£91. I.L 1.00ISIN

COM

222
RT2
224

Appx40643

226

262

263

EFFECTIVE

FIG.

>4

R23 -V-TRIESSIUSTEANCES
254

R12
253

lualud *S'fl
S66I `ZZ tnV

EI JO ET lams

261

ELECTRODES

991

992
5,443,470

1
METHOD AND APPARATUS FOR
ENDOMETRIAL ABLATION
CROSS-REFERENCE TO RELATED
APPLICATION

5

This is a continuation-in-part of application Ser. No.
07/877,567 filed May 1, 1992, now U.S. Pat. No.
5,277,201.
10
BACKGROUND OF THE INVENTION
1. Field of the Invention
The present invention relates to a method and an
apparatus for in situ destruction of the inner lining of
body organs, and more particularly the providing of a
selective destruction of the endometrium as an alternative to hysterectomy for treatment of uterine bleeding.
2. Discussion of Background
Prior techniques for removing or destroying the inner
lining of body organs have been explored in order to
provide for an alternative to surgical removal of the
body organs for treatment of diseases and other abnormal conditions. Prior techniques involved the destructive treatment of the inner linings with chemicals and
with various forms of thermal energy such as radio
frequency, microwave heating, cryotherapy, laser surgery and electrosurgery. Radio frequency and microwave energies have also been applied directly to the
linings to generate heat in situ.
One type of thermal destruction is described in U.S.
Pat. No. 4,979,949 wherein thermal ablation of the mucosal layer of a gall bladder is accomplished by resistive
heating with an RF balloon electrode. Electric current
is delivered from the balloon by a conductive expansion
liquid filling the balloon. This device has power loss
which occurs in the conductive fluid and it cannot be
adapted for anything but a single electrode arrangement
and it lacks a complete individual power control and/or
temperature sensor.
In another example of prior art treatment, balloon
catheters have been supplied with a heated fluid for
thermal ablation of hollow body organs as described in
U.S. Pat. No. 5,045,056. Furthermore, application of
microwave and high frequency RF energy to body
areas to destroy body tissue, using single electrodes
enclosed in expanded balloons have been described in
U.S. Pat. No. 4,662,383 and U.S. Pat. No. 4,676,258.
The disadvantage of the procedures occurring in the
prior art such as described above include a lack of uniform large area treatment because these procedures
involve a lack of uniform control or temperature sensing ability to ensure complete ablation.
Other procedures developed to date involve manual
applications of small treatment tools to successive areas
of the lining which is an expensive operating room
procedure and which, similar to the other previous heat
balloon treatments, involve limited assurance of uniform results.
SUMMARY OF THE INVENTION

5

20

25

30

35

40

45

50

55

60

2

out on an out-patient basis without requiring the use of
an operating room.
The objects of the invention are carried out by a
method which utilizes an electrically conductive or
conductively coated expandable member conforming to
the inner surface of the endometrium. The expandable
member is filled with an electrically non-conductive
medium and a RF current is passed through substantially the entire surface of the endometrium. The current is sufficient to resistively heat the endometrium in
a single Operation to a temperature within a range of
between 45° C. to 90° C. for a time sufficient to destroy
the cells of the lining while maintaining the average
temperature of the myometrium at a temperature of
substantially 42° C. or less. The RF current has a frequency of at least 250 kHz and less than 100 MHz.
The method according to the present invention involves the insertion of a conductive, expandable member in its unexpanded state into the uterine cavity
through the cervical opening and subsequently expanding the member to establish surface contact with the
endometrial surface and applying the RF current to the
member in its expanded condition.
It is a further object of the present invention to provide that the electroconductive expandable member
includes a thin bladder having an array of separate electrodes on one surface and further having a temperature
sensor associated with each separate electrode in order
to provide a feedback temperature sensor for each electrode. The plurality of separate electrodes are independently and sequentially energized with thermistor temperature feedback to bring the endometrial temperature
to a desired level.
It is further an object of the present invention to
provide electrodes having a specific configuration so
that the heating is not concentrated at the edges of the
electrode and so that uniform heating is achieved over
the entire electrode surface by providing a plurality of
throughholes throughout the electrode or by forming
the electrode in a pattern of lines, thereby creating a
uniform density of edges and equalizing the current
density across the surface area of the electrode.
It is a further object of the present invention to provide an electronic control means capable of controlling
the output of a conventional electrosurgical power
source and delivering power from the power source
sequentially, and in a controlled manner, to the electrodes of the balloon.
It is a further object of the present invention to provide a disposable handheld applicator and electrode
assembly combination to deliver the ablation device to
the uterus and to retract the device upon completion of
the ablation.
It is a further object of the present invention to provide an array of separate electrodes and associated separate thermistors on an expandable member with a series
of power leads with each power lead delivering power
to a single electrode and to its associated thermistor to
provide a temperature feedback for temperature regulation of the endometrial ablation.
It is a further object of the present invention to provide an inner lumen having the ability to contain a fiber
optic image conduit which serves as a visual aid when
placing the device.

Accordingly, one object of the present invention is to
provide a novel method and apparatus for performing
safe and rapid endometrial ablation without the need for 65
BRIEF DESCRIPTION OF THE DRAWINGS
visual contact during the ablation of the lining.
It is a further object to provide an apparatus and a
A more complete appreciation of the invention and
method for endometrial ablation which can be carried
many of the attendant advantages thereof will be

MS100171154

Appx40644

993

5,443,470

readily obtained as the same becomes better understood
by reference to the following detailed description when
considered in connection with the accompanying drawings, wherein:
FIG. 1 is a cross-sectional representation of an elec- 5
troconductive balloon as an expandable member in an
expanded format in place in a uterus;
FIG. 2 is a representation of the apparatus of FIG. 1
in an unexpanded condition;
FIG. 3 is an enlarged cross-section illustrating the 10
relationship between a small segment of the uterine
endometrium and the expanded member;
FIGS. 4a-b is a representation of an embodiment of
an expandable member which uses a plurality of surface
segments with each surface segment having a separate 15
conductive surface and a temperature sensor;
FIGS. 5a-b is a schematic representation of the
power control system for the multi-segment element
shown in FIG. 4;
FIG. 6 illustrates an embodiment of the multi-seg- 20
ment element having perforated electrodes with illustrated power traces on the outside surface of the expandable member;
FIG. 7 illustrates thermistor traces and circular wir25
ing jumper mounting pads on the interior of the expandable member;
FIGS. 8a and 8b illustrates the double-sided electrode/thermistor traces on the respective inside and
outside portions of the expandable member of FIGS. 6 30
and 7;
FIG. 9 illustrates an embodiment utilizing flat metallized stock material to be adhesively bonded to the
expandable member with the material being arranged in
a serpentine configuration;
35
FIGS. 10a-b show the bladder device for delivering
the expandable member to the uterus;
FIGS. lla-c show the bladder device of FIG. 10 in a
retracted position and illustration of the deflated expandable member;
40
FIG. 12 schematically represents the connection of
the bladder device to the power generation source and
testing structure;
FIG. 13 is a schematic of an embodiment of the temperature measurement circuitry of FIG. 5; and
45
FIG. 14 is an equivalent of FIG. 13 showing effective
tissue shunting.
DETAILED DESCRIPTION OF THE
PREFERRED EMBODIMENTS

50
Referring now to the drawings, wherein like reference numerals designate identical or corresponding
parts throughout the several views, and more particularly to FIG. 1 thereof, a cross-sectional representation
of the invention utilizes an electroconductive balloon as 55
the expandable member with FIG. 2 representing the
same apparatus as FIG. 1 prior to inflation of the balloon element. The uterus 2 consists of myometrial tissue
4 surrounding the uterine cavity. The normal uterine
cavity or envelope is a flat cavity having approximately 60
the shape of an inverted triangle with the two upper
corners communicating with the ovaries by way of the
fallopian tubes 6 in the bottom corner opening into the
cervical canal 8. The entire surface of the envelope
includes the entrance of the fallopian tubes 6 and the 65
cervical canal 8 which is covered with a thin layer of
tissue known as uterine endometrium. The selective
destruction of the endometrial cells is the goal of the

4

improved method and apparatus disclosed in this present invention.
The monopolar electrode system developed in conjunction with FIG. 1 expands to conform to the endometrial surface to be treated and this in turn dilates and
stretches the endometrium to reduce surface folds.
Radio frequency electric current passes through the
dilated endometrial surface for a time sufficient to destroy the endometrial cells by elevating the temperature
of the endometrium to between 45° C. and 90° C., and
preferably within 10 seconds. The temperature is maintained until the endometrial tissue is destroyed which is
optimally accomplished by a temperature between 55°
C. to 65° C. for up to 10 minutes.
The electric current passes through or along the surface of the expandable member and the interior of the
expandable member is filled with an electrically nonconductive substance such as a fluid or gas. The expandable member can be any material or article which
can be compressed or otherwise prepared in a small
diameter configuration for insertion through the cervix
and expanded or inflated after insertion to provide the
dilation. This expandable member establishes direct
electrical connection or capacitive coupling with the
endometrium. A second electrical contact can occur by
way of grounding plates or patches which contact a
large area of the patient's skin in order to complete the
electrical circuit.
Electric current flowing through the tissue causes
resistive heating. The power density diminishes with
distance from the electrode as the reciprocal of the
fourth power of the distance. Thus, any heat generated
is focused in the endometrium and the immediately
surrounding muscular tissue which in the particular
case of the present invention is the portion of the myometrium in contact with the lining. Because the myometrium 4 is highly vascularized, heat removal occurs
rapidly. As a result, the temperature of the endometrium 12 can be heated to a destructive temperature
faster than the myometrium and the rest of the uterus.
Therefore, because of this temperature relationship,
endometrial ablation can be safely accomplished as a
simple medical procedure using local anesthesia. Furthermore, it can be a service made available at a fraction
of the cost of prior art systems with less hazard than
other endometrial ablations.
The inflatable balloon or bladder 14 is inserted into
the uterine cavity 15 as shown in FIG. 2 and subsequently the inflation of the balloon occurs with a gas or
a non-conductive liquid so that it extends and fills the
uterine cavity conforming to the expanded surface as
shown in FIG. 1. Portions of the balloon 14 extend into
the entrance to the fallopian tubes 6 and extend along
the entire endometrial surface 12 to the cervix 8. The
balloon is attached to and forms a fluid-tight seal with
the tube 16 which encloses a smaller fluid delivery tube
18 as well as an electrical cable 20 containing leads for
the conductor as well as additional leads for the sensors.
A plurality of temperature sensors 24 are shown attached to the inner surface of the balloon. Alternatively,
this lead configuration can be replaced by lead pairs 22
for each sensor. The temperature sensors 24 are conventional thermistors or thermocouples and are positioned
on zones of the balloon which will contact areas of the
endometrial surface which are most sensitive to overheating. The temperature sensors can also be fiber optic
temperature sensors. The fluid delivery tube 18 is connected to a source of gas or liquid through a conven4

3

MS10 0 1 71155

Appx40645

994
5,443,470
5

6

tional fluid control system which will be later illustrated
in conjunction with FIG. 13.
The FIG. 3 is an enlarged cross-section illustrating
the relationship between a small segment of uterine
endometrium and the expandable balloon element of the
FIG. 1. The endometrial lining 12, supported on the
myometrium 4, is typically an irregular surface even
after it is extended by the inflated balloon 14. Electrical
contact between the conductive surface 35 on the outer
surface of the balloon 14 and the endometrium 12 can be
improved by covering the outer surface of the balloon
14 with a conventional electroconductive solution,
paste or gel 37 which is physiologically non-toxic and
non-irritating. Suitable electroconductive media including the known types of gels and pastes used as surface
coatings for defibrillators may be used. Examples of
suitable conductive gels are carboxymethylcellulose
gels made from aqueous electrolyte solutions such as
physiological saline solutions and the like. The electroconductive solution, paste or gel enhances electrical
contact between the balloon and the endometrium by
filling the pores of the balloon surface and the irregularities in the endometrial surface.
The expandable balloon or bladder can be an elastomeric polymer such as a natural or synthetic rubber
made conductive by mixing the polymer with electroconductive particles such as carbon or conductive
metal particles. Alternately, it may be made conductive
by a surface coating of electroconductive material such
as an electroconductive gel, or a conductive metal coating on the outer or inner surface of the balloon or bladder wall. Electroconductive coating can be applied to
organic polymer surfaces by conventional vapor deposition, electrical depositions, sputtering and the like.
A preferred balloon comprises a thin, non-extensible
polymer film such as a polyester or other flexible thermoplastic or thermosetting polymer film, for example,
having a conductive metal coating on the outer or inner
surface thereof. The films form a non-extensible bladder
having a shape and size, in its fully expanded form,
which will extend the organ and effect contact with the
endometrial lining to be destroyed. The inner surface of
the non-extensible bladder can be coated with electroconductive material which will capacitively couple to
the endometrium provided that the bladder wall thickness is less than approximately 0.25 mm.
The surface of the expandable member can be an
open-cell, porous material such as a foam or similar
caged network of material which can hold a quantity of
the electroconductive solution, paste or gel required to
secure satisfactory electrical contact with the opposed
endometrial surface. The surface can be coated with or
impregnated with the electroconductive substance.
FIG. 4 illustrates an embodiment using a balloon with
a plurality of surface segments as the expandable bladder 39. Each of the surface segments has a conductive
surface and a temperature sensor. In this particular
embodiment, the balloon has a segmented electrode
coating of electroconductive metal on either the inner
or the outer surface to permit controlled delivery of
power to each segment. Each segment 40 is electrically
connected through conventional leads to a power
source (not shown in FIG. 4). Each conductive segment
40 also has a thermistor 42 which is connected through
conventional leads to a switch matrix. FIG. 4B illustrates a top view of the bladder 39 and particularly
features a lumen 44 extending through the center of the
bladder 39. The lumen allows for light guides to be

inserted through the center of the electrode. In other
words, there is an inner lumen tube 44 attached to the
center of the flat film.
FIG. 5 is a schematic representation of the power
source controller and the switch matrix for the multisegment balloon discussed above in conjunction with,
for example, FIG. 4. The electrical leads connect to the
electro-thermistor pairs of the bladder of FIG. 4 by way
of connectors 138 as shown in FIG. 5. The thermistor
leads are connected to the matrix switch bank 134 and
the electrode leads are connected to the switch bank
136. Each thermistor (FIG. 4a) 42 is sampled by means
of the temperature measurement circuitry 128 and the
isolation amplifier 126 before being converted in the
converter 116 and fed to the computer 114. The temperature measurement circuitry compares the measured
temperature with a thermistor reference voltage 132.
The electrode switch 136 is controlled in response to
the output of the computer 114 by means of the optoisolators 130. Input power from the RF input passes
through the overvoltage and overcurrent protector 110
and is filtered by the bandpass filter 122 before being
subjected to overvoltage suppression by the suppression
unit 124. The voltage is isolated by means of the transformers 139, 140 and 142 with the transformer voltages
Vi and V, from the transformers 140 and 142 being
converted by the RMS-DC converters 118 into an RMS
voltage to be fed to the converters 116. Prior to conversion, the signals Vi and V, are also fed to a high-speed
analog multiplier 120 RF control from computer 114 is
provided through interface 112.
A variation of the electrode structure of FIG. 4 is
shown in FIG. 6 wherein there are perforated electrodes 150 illustrated with their power traces 152. This
particular electrode bladder of FIG. 6 is shown with the
perforated electrode 150 on the exterior of the bladder.
FIG. 7 illustrates thermistor common-side traces 154
on the interior of the bladder with circular wiring jumping pads 156 with mounting sites 157 serving as the base
for the thermistors. The common-side traces provide
power for both the electrodes and the associated thermistor. The FIG. 7 illustrates both interior sides of the
bladder.
FIGS. 8a-b illustrates both the outside and the inside
of a double-sided electrode with thermistor traces having perforated electrodes 160 on the outside and thermistor wiring pads 162 and electrode power leads 164 as
well as thermistor mounting sites 166 on the inside. The
connection between the inside and outside of the bladder is shown by the continuity labeled Via in the FIGS.
8a and 8b. FIG. 8b specifically shows a cross-sectional
view of the bladder with the electrode 160 on the top or
outside surface and the power traces 164 and thermistor
wiring pad and mounting site 166 on the lower or inside
surface. FIG. 8b illustrates the mounting of the thermistor 163 on the mounting site 166 with a connection
between the power trace 164 and the thermistor 163
being made by the thermistor lead 169. FIG. 8b clearly
illustrates that all except one of the holes in the perforated electrode 160 have a depth which reaches to the
substrate or bladder 174. The one hole labelled Via
extends through the entirety of the bladder as an electrical connection between the perforated electrode 160
and the power trace 164 on the bottom or inside surface.
The FIG. 8a embodiments corresponds to a combination of the inside illustration of the power traces and the
bonding surfaces from FIG. 7 along with the perforated
electrode of FIG. 6 with the exception that FIG. 8a has

5

10

15

20

25

30

35

40

45

50

55

60

65

MS100171156

Appx40646

995

7

5,443,470

the power traces on the inside surface whereas the embodiment of FIG. 6 has the power traces for the perforated electrodes on the outside surface.
Each of the views of FIGS. 6, 7 and 8, whether on the
inside or the outside must be understood to represent 5
only two surfaces of a bladder which must necessarily
have four surfaces. The bladder, prior to inflation, can
be envisioned as triangular with two outside triangular
surfaces (top and bottom) and two inside triangular
surfaces prior to inflation.
10
A further variation of the electrode structure is
shown in FIG. 9 which illustrates a flat metallized stock
material adhesively bonded as electrodes 170 and 172 to
the outside of both the top and the bottom of the bladder. The electrodes, which are metallized and adhe- 15
sively bonded, form a serpentine electrode pattern in
order to promote uniform heating of the area.
FIGS. 10a and 10b illustrate the bladder application
device which is used to insert the bladder electrode
constructed in accordance with any one of the embodi- 20
ments discussed above. FIG. 10b is a side view of the
application device illustrating a sheath applicator with a
main tube and a shrink wrap covering the wiring leads.
A fiber bundle is located in the center of the applicator
which would be connected through the lumen illus- 25
trated in FIG. 1, for example. The applicator device 175
has an inflation inlet 176 and an electrode wiring insertion port 177 as well as the optical viewing fiber inlet
178 through a lumen. Movement of the bladder electrode 180 is controlled by the alignment guide and the 30
sheath retraction knob 181 acting in conjunction with a
thumb detent 182. The applicator of FIG. 10a shows the
bladder electrode in an extended but unexpanded position.
The FIGS. lla-c illustrate the bladder device of 35
FIG. 10 in a retracted position with FIGS. llb and 11c
being taken at the cross sections titled A--A' and B—B'
respectively. FIG. 11c illustrates the position of the
deflated bladder with respect to the main tube in the
retracted position at line B—B'. The remaining features 40
of the applicator 175 remain as indicated with respect to
FIG. 10.
An illustration of the connection of the application
device 175 and the electrode balloon 190 in accordance
with any one of the embodiments of the FIGS. 6-9 is 45
illustrated in FIG. 12. An inflation pump 193 provides
the medium for the expansion of the balloon 190 while
the electrode belt 195 provides the reference electrode
for connection to the control system 100. RF generator
197 serves as the RF input power for the control system 50
schematic of FIG. 5 by means of electrosurgical interface cables 199. The control module 203 and interface
control 204 connect with computer 114.
Once the electrode system and the control system of
FIG. 12 and FIG. 5 are connected, the RF electrodes 55
are separately, independently and sequentially energized with thermistor temperature feedback to bring the
endometrial temperature up to a desired level. The
system accomplishes this in an automated manner based
upon the output from the RF generator 197 which is a 60
conventional electrosurgical power supply. As discussed previously, the electrodes may have a variety of
specific configurations and heating is concentrated in
the endometrium at the surfaces of the electrodes due to
the various illustrated electrode configurations in order 65
to provide uniform heating. An example of the concentration of the heat over the entire surface of the electrode is available from the embodiment wherein holes

8

are provided through the electrode as shown in FIGS.
6 and 8. Uniform heating is also obtained by extending
the electrodes in a pattern of lines such as the serpentine
pattern structure of FIG. 9.
As a result of these kinds of constructions, the treatment method of the present invention as well as the
electrode elements provide an increased current density
as a function of the "electrode edge length" available
for heating. Furthermore, as discussed previously, the
electrodes can be on the outer surface of the bladder
while the power traces, thermistors, and thermistor
leads can be on the other surface of the bladder.
In the embodiments of FIGS. 6-9, the various electrode pattern feature common power traces for both the
electrodes and the associated thermistors. That is, one
power lead provides the power for an individual electrode as well as its associated thermistor thereby saving
in the construction of the bladder electrodes by reducing the number of required thermistor leads by one-half.
In such embodiments, each electrode has a corresponding thermistor lead in common with the RF power lead.
The second leads from all thermistors are then connected together to form a thermistor common as shown
for example in the FIGS. 7 and 8a. This arrangement
provides the advantage that it only requires N + 1 leads
to drive an ablation balloon with N electrodes and N
thermistors. Because of this construction, however, the
temperature measurement circuitry 128 of FIG. 5 has
additional requirements beyond the construction with a
separate power lead for each thermistor and for each
individual electrode. The construction with separate
power leads for the electrodes and the thermistor are
well known and any one of a variety of temperature
measurements schemes for individual electrodes could
be utilized.
The specialized requirements brought about by using
a common power lead for each electrode and each
thermistor are met by the embodiment shown in the
FIG. 13. In FIG. 13, RF power is selectively applied
through switch matrix 210 so that it can be applied to
selected electrodes. The electrode/thermistor circuitry
is represented on the right hand side of the Figure generally as 220 with a particular example being given by
three electrodes and three thermistors represented by
resistors 222, 224 and 226. A reference voltage Vref is
buffered by an operational amplifier follower 232 and
passes through resistor 233 before entering the measurement switch matrix 240. The output of resistor 233 is
buffered by operational amplifier 234. Outputs of the
measurement switch matrix 240 are fed through the
filters 244, 246 and 248 which represent low pass filters
which block high frequency RF but pass DC and very
low frequency voltages.
The balloon thermistor common lead 227 passes
through the filter 249 to ground.
During operation, RF power is applied to a particular
desired electrode or electrodes by operations of the RF
power switch matrix 210. Measurement of thermistor
resistance 222, 224 or 226 is independent of the particular electrodes connected to the RF power. In order to
provide a measurement of RT1 (222), measurement
switch matrix 240 is set up to connect lead 1 to the right
hand side of resistor 233 while all other leads are set to
be connected to the output of the follower 234. This
particular set up and arrangement forces the voltage
VT to be equal to VREF RT1/(Rb RT1). Therefore
this allows the measurement of RT1 due to the known
value of Rb and VREF. Because the other leads 2, 3 from

MS100171157

Appx40647

996

9

5,443,470

the circuitry 220 are held at the same voltage by the
follower 234, there are no voltage differences between
any of these leads and therefore no current will flow
between them.
This lack of a current between leads is extremely
important because the tissue which contacts the electrodes cause an effective shunt current path that would
otherwise affect the measured voltage VT, without the
circuitry of FIG. 13.
This effective shunting by the tissue is illustrated by
the equivalent circuit of FIG. 14 which shows effective
tissues resistances 253 and 254 connected between electrodes 261, 262 and 263.
The bladder electrodes are constructed in accordance
with a method wherein a double-sided thin flat film is
plated on one side to increase the electrode thickness
and a deposit mask is provided for an electrode pattern
on the thick side using lithographic techniques. Then a
mask is deposited for the conductors which lead to the
temperature sensing elements on a second side. Subsequently, non-masked conductors are etched away leaving the desired pattern. In an alternate embodiment, the
conductive patterns for the electrodes and conductors
leading to the temperature sensing elements could be
directly deposited using vapor or other deposition techniques.
The thermistors (FIG. 4a) 42 are provided using
surface mounting techniques and the attached inner
lumen is provided at the center of the flat film. The
balloon is then folded and sealed to the main tube at the
proximal end with the inner and outer concentric tubes
sliding with respect to each other as illustrated in the
FIG. 10. Subsequently, conductors are brought to the
outside of the main tube to the end of the device near
the handle of the applicator. The outer tube is placed
over the conductor and heat-shrunk as shown in FIG.
10b. Finally, the handle of the applicator of FIG. 10 or
FIG. 11 is assembled.
Other forms of providing an electrode balloon may
be used such as utilizing a blow molded preform or the
formation of the balloon with copper on polyimide
conductive elements on the surface of a compliant balloon. Furthermore, this balloon may be formed as a
"sock" to fit over the inner latex balloon with the sock
being a compliant device. Other anticipated forms of an
electrode balloon structure include the use of the plated
or etched wiring all the way from the balloon itself
down to the handle.
Utilizing the present invention allows for the use of
low accuracy thermistors wherein calibrations can be
stored in memory chips in the handles of the device.
The attachment of the electrodes to the bladder can be
accomplished by conductive adhesive or by soldering.
The applicator of FIGS. 10 and 11 can be deployed
by pulling the front end of the balloon back inside and
collapsing the balloon around it. In order to expedite
the deployment, the pattern can be formed with particular kinds of spines for the sheath in order to aid in the
folding of the patterned electrode within the applicator.
Obviously, numerous modifications and variations of
the present invention are possible in light of the above
teachings. It is therefore to be understood that, within
the scope of the appended claims, the invention may be
practiced otherwise than as specifically described
herein.
What is claimed and desired to be secured by Letters
Patent of the United States is:

5

10

15

20

25

30

35

40

45

50

55

60

65

10

1. An endometrial ablation apparatus for selectively
destroying the endometrial lining of a body organ, said
apparatus comprising:
an electroconductive, expandable electrode means
for effecting electrical contact with said endometrial lining to be destroyed, said expandable electrode means containing an electrically non-conductive expansion medium for extending said electrode
means to provide said effected electrical contact
with said organ;
a radio frequency power means connected to said
expandable electrode means at a frequency greater
than 250 kHz for selectively providing current to
said electrode means to heat said endometrial lining
to a uniform temperature of between 45° C. to 90°
C.
2. An endometrial ablation apparatus according to
claim 1 wherein said frequency is in a range between
250 kHz and 100 MHz.
3. An endometrial ablation apparatus according to
claim 1 wherein said expandable electrode means include an electroconductive balloon and an expansion
fluid inlet which is connected to the electroconductive
balloon and wherein said balloon is filled with said
electrically non-conductive expansion medium.
4. An endometrial ablation apparatus according to
claim 3 wherein said balloon is an electroconductive
elastomer.
5. An endometrial ablation apparatus according to
claim 1 wherein said expandable electrode means is a
non-extensible bladder coated with electroconductive
material.
6. An endometrial ablation apparatus according to
claim 5 wherein an inner surface of said non-extensible
bladder is coated with electroconductive material and
the bladder wall thickness is less than 0.25 mm.
7. The apparatus according to claim 1 wherein said
expandable electrode means includes at least one temperature sensing means.
8. The apparatus according to claim 1 wherein the
radio frequency power means includes an output and
the apparatus further includes a control means for controlling the output of said radio frequency power means
to said expandable electrode means.
9. The apparatus according to claim 8 wherein said
control means includes at least one thermistor, having
an output, for measuring a temperature of said expandable electrode means and wherein said control means
includes means for comparing the output of said at least
one thermistor with a reference value and wherein said
control means provides an output in response to said
means for comparing in order to control the output of
said radio frequency power means.
10. The apparatus according to claim 1 wherein said
expandable electrode means includes an expandable
member and a flat metallized electrode, said expandable
member having an outside, said flat metallized electrode
being attached to said outside, and wherein said metallized electrode is arranged in a serpentine manner to
form a patterned electrode.
11. The apparatus according to claim 1 wherein said
radio frequency power means provides current to said
electrode means to heat said endometrial lining to a
uniform temperature of between 45° C. to 90° C. for a
period of ten minutes or less.
12. The apparatus according to claim 1 wherein said
expandable electrode means is provided with a plurality
of separate electrodes and a thermistor associated with

MS100171158

Appx40648

997

5,443,470
11
each of said plurality of separate electrodes and further
including a plurality of electrode power leads each one
of said leads being electrically connected to a respective
one of said plurality of separate electrodes and a respective one of said thermistors.
13. The apparatus according to claim 12 further including a temperature measurement circuitry including
a first switch matrix means for selectively applying RF
power to at least one of said plurality of electrode
power leads, a first reference voltage point, a second
reference voltage point and a second switch matrix
means for connecting a selected one of said plurality of
electrode power leads to said first reference voltage
point while simultaneously connecting all other ones of
said electrode leads to said second reference voltage
point.
14. An endometrial ablation apparatus for selectively
destroying the endometrial lining of a body organ, said
apparatus comprising:
an electroconductive, expandable electrode means
for effecting electrical contact with said endometrial lining to be destroyed, said expandable electrode means containing an electrically non-conductive expansion medium for extending said electrode
means to provide said effected electrical contact
with said organ, said expandable electrode means
being a non-extensible bladder provided with a
plurality of separate electrodes; and
a radio frequency power means connected to said
expandable electrode means at a frequency greater
than 250 kHz for selectively providing current to
said electrode means to heat said endometrial lining
to a uniform temperature of between 45° C. to 90°
C., said radio frequency power means having an
output.
15. The apparatus according to claim 14 wherein
each of said electrodes includes a thermistor.
16. The apparatus according to claim 15 further ineluding a control means responsive to an output of each
of said thermistors for controlling the output of the said
radio frequency power means to said expandable electrode means.
17. An electrically conductive expandable electrode
assembly for providing electrical contact with an endometrial lining of a uterus for the purpose of destroying
said endometrial lining, said assembly comprising:
an expandable bladder having an-inner surface and an
outer surface, one of said inner and said outer surface being provided with a plurality of separate
electrodes and the other of said inner and outer
surface being provided with a plurality of thermistors corresponding to each of said plurality of electrodes;
each of said plurality of electrodes further comprising
a plurality of holes with one of said plurality of
holes of each electrode extending through said
bladder from said outside surface to said inside
surface and said extended holes providing electri-

5

10

15

20

25

30

35

40

45

50

55

60

12

cal continuity between said electrodes and said
other surface;
said other surface further including a plurality of
power leads, each lead being electrically connected
to a corresponding one of said electrodes, said
leads each extending from one extremity of said
bladder to a respective one Of said extended holes,
each said power lead also extending to a respective
one of said thermistors,
whereby the relationship between the plurality of
holes in each of said electrodes and said power
leads provides for uniform heating on a surface of
each of the respective electrodes.
18. The exPandable electrode assembly according to
claim 17 wherein each of said thermistors is further
connected to a common ground lead on said other surface.
19. An ablation method for selectively destroying the
lining of a body organ having a supporting mass under
the lining, said method comprising the steps of:
passing a radio frequency current having a frequency
of at least 250 kHz from an expandable member
conforming to the lining and filled with an electrically non-conductive medium, wherein said current is passed through a portion of the lining to
resistively heat in a single operation the lining to a
temperature within a range from 45° C. to 90° C.
for a time sufficient to destroy the cells of the lining
while maintaining an average temperature of the
supporting mass at a temperature below approximately 42° C.;
monitoring the temperature of the lining and reducing said current when said monitored temperature
exceeds a predetermined value.
20. The method of claim 19 wherein the body organ
is a uterus, the lining is the endometrium of the uterus,
and the supporting mass is a myometrium of the uterus.
21. The method of claim 19 wherein said portion of
the lining includes the entire inner surface of the lining.
22. An ablation method of claim 19 wherein the
method comprises an endometrial ablation method for
selectively destroying the endometrial lining of a uterus
having a myometrium layer under the endometrial lining, said endometrial ablation method comprising the
steps of:
passing a radio frequency current having a frequency
of at least 250 kHz from an expandable member
conforming to an inner surface of the lining and
filled with an electrically non-conductive medium,
wherein said current is passed through substantially the entire inner surface of the lining to resistively heat in a single operation said lining to a
temperature within a range from 45° C. to 90° C.
for a time sufficient to destroy the cells of the lining
while maintaining an average temperature of the
myometrium at a temperature below approximately 42° C.;
monitoring the temperature of the surface of said
lining and reducing said current when said monitored temperature exceeds a predetermined value.
* * * * *

65

MS100171159

Appx40649

